<html>
<title> - PUBLIC LANDS AND FORESTS BILLS</title>
<body><pre>[Senate Hearing 111-65]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-65
 
                     PUBLIC LANDS AND FORESTS BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                           S. 409                                S. 1139

                           S. 782                                S. 1140

                           S. 874



                                     

                               __________

                             JUNE 17, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources

                  U.S. GOVERNMENT PRINTING OFFICE
51-474                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, Arizona
ROBERT MENENDEZ, New Jersey          ROBERT F. BENNETT, Utah
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Chavez, Roy C., Concerned Citizens and Retired Miners Coalition, 
  Superior AZ....................................................    26
Cooeyate, Norman, Governor of the Zuni Tribe, Inter-Tribal 
  Council, Phoenix, AZ...........................................    22
Farquhar, Ned, Deputy Assistant Secretary, Land and Minerals 
  Management, Department of the Interior.........................     8
Holtrop, Joel, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................     4
Kyl, Hon. Jon, U.S. Senator From Arizona.........................    16
McCain, Hon. John, U.S. Senator From Arizona.....................     6
Salisbury, David, President, Resolution Copper Mining, LLC, 
  Superior, AZ...................................................    32
Shearer, Rosemary, Executive Director, Superstition Area Land 
  Trust (SALT), Apache Junction, AZ..............................    36
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    41

                              Appendix II

Additional material submitted for the record.....................    61


                     PUBLIC LANDS AND FORESTS BILLS

                              ----------                              


                        WEDNESDAY, JUNE 17, 2009

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:36 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order. The 
chairman of our full committee is here, and he's been very, 
very helpful to this subcommittee in terms of dealing with 
these issues, and I'd like to recognize Chairman Bingaman for 
his statement before I and Senator Barrasso have anything to 
say.

 STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW MEXICO

    The Chairman. Thank you very much, Senator Wyden, and 
thanks for having this hearing. These are important bills that 
you're considering today, and I appreciate it.
    I wanted to just take a minute and flag my interest in two 
of the items, particularly, two of the bills that are on your 
agenda.
    The first is S. 874--that's a bill that I introduced, along 
with Senator Udall, to establish to a 236,000-acre El Rio 
Grande Del Norte National Conservation Area.
    This Conservation Area includes extinct volcano cinder 
cones, Pinyon-Juniper woodlands, and high-mason sagebrush 
grasslands. It incorporates the upper reaches of the Rio Grande 
Gorge, which was previously designated as a wild and scenic 
river, and the Conservation Area provides an important habitat 
for a variety of wildlife.
    The area includes important cultural resources that reflect 
the settlement of this area by Pueblo Indians, and later by 
early Hispanic settlers. Finally, the proposed Conservation 
Area is a very popular recreation area in our State.
    I've reviewed the Department of Interior's testimony on the 
bill, I'm very glad to see their support for the proposal.
    The other bill I wanted--let me mention, also, in 
connection with that bill that there--I have received 
statements of support from Governor Richardson, in New Mexico, 
our New Mexico State House of Representatives, from the Taos 
County Commission, from the pueblo of Taos, and numerous other 
businesses and organizations, and I would ask consent that we 
include those statements in the record.*
---------------------------------------------------------------------------
    * Statements have been retained in subcommittee files.
---------------------------------------------------------------------------
    Senator Wyden. Without objection, so ordered.
    The Chairman. The other bill I wanted to mention briefly is 
S. 409, this is the bill Senator Kyl and Senator McCain have 
proposed to set up a land exchange between the Resolution 
Copper Company, the Forest Service and the Bureau of Land 
Management to facilitate the development of a large copper mine 
in Southeast Arizona.
    I've met with Senator Kyl and Senator McCain on this issue, 
as well as Mr. Salisbury, the President of Resolution Copper, 
who's testifying today. Our staffs have met several times to 
try to address how the land exchange should be structured. 
Obviously there are substantial economic benefits that people 
could foresee from this development in Southeast--or Southern 
Arizona--Southeast Arizona. There are also environmental and 
cultural issues that need to be considered.
    It's been my thought that the best way to proceed would be 
direct the Forest Service to prepare an Impact Statement and 
then based on that analysis, determine whether it's in the 
public interest to proceed.
    I understand the company has concerns about undertaking 
very expensive exploration activities without having more 
certainty that the exchange will proceed, so that is, I'm sure, 
going to be a focus of the testimony today.
    I'd like to extend a warm welcome to two of our witnesses 
today. Ned Farquhar, who will be representing the Department of 
Interior today has previously served as an advisor to Governor 
Richardson. It's my understanding that today is the first time 
that Ned has testified in his new capacity in the 
administration, so I'd like to welcome him.
    Also, Governor Cooeyate, who is from Zuni Pueblo, is here 
testifying in connection--or in relation to--the Resolution 
Copper land exchange legislation, I welcome him, as well.
    Thank you, again, Mr. Chairman, for your courtesy. I'm not 
able to stay for the full hearing, but hopefully can hear some 
of the testimony, thank you.
    Senator Wyden. Mr. Chairman, thank you.
    Let me say, again, what a historic day it was a few weeks 
ago when we were at the White House, and the President signed 
that Public Lands package. Over 100 bills, and I thank you for 
your leadership.
    The Chairman. You were responsible for moving many of those 
bills through this subcommittee, so we appreciate your good 
work.
    Senator Wyden. Thank you, and we'll be teaming up, here, 
again.
    Today we're going to be receiving testimony on a number of 
bills before the committee, these include S. 409, offered by 
the Arizona Senators, the Southeast Arizona Land Exchange and 
Conservation Act, that's S. 782, offered by the Alaska 
Senators, to provide for the establishment of the National 
Volcano Early Warning and Monitoring System, the legislation 
Chairman Bingaman has just mentioned, S. 874, S. 1139, that 
will allow a Forest Service Compound Conveyance Act, and S. 
1140, the La Pine Land Conveyance Act, two pieces of 
legislation that I introduced to convey lands from the Forest 
Service and Bureau of Land Management to the city of Wallowa, 
and also to Deschutes County, respectively.
    I also want to thank the chairman and the ranking minority 
member for their courtesy. We've all been juggling what we 
thought was going to be around-the-clock afternoon in terms of 
healthcare and the chairman gave us a chance to start this a 
little bit earlier, and we appreciate that and the witnesses 
for their flexibility in accommodating the schedule change.
    Before we begin, just a few words about the two pieces of 
legislation I introduced. These are important bills that we 
think are going to promote cultural history and economic 
development opportunities in rural Oregon. Like many places in 
the West, the Federal Government owns much of the land that 
surrounds these small communities and very often, you've got to 
have the Federal Government actively working in partnership 
with these communities.
    It's my hope that this legislation will show the positive 
potential that can grow from that partnership.
    The first bill that will allow a Forest Service Compound 
Conveyance Act, would convey an old Forest Ranger Station 
Compound to the city of Wallowa, Oregon, for use as a community 
interpretive center at the site.
    The city of Wallowa, along with County Commissioners, the 
local arts organizations and a broad group of community leaders 
intend to restore this important example of the rustic 
architecture of my region, built originally by the Civilian 
Conservation Corps.
    The second piece of legislation, the La Pine Land 
Conveyance Act, would convey two parcels of property to 
Deschutes County, Oregon. The bill directs the Bureau of Land 
Management, in effect, to transfer lands to Deschutes County, 
this is going to enable the small town of La Pine to develop 
rodeo and equestrian facilities, public parks and other 
recreation facilities.
    We've had a chance to work with community leaders on these 
projects, I think they've done exciting work, exactly the kind 
of work that brings folks together in the rural West, and we 
look forward to working with them to get the legislation 
passed.
    I think a number of our colleagues are on their way, but 
with an interest in expediting the proceedings, here, this 
afternoon, let's bring Mr. Farquhar--Ned Farquhar, Deputy 
Assistant Secretary, Land and Minerals Management, Department 
of Interior, and Mr. Joel Holtrop, Deputy Chief, the National 
Forest System, the Forest Service, Department of the Interior, 
gentlemen, if you all will come forward, we will get started 
with your testimony.
    Thank you, both, very much for coming. I think you all have 
heard me say on a number of occasions that what we'd like to do 
is put your prepared remarks into the hearing record in their 
entirety. I know that there is almost a physiological 
compulsion to just read the statement that we're going to make 
as part of the record, and if you could just summarize your 
views in 5 minutes, or so, that would be very helpful.
    Why don't we begin with you, Mr. Holtrop?

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Thank you very much, Mr. Chairman, and I will 
just highlight just a few of the key things from my total 
testimony.
    I thank you for the opportunity to appear before you today 
to provide the Department of Agriculture's views on two of the 
bills that would legislate land transactions, S. 409, and S. 
1139.
    S. 409, Resolution Copper Exchange, is a complex bill that 
directs the Secretary of Agriculture to convey to Resolution 
Copper Mining, land on the Tonto National Forest if certain 
conditions are met. The Federal lands to be exchanged may 
contain a sizable copper ore body, and are adjoining an 
existing copper mine.
    In exchange, the bill provides the Forest Service certain 
lands in the State of Arizona, and the Department has not 
completed its analysis of this complex bill, and the 
administration will provide its views and concerns to the 
committee upon completion of this work.
    The bill requires the Agency to conduct an Environmental 
Impact Statement after the Agency no longer owns the property 
in which the mine would be located. The purpose of the National 
Environmental Policy Act is to inform the decisionmaker about 
potential impacts, prior to making a decision. Given the 
current language, we would assume that we would only be 
analyzing impacts from mining activities on the surrounding 
National Forest Land, not the land to be conveyed.
    Consistent with administration policy, NEPA should be done 
before moving forward on the land exchange. We also have 
specific concerns, which we have identified in our testimony.
    Regarding S. 1139, the Wallowa Conveyance, this would 
require the Secretary of Agriculture to enter a property 
conveyance with the city of Wallowa, Oregon, to convey without 
consideration, the Wallowa Ranger Station.
    The Department appreciates the committee's efforts to 
assist the city of Wallowa, Oregon with historic, cultural, and 
economic development, however, we have significant concerns 
with conveyance of the compound without compensation to the 
taxpayer, and would ask the committee defer consideration of 
this conveyance at this time.
    The Forest Service has identified the Wallowa Forest 
Service compound as a site that should be sold under the Forest 
Service Facility Realignment and Enhancement Act, allowing the 
proceeds from the sale to be used to address other 
administrative site needs. Therefore, conveyance without 
consideration would remove the proceeds from the sale. In 
addition, the Forest Service has expended funds to repair and 
improve the compound, as required by the Realignment Act.
    The Forest Service desires to reinvest proceeds from the 
sale and other deteriorating infrastructure on the forest, as 
provided for in the Act.
    Finally, we would request that the subcommittee defer 
consideration of this bill, while we continue to explore 
options with the city of Wallowa, in an attempt to address 
their interests.
    This concludes my statements, and I'd be happy to answer 
any questions you may have.
    [The prepared statement of Mr. Holtrop follows:]

   Prepared Statement of Joel Holtrop, Deputy Chief, National Forest 
           System, Forest Service, Department of Agriculture

                           S. 409 AND S. 1139

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to provide the Department of 
Agriculture's views on two bills that would legislate land 
transactions: S.409, would provide for an exchange of federal land 
containing a proposed copper mine for non-federal land containing 
riparian areas in Arizona and S.1139, would convey an administrative 
site in Wallowa, Oregon. We defer to the Department of the Interior on 
provisions relating to lands to be managed by the BLM.
S. 409--Resolution Copper Exchange
    S.409 is a complex bill that directs the Secretary of Agriculture 
to convey to Resolution Copper Mining, LLC (Resolution Copper), lands 
on the Tonto National Forest if certain conditions are met. The federal 
lands to be exchanged may contain a sizeable copper ore body and are 
adjoining an existing copper mine. In exchange the bill provides the 
Forest Service certain lands in the state of Arizona. The Department 
has not completed its analysis of this complex bill and the 
Administration will provide its views and concerns to the Committee 
upon completion of this work. Nevertheless, there are still a number of 
preliminary concerns with the bill as introduced.
    The bill requires the agency to conduct an environmental impact 
statement after the agency no longer owns the property on which the 
mine would be located. The purpose of the National Environmental Policy 
Act (NEPA) is to inform the decision maker about potential impacts 
prior to making a decision. Given the current language, we would assume 
that we would only be analyzing impacts from mining activities on the 
surrounding National Forest land, not the land to be conveyed. 
Consistent with Administration policy, NEPA should be done before 
moving forward on the land exchange.
    The bill proposes to use any cash equalization payment for multiple 
purposes including management. Any equalization payment by the exchange 
proponent should be deposited into the Federal Land Disposal Account.
    The bill proposes that Resolution Copper replace the Oak Flat 
Campground. We have been unable to locate a suitable replacement site 
for a campground in the vicinity. Funding provided in the bill to 
replace the campground provided to the Tonto National Forest should 
instead address deferred maintenance needs of existing recreation 
facilities.
    The bill directs Resolution Copper to convey a parcel of land known 
as ``the Pond parcel.'' We are concerned about recreation related 
liability issues, access, and facilities needed to manage this parcel. 
A public interest determination analysis under NEPA should be required 
and provide the basis for determining whether to proceed with the 
conveyance.
    We understand there are concerns about management of the Apache 
Leap area and in addition, the acreage that would be added to this 
area. We are concerned about adding another planning process as 
prescribed in the bill because it is duplicative of an ongoing Tonto 
National Forest Planning process which can analyze and provide for, if 
necessary and appropriate, a special management area.
    Many of the lands to be exchanged in the bill hold significant 
cultural value to Indian Tribes. In particular, the Apache Leap area, 
the Oak Flat Campground, and Devil's Canyon are culturally significant 
to the San Carlos Apache Tribe and the Fort McDowell Yavapai Nation. 
There are also other neighboring Tribes with cultural interests in the 
area. We will continue to work with these Tribes as we move forward 
with the analysis.
    The bill states that Resolution Copper will surrender the right to 
commercially extract minerals under Apache Leap ``or'' the Pond parcel 
but not both. This language should be clarified by changing the word 
``or'' to ``and.''
    The bill would provide that it is the sense of Congress that the 
exchange to be completed in one year. We appreciate the sponsors' 
interest in expediting this project. However, if an environmental 
impact statement is required on the mining operation on the parcel to 
be conveyed, prior to conveyance, we will most likely exceed this time 
frame. We anticipate that there will be considerable concern with any 
decision and there is a likelihood of administrative appeal and 
litigation.
S. 1139--Wallowa Conveyance
    S. 1139 would require the Secretary of Agriculture to enter into a 
property conveyance with the City of Wallowa, Oregon to convey without 
consideration the Wallowa Ranger Station located at 602 West First 
Street, Wallowa, Oregon. The Department appreciates the Committee's 
efforts to assist the City of Wallowa, Oregon with historic, cultural 
and economic development. However, we have significant concerns with 
conveyance of the Compound without compensation to the taxpayer and 
would ask the committee defer consideration of this conveyance at this 
time.
    The Forest Service has identified the Wallowa Forest Service 
Compound as a site that should be sold under the Forest Service 
Facility Realignment and Enhancement Act (FSFREA), allowing the 
proceeds from the sale to be used to address other administrative site 
needs. Therefore, conveyance without consideration would remove the 
proceeds from the sale. In addition, the Forest Service has expended 
funds to repair and improve the Compound, as required by the FSFREA. 
The Forest Service desires to re-invest proceeds from the sale in other 
deteriorating infrastructure on the forest as provided for in the Act.
    In addition, S.1139 includes a requirement for reversion to the 
Secretary if the facility is used for other purposes or managed by the 
City of Wallowa in a manner that is inconsistent with an interpretative 
center or non-profit status. Further, this bill would set a precedent 
for conveyance of similar properties across the nation contrary to the 
intent of the Facilities Realignment and Enhancement Act. Finally we 
would request that the subcommittee defer consideration of this bill 
while we continue to explore options with the City of Wallowa, in an 
attempt to address their interests.
    This concludes my statement and I would be happy to answer any 
questions you may have.

    Senator Wyden. Mr. Holtrop, thank you.
    We've been joined by Senator McCain.
    If it's all right with you, Mr. Farquhar, we'll have 
Senator McCain speak. One of the exciting things about this 
session of Congress is that we've had Senator McCain join us. 
We work together often on these kinds of issues, and welcome 
you, and please proceed as you'd like.

          STATEMENT OF HON. JOHN MCCAIN, U.S. SENATOR 
                          FROM ARIZONA

    Senator McCain. Thank you very much, Mr. Chairman, and 
I'll--if it's agreeable to you, because we have another panel 
of witnesses, as well, defer--make my prepared statement part 
of the record.
    Look, this is a land exchange that's been around for a long 
time.
    Mr. Holtrop, the Forest Service favored this for the last 
three Congresses, now we have a new administration, now you 
don't favor it. That's disgraceful.
    This is an opportunity to provide much-needed resources for 
America and the world. It is a highly respected corporation, it 
is a job creator, it is ecologically sound, and now, after all 
of these years of Forest Service support, you now defer that we 
move forward.
    We've got a company, here, that has to invest more than 
$750 million, and $3.5 billion more to get the best copper in 
the world, and this company, this corporation has an 
outstanding record, and an outstanding reputation.
    These are much--going to be--much-needed resources, it 
could be the biggest in North America, producing 20 percent of 
United States copper demand, and it will create over 2,600 
mining, and non-mining jobs, and the revenues could be in 
excess of $10.7 billion.
    You didn't mention, of course, the fact that we would be 
trading land, which is incredibly environmentally sensitive, 
and very important to preserving the great natural treasures of 
our State of Arizona.
    Let me express my extreme disappointment--extreme 
disappointment--that you would reverse the position of the 
previous administration, for--I think--because it's a change in 
administration.
    So, I understand that your opposition will probably make 
this bill very difficult, if not impossible, to pass. You are 
doing a great disservice--a great disservice--to the State of 
Arizona, and to the people that live in it, and the people of 
this country that may need, very badly, copper in the future.
    Mr. Chairman, I yield the balance of my time.
    [The prepared statement of Senator McCain follows:]

  Prepared Statement of Hon. John McCain, U.S. Senator From Arizona, 
                               on S. 409

    Chairman Wyden, and members of the Subcommittee, I greatly 
appreciate your consideration of S. 409, the Southeast Arizona Land 
Exchange and Conservation Act as part of today's hearing. As you know, 
the bill would facilitate an important land exchange that will 
ultimately protect environmentally sensitive lands in Arizona, while 
providing a much needed economic engine for the Town of Superior, the 
State of Arizona, and indeed, the nation.
    This legislation would direct the federal government to convey to 
Resolution Copper, LLC, just under 3,000 acres of Forest Service land 
known as ``Oak Flat'' near Superior, Arizona. Oak Flat lies adjacent 
to, and is intermingled with, Resolution Copper's existing private land 
holdings which include the old abandoned Magma Copper Mine. In fact, 
approximately 75 percent of the Forest Service parcel is overlain with 
unpatented mining claims owned by the company. Resolution Copper would 
utilize the Oak Flat parcel to explore what promises to be one of the 
largest copper ore bodies in the world.
    In return, Resolution Copper would convey approximately 5,000 acres 
of highly environmentally sensitive lands to the Forest Service and the 
Bureau of Land Management (BLM) for federal protection. All of the non-
federal lands were selected in consultation with the Forest Service, 
the BLM, and leading conservation groups, including the Trust for 
Public Land, Nature Conservancy, Sonoran Institute, and Audubon 
Arizona. The bulk acreage of these properties consists of the 7B Ranch, 
approximately 3,000 acres (a seven mile stretch) important to the 
protection of the Lower San Pedro River, one of the last free flowing 
rivers in the southwest. The 7B ranch also contains one of the largest 
remaining old growth mesquite forests in the country. Another critical 
property the BLM would receive is the Appleton Ranch, approximately 
1,000 acres which would result in the consolidation of an important 
birding area and conservation research ranch. The remaining acres to be 
acquired by the federal government are lands found throughout the state 
that contain sensitive habitat or offer unique recreational uses.
    In addition to the obvious conservation advantages, this bill also 
presents a tremendous economic opportunity for the State of Arizona. 
It's believed that the ore body under Oak Flat may be the largest in 
North America, capable of producing 20 percent of our domestic copper 
demand. Resolution Copper envisions that subsequent post-exchange 
development, which would be subject to the National Environmental 
Policy Act, would result in a 66-year project that would create over 
2,600 mining and non-mining jobs with a total economic impact of $46 
billion. In terms of fiscal impact, the project is estimated to 
generate total federal, state, county and local tax revenue in excess 
of $10.7 billion. Finally, the land exchange itself would provide over 
250 acres to the land-locked Town of Superior for economic development.
    It's human nature for people to be suspicious of a deal that sounds 
too good to be true. Indeed, some have questioned why we need 
legislation when there exists an administrative process for disposing 
and acquiring land. There are several reasons why this legislative 
exchange needs to move forward, Mr. Chairman. First, the Forest Service 
lacks the legal authority under the General Exchange Act to trade 
National Forest land for land outside a National Forest, which means 
the ecologically important San Pedro River and Appleton Ranch 
properties could not be included in an administrative exchange- a loss 
I refuse to accept. Second, before constructing the mine, Resolution 
Copper must complete extensive studies to develop a mining plan of 
operations, so for safety and accuracy, the company needs full access 
to the entire Oak Flat parcel. Third, Resolution Copper will need to 
invest more than $750 million for exploration activities and another 
$3.5 billion before commencing production. To justify making an 
investment of this magnitude, Resolution Copper needs to secure access 
consistent with industrial development of the land.
    Contrary to their statements at today's hearing, the Forest Service 
and the BLM are indeed familiar with this proposal. Similar legislation 
was introduced in the 109th Congress (S. 3157) and the 110th Congress 
(S. 2466), and in each Congress, both agencies appeared before this 
Subcommittee to provide testimony that thoroughly analyzed the bill and 
expressed overall support for the land exchange. Moreover, the Forest 
Service has twice affirmed that the acquisition of the environmentally 
sensitive non-federal land in exchange for the Oak Flat parcel was ``in 
the public interest.'' S.409 is nearly identical to previous versions 
of the bill, and any subsequent changes in the legislation reflect 
further stakeholder engagement including input from the Forest Service 
and the BLM. The Subcommittee hearing was noticed two weeks prior, and 
for both agencies to claim that the Administration hasn't completed its 
analysis of the bill is disheartening and disingenuous. I trust that in 
the coming days the Administration will provide a proper statement on 
S. 409.
    The fact is this bill presents a win-win opportunity for the people 
of Arizona and the nation. Not only would we protect several thousand 
acres of environmentally sensitive lands across the state, we'd allow 
Resolution the chance to provide new jobs and other economic benefits 
to Arizona through the development of what will be a state-of-the-art 
underground copper mine. I understand there are concerns over the 
potential environmental and cultural impacts that a new mine would have 
on the area, but it's important to note that those issues will be 
addressed post-exchange through existing federal and state laws, 
including the National Environmental Policy Act. Again, I thank the 
Chairman and the Subcommittee for their consideration of this 
legislation.

    Senator Wyden. Thank you, Senator McCain, and I look 
forward to working with you throughout this session on these 
bills.
    Mr. Farquhar, please proceed.

STATEMENT OF NED FARQUHAR, DEPUTY ASSISTANT SECRETARY, LAND AND 
        MINERALS MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Farquhar. Thank you, Mr. Chairman, Senator McCain.
    It's an honor to be here testifying today on 3 bills--S. 
409, S. 874, and S. 1140. I'll make my comments brief. In 
addition, I'm submitting some testimony on behalf of the United 
States Geological Survey on S. 782, the National Volcano Early 
Warning and Monitoring System Act.
    Ms. Mary Ann Guffanti, Senior Scientist with the Volcano 
Hazards Program at USGS, is accompanying me and will be happy 
to answer questions about that bill.
    I will briefly summarize, and ask that my entire testimony 
be made part of the record.
    S. 409 provides for the exchange of a 2,406-acre parcel of 
Forest Service-managed lands to a private company in exchange 
for a number of parcels within the State of Arizona for 
management by the Forest Service, and Interior's Bureau of Land 
Management.
    Three of the private parcels are identified for transfer to 
the Secretary of the Interior. In general, the Department of 
Interior defers to the Forest Service on the issues directly 
related to Forest Service lands, and the associated evaluation 
issues.
    There are several issues of concern to the Department of 
the Interior, including tribal issues, the timing of the 
exchange appraisal provision, the withdrawal language and the 
equalization of values provisions, as outlined in my written 
testimony.
    Regarding the El Rio Grande Del Norte bill, S. 874, that 
designates nearly 236,000 acres in Northern New Mexico, as well 
as two wilderness areas within a National Conservation Area, 
the proposed NCA lies North of Taos, on the border with 
Colorado, and straddles Taos and Rio Arriba Counties.
    Each of the NCAs designated by Congress, and managed by the 
BLM, is unique. For the most part, however, they have certain 
critical elements, which include withdrawal from the public 
land mining and mineral leasing laws, off-highway vehicle use 
limitations, and language that charges the Secretary of the 
Interior with allowing only those uses that further the 
purposes for which the NCA is established.
    This bill honors these principles, and we support the NCA's 
designation, as well as the designation of the two wilderness 
areas.
    S. 1140 proposes to transfer two parcels of BLM-
administered lands, totaling over 1,000 acres, to Deschutes 
County in Oregon. The lands are within, or adjacent to, the 
city of La Pine, Oregon, and the transfer is designed to 
provide the city with additional land to expand its wastewater 
treatment facilities, and develop a public rodeo grounds and 
equestrian center.
    The bill requires the lands be used only for purposes 
consistent with the Recreation and Public Purposes Act, and 
includes a reversionary clause to enforce this requirement.
    The BLM does not object to the proposed transfer, but we 
would like to work with the sponsor and the committee to modify 
the parcel boundaries.
    The National Volcano Early Warning and Monitoring System 
Act, S. 782, would organize, modernize, standardize, and 
stabilize the volcano monitoring systems and observatories in 
the United States, and would unify the monitoring systems of 
volcano observatories into a single, interoperative system.
    The United States is exposed to significant volcanic 
hazards. This bill, in accordance with the USGS mission of 
long-term monitoring and warning of volcanic activity, includes 
elements of a similar plan proposed by USGS in 2005.
    Thank you for the opportunity to testify, I would be happy 
to answer any questions.
    [The prepared statement of Mr. Farquhar follows:]

 Prepared Statement of Ned Farquhar, Deputy Assistant Secretary, Land 
          and Minerals Management, Department of the Interior

                                 S. 409

    Thank you for the opportunity to testify on S. 409, the Southeast 
Arizona Land Exchange and Conservation Act. The legislation provides 
for the exchange of a 2,406-acre parcel of Forest Service-managed land 
to a private company in exchange for a number of parcels within the 
State of Arizona for management by the Forest Service and the Bureau of 
Land Management (BLM). Three of the private parcels are identified for 
transfer to the Secretary of the Interior. In general, the Department 
of the Interior (DOI) defers to the United States Forest Service on the 
issues directly related to Forest Service lands and associated 
valuation issues. It is our understanding that the intent of the 
legislation is to facilitate an exchange of land with Resolution Copper 
Mining, LLC. Resolution Copper has indicated its intention to develop a 
copper mine near Superior, Arizona, and wishes to acquire the 2,406-
acre Forest Service parcel overlying the copper deposit as well as the 
Federal subsurface rights. The Administration may have additional 
concerns as it works through the analysis of the bill.
Conveyance of Parcels to the Bureau of Land Management
    We note that while the bill states that three parcels are to be 
conveyed to the Secretary of the Interior, it is our understanding that 
the intention of the sponsors is for the parcels to be under the 
administrative jurisdiction of the BLM. We have prepared maps at the 
request of Senator Kyl's office depicting these parcels and our 
testimony reflects the information on those maps dated June 3, 2009. We 
have recently discovered some inconsistencies in our mapping data. The 
parcels identified are:

  <bullet> 3,073 acres along the Lower San Pedro River near Mammoth, 
        Arizona;
  <bullet> 160 acres within the Dripping Springs area near Kearny, 
        Arizona; and
  <bullet> The 956 acre Appleton Ranch parcel adjacent to the Las 
        Cienegas National Conservation Area near Sonoita, Arizona.

    The lower San Pedro parcel is east of the town of Mammoth, Arizona, 
and straddles the San Pedro River. The acquisition of these lands would 
enhance key migratory bird habitat along the San Pedro River. S. 409 
directs the BLM to manage the lower San Pedro parcel as part of the 
existing San Pedro Riparian National Conservation Area (NCA) designated 
by Public Law 100-696. The lower San Pedro parcel lies along the same 
riparian corridor as the San Pedro NCA, but is at least 60 miles 
downstream (north) of the existing NCA, and has substantially different 
resource issues and needs.
    The legislation also proposes to transfer 160 acres in the Dripping 
Springs area northeast of Hayden to the BLM. This private parcel is an 
inholding within a larger block of public lands and has important 
resource values, including sensitive Desert Tortoise habitat.
    Finally, the bill provides for the transfer to the BLM of the 956-
acre Appleton Ranch parcel on the southern end of the BLM's Las 
Cienegas NCA. These lands lie within the ``Sonoita Valley Acquisition 
Planning District'' established by Public Law 106-538, which designated 
the Las Cienegas NCA. That law directs the Department of the Interior 
to acquire lands from willing sellers within the planning district for 
inclusion in the NCA to further protect the important resource values 
for which the NCA was designated. These lands are part of a significant 
wildlife corridor.
Additional Department of the Interior Concerns
    There are several additional issues of concern to the Department.. 
Among these are the timing of the exchange, appraisal provisions, 
withdrawal language, the equalization of values provisions and Tribal 
consultations
    Section 5 of the legislation expresses the sense of the Congress 
that the exchange be completed within one year. Based on our experience 
with exchanges, we believe this is not sufficient time for the 
completion of and review of a necessary environmental documents, 
mineral report, completion and review of the appraisals, and final 
verification and preparation of title documents. We are also concerned 
that one year may not be enough time to complete analysis of any 
historic and sacred sites in the exchange area as required by the 
Native American Graves Protection Act and the National Historic 
Preservation Act. While this provision is not binding, we believe it is 
unrealistic to expect this to be completed in less than two to three 
years.
    Preparation of a mineral report is a crucial first step toward an 
appraisal of the Federal parcel because the report provides important 
information for an appraisal where the property includes a Federal 
mineral deposit. Accordingly, adequate information for the mineral 
report is essential, particularly in the context of this exchange where 
the proposed mining operation is unique in size and scope. The bill 
does not address confidential access for exploration and development 
data and company analyses on the mineral deposits underlying the 
Federal land in order to ensure a timely and accurate appraisal.
    The withdrawal language in section 9(d) is not standard and may not 
provide the intended protection for the lands acquired by both the 
Secretary of the Interior and Agriculture.
    Section 4(e) provides for an equalization of values if the land 
values are disparate. We support 4(e)(1) directing any equalization 
payment by the exchange proponent be deposited into the Federal Land 
Disposal Account established under the Federal Land Transaction 
Facilitation Act (FLTFA; Public Law 106-248). Funds in that account are 
used for the acquisition of environmentally sensitive lands within 
Forest Service, BLM, National Park Service, and Fish & Wildlife Service 
units. We have concerns with the geographic scope of section 
4(e)(1)(A), and wish to broaden the area where land acquisitions could 
occur using proceeds from the land equalization. The funds could then 
be used in a manner consistent with other FLTFA acquisitions.
    However, section 4(e)(1)(B) provides for the use of these funds for 
management activities. We oppose this provision and recommend that 
subsection (B) be deleted. Because the deposited funds are a result of 
the exchange of lands out of Federal ownership, these funds should be 
available to acquire highly sensitive conservation lands consistent 
with the intent of FLTFA.
    S. 409 includes a provision in Section 12 that would require a 
payment to the United States should the cumulative production of 
locatable minerals exceed the projected production used in the 
appraisal required by section 7(a)(4)(D). This provision recognizes 
that an accurate projection of future production as part of the 
appraisal process will be difficult to develop, and provides a 
mechanism for additional payments to the United States should the 
actual production exceed the projected production. This provision needs 
clarification.
    Finally, rather than creating a new fund in the U.S. Treasury as 
envisioned under section 12(d), the Department recommends the receipts 
be placed in the Federal Land Disposal Account consistent with the 
provisions of section 4(e)(1)(A) of S. 409. Because these funds are to 
compensate for a possible initial inadvertent under-appraisal of land 
values, it is appropriate that the value when captured be used in the 
same manner as if it had been included in the initial appraisal.
    Many of the lands to be exchanged in the bill hold significant 
cultural value to Indian Tribes. In particular, the Apache Leap area, 
the Oak Flat Campground, and Devil's Canyon are culturally significant 
to the San Carlos Apache Tribe and the Fort McDowell Yavapai Nation. 
There are also other neighboring Tribes with cultural interests in the 
area.
Conclusion
    Thank you for the opportunity to testify. The exchange proposed in 
S. 409 is complex and the Administration is continuing its analysis of 
the bill to assure that the Federal government's interest is 
appropriately protected in any final legislation.

                                 S. 874

    Thank you for the opportunity to testify on S. 874, El Rio Grande 
Del Norte National Conservation Area Establishment Act. The Department 
of the Interior supports S. 874, which designates the nearly 236,000-
acre El Rio Grande Del Norte National Conservation Area (NCA) in 
northern New Mexico as well as two wilderness areas within the NCA.
Background
    The proposed El Rio Grande del Norte NCA lies north of Taos on the 
border with Colorado and straddles Taos and Rio Arriba Counties. The 
area includes the Cerro de la Olla, Cerro San Antonio and Cerro del 
Yuta volcanic cones jutting up from the surrounding valley--reminders 
of the area's turbulent geologic past. Between these mountains is the 
Rio Grande Wild & Scenic River gorge, carving through the landscape and 
revealing the basalt rock beneath the surface.
    The human history of the landscape is as diverse as its features. 
Early prehistoric sites attest to the importance of this area for 
hunting and as a sacred site. Today the area is home to members of the 
Taos Pueblo, as well as descendents of both Hispanic and American 
settlers. Wildlife species--including bighorn sheep, deer, elk and 
antelope--bring both hunters and wildlife watchers, while the Rio 
Grande and its tributaries provide blue ribbon trout fishing and other 
river recreation. Above it all soar the golden and bald eagles, prairie 
falcons, and other raptors.
S. 874
    S. 874 designates nearly 236,000 acres of land administered by the 
Bureau of Land Management (BLM) as El Rio Grande del Norte NCA. Each of 
the NCAs designated by Congress and managed by the BLM is unique. For 
the most part, however, they have certain critical elements, which 
include withdrawal from the public land, mining and mineral leasing 
laws; off-highway vehicle use limitations; and language that charges 
the Secretary of the Interior with allowing only those uses that 
further the purposes for which the NCA is established. Furthermore, NCA 
designations should not diminish the protections that currently apply 
to the lands. Section 3 of the bill honors these principles, and we 
support the NCA's designation.
    Section 4 of the S. 874 designates two wilderness areas on BLM-
managed lands within the NCA--the proposed 13,420-acre Cerro del Yuta 
Wilderness and the 8,000-acre Rio San Antonio Wilderness. Both of these 
areas meet the definitions of wilderness. They are largely untouched by 
humans, have outstanding opportunities for solitude and contain 
important geological, biological and scientific features--criteria 
outlined in the Wilderness Act of 1964. We support both of these 
wilderness designations as well.
Conclusion
    Senator Bingaman's bill is the product of many years of discussions 
and collaboration with the local community, stakeholders, and other 
interested parties. It protects both the valuable resources of the area 
and the way of life in this unique area of northern New Mexico.
    Thank you for the opportunity to testify in support of S. 874.

                                S. 1140

    Thank you for the opportunity to testify on S. 1140, the La Pine 
Land Conveyance Act. The BLM does not object to the conveyances in S. 
1140. We note that these conveyances are consistent with our existing 
authority under the Recreation and Public Purposes (R&PP) Act, so they 
could be accomplished administratively. We would also like to work with 
the sponsor and the Committee on modifications to parcel boundaries.
Background
    La Pine is a rural community located in southern Deschutes County, 
Oregon. The BLM and the City of La Pine have a long history of working 
together and have completed several Recreation and Public Purposes 
(R&PP) Act conveyances, including the sites of the La Pine library and 
fire station. Since La Pine is surrounded by BLM-administered lands, 
community leaders have held ongoing discussions with the BLM concerning 
the city's need for additional land to serve other public purposes.
    The R&PP Act authorizes the Secretary of the Interior to lease or 
convey public lands for recreational and public purposes, including 
campgrounds, municipal buildings, hospitals, and other facilities 
benefitting the public. The La Pine Special Sewer District submitted an 
R&PP application to BLM's Prineville District Office in 2007, and an 
amended application in January 2009, for 750 acres of BLM-administered 
lands on the eastern edge of the La Pine city limits. Their intention 
is to use the lands to expand their current wastewater treatment 
facilities. The parcel is largely vacant, but does contain a number of 
rights-of-way including a natural gas pipeline, transmission line, and 
roads. This parcel of land is shown as ``Parcel B'' on the map prepared 
at the request of Senator Wyden, dated May 22, 2009.
    Additionally, the City of La Pine has expressed an interest in 
developing a public rodeo grounds and equestrian center on a 320-acre 
parcel of BLM-administered lands adjacent to the southwest border of 
the city. This parcel is also largely vacant, but contains a number of 
rights-of-way, including a road and transmission lines. This parcel of 
land is shown as ``Parcel A'' on the map prepared at the request of 
Senator Wyden, dated May 22, 2009.
S. 1140
    S. 1140 proposes to convey, at no cost, to Deschutes County, 
Oregon, all right, title and interest of the United States to the two 
parcels (320 acres and 750 acres), detailed on the map prepared at the 
request of Senator Wyden, dated May 22, 2009. These conveyances would 
be subject to valid existing rights and are intended to address the 
city's stated need for additional land to accommodate the expansion of 
its wastewater treatment facilities and provide land for the 
development of a public rodeo grounds and equestrian center.
    The bill requires that the two parcels of land be used only for 
purposes consistent with the R&PP Act and includes a reversionary 
clause to enforce that requirement. Finally, the bill requires the 
County to pay all administrative costs associated with the transfer.
    As a matter of policy, the BLM supports working with local 
governments to resolve land tenure issues that advance worthwhile 
public policy objectives. In general, the BLM supports the proposed 
conveyances, as they are consistent with the existing R&PP authority. 
We also recommend modifying the boundaries of Parcel A to address an 
important travel corridor and shelter area for elk along the Little 
Deschutes River.
Conclusion
    Thank you for the opportunity to testify. We look forward to 
working with Senator Wyden and the Committee to address the needs of La 
Pine, Oregon.

    Senator Wyden. Thank you, both, and we'll just do some 5-
minute rounds.
    So, Mr. Holtrop, let's focus on Wallowa. I mean, this is a 
community that has just been flattened in recent years, and to 
a great extent I look at the Forest Service policies and I see 
those policies have contributed to a lot of the immense hurt 
that we are seeing there. Fifteen percent unemployment, lost a 
lot of family wage jobs. The Forest Service has slashed funding 
for managing harvest, for stewardship contracting, for 
recreation, and this community has directly felt the body blows 
as a result of those policies.
    So, now what they want to do is try to--with this 
conveyance--preserve this extraordinary history, these great--
these great facilities, this exceptional architecture of 
property built in the Civilian Conservation Corps days, and you 
all are going to say the developers can go out and develop it, 
and we're just going to sell it it's just going to be like 
anything else.
    My first question is, is what plans do the Forest Service 
have to ensure that these unique architectural features and the 
cultural and historic aspects of the property are going to be 
maintained if it's sold under existing law?
    Mr. Holtrop. The way that it would be sold under existing 
law--there are requirements in that, in the way we accomplish 
the selling of those administrative properties that we have 
already done some work on, invested some funds already into the 
building process, to make sure that--into the office complex--
to make sure that when they are offered that we're going to 
retain some of those character--this historic and cultural 
significance of them. As you know, they were all constructed 
during the CCC era, so they are important, culturally.
    I also appreciate that we need to be as part of this 
community, and we want to work with the community to help them 
accomplish their goals on this. Again, what our testimony is 
asking for is that you allow us some additional time, to work 
with the community, to look at some alternatives that would 
allow us to retain our longstanding policy of when national 
deferral assets are disposed of, that the American taxpayer 
gets a fair return for those.
    Senator Wyden. So, you're willing to work with the 
community, that's constructive. I still don't understand how an 
economically depressed, you know, town, you know--our 
unemployment rate rose again yesterday, and this part, you 
know, the State's been very hard-hit. I don't understand how an 
economically depressed community with few resources is going to 
be able to compete with commercial, you know, developers, but 
you have asked for some additional time, how long would you 
need? I mean, what can we do to make sure that this gets turned 
around in a prompt kind of fashion?
    I'm certainly open to what you're talking about, as long as 
I know that we are going to get to something that addresses the 
community's needs quickly.
    Mr. Holtrop. Mr. Chairman, I'd be more than happy to work 
with you to make sure that we expedite this appropriately.
    If we were to proceed by the offering of the property under 
the Realignment Act, our intent is to offer that for sale this 
fall. There are other options that we could continue to work 
with you and work with the city of Wallowa, as to whether there 
might be something that we could work directly with them. There 
may be other interests interested in acquiring the same 
property, and that's one of the fairness issues that we would 
need to address, but be willing to continue to work at looking 
at additional options.
    Senator Wyden. So, can I take out of this hearing that, I 
mean, the fall, that sounds like, essentially, 90 days, that we 
can talk in terms of 90 days and a effort by the Agency to try 
to work this out in a fashion that addresses the community's 
concerns about preserving these cultural and architectural and 
historic features of the property?
    Mr. Holtrop. To the extent that an agreement like this is 
dependent on more than just the Forest Service party, but you 
have my commitment that the Forest Service would work toward 
that end.
    Senator Wyden. Very good.
    Mr. Farquhar, you've been supportive of both of the pieces 
of legislation and we're going to work with you to try to 
address, I know, some of the concerns that the Agency has.
    I have additional questions, a number of colleagues have 
come on in, Senator McCain is here, why don't we let Senator 
McCain ask questions at this point, and then we'll go to our 
ranking minority member, Senator Barrasso, and Senator Risch is 
here, as well.
    So, after Senator McCain, Senator Barrasso, and Senator 
Risch.
    Senator McCain.
    Senator McCain. Mr. Chairman, I've been around long enough 
to know what the testimony of the two witnesses means, 
unfortunately.
    Mr. Holtrop, on two occasions you've testified before this 
subcommittee in support of this proposal. Last Congress you 
said, ``The proposed exchange would result in the protection of 
lands that have outstanding natural qualities. The Department 
supports the exchange, and believes that, overall, it's in the 
public interest.''
    Then, in 2006 you testified, and I quote, ``The Department 
believes the acquisition of the non-Federal parcels to be 
managed by the Forest Service is in the public interest, and 
would provide protection for riparian habitat and water rights, 
archeological sites, lands along permanently flowing stream, a 
year-round pond, an endangered cactus species. In this context, 
the Department supports the exchange.''
    Now, you have announced that you need more time. What were 
you doing the last 4 years?
    Mr. Holtrop. The testimony from the previous couple of 
times that I have testified on this did recognize the value of 
those parcels that would be acquired for----
    Senator McCain. Not only that, you said, ``The Department 
supports the exchange, and believes that it's overall in the 
public interest.'' You supported the exchange. Now you don't 
support it, you want more time. What's changed?
    Mr. Holtrop. There are a couple of things that have 
changed. One of the things that it's important to point out, 
that the Department did express support for it in the previous 
testimony, but also continued to recognize that there were 
concerns, and that--it was also part of my testimony----
    Senator McCain. You did not testify, Mr. Holtrop, in the 
last two Congresses that you wanted more time to study the 
issue, did you?
    Mr. Holtrop. We did not.
    Senator McCain. You did not.
    Mr. Holtrop. No.
    Senator McCain. No.
    Mr. Holtrop. But we, the----
    Senator McCain. But, now what has changed that now you need 
more time to study the issue?
    Mr. Holtrop. This is clearly a complex bill that the 
administration is saying that they have not developed----
    Senator McCain. It wasn't so complex the last Congress that 
you said you needed more time.
    Mr. Holtrop. One of the issues that we have had with the 
bill, throughout, is----
    Senator McCain. Did you mention that issue, and that you 
needed more time in the last Congress, Mr. Holtrop?
    Mr. Holtrop. I did not mention that I needed more time, did 
mention that there were concerns.
    Senator McCain. Mr. Chairman, let me just say that I would 
like to point out for the record what this land exchange would 
mean.
    It is a ranch called 7B Ranch, 3,000 acres, 7-mile stretch, 
important to the protection of the Lower San Pedro River, one 
of the last free-flowing rivers in the Southwest, contains the 
largest remaining old-growth mesquite forests in Arizona. The 
Nature Conservancy wants us to have the Federal acquisition of 
that.
    There's the Appleton Ranch, 1,000 acres in Santa Cruz 
county that would consolidate an important birding area and 
conservation research ranch. The Tucson Audubon Society and the 
Sonoran Institute strongly support the Federal acquisition of 
this ranch, and then there's other areas that are vitally 
important to the environment.
    So, we've got an economic side of this, and we've got 
protection of the environment. I'm proud of my record of 
preserving and enhancing the environment of my State of 
Arizona, and I'll put my record up against anybody's, anywhere.
    This is good for Arizona, to move forward, it's good for 
the country. Now, with a new administration, instead of the 
endorsement that we had from the agencies of government, we now 
say that they need more time.
    We know what that means, I've dealt with them before. We 
have been discussing this issue for 6 years, and the fact is, 
they know, that if you delay long enough, that Resolution 
Copper, who has already invested some $200 million to--in 
preparation for this exchange--is going to walk away from it. 
Arizona, the country, and the world will suffer because of it.
    Senator Wyden. I thank the Senator, and it's my intention 
to work very closely with him and Senator Kyl on this. I know 
this is a priority matter for you, and we will work closely 
with you.
    Senator Barrasso and Senator Risch.
    Senator Barrasso. Thank you very much, Mr. Chairman, I 
appreciate you holding this hearing. Thank you for coming to 
Wyoming, Mr. Holtrop, to visit with our friends a week or so 
ago.
    Mr. Farquhar, thank you very much for being here.
    Mr. Chairman, since the hearing is already underway I want 
to submit my comments for the record and I want to commend you, 
specifically, Mr. Chairman, for holding this hearing, today. 
It's important that we work on natural resource policy in this 
committee. We've spent considerable amounts of time on energy 
legislation, I'm glad we're moving to these important policy 
matters now.
    In that spirit, Mr. Chairman, I would like to ask for your 
cooperation to have the Good Neighbor Forestry Act added to our 
agenda as soon as possible. That's S. 1122. It's a simple, 
practical bill for land management. Currently, Senators 
Johnson, Risch, Udall of Colorado, Bennett of Colorado and 
Bennett of Utah are all co-sponsors of this bill.
    Mr. Chairman, this Good Neighbor legislation has languished 
in the committee since 2007, and I believe it is time, now, for 
a hearing.
    So, I would appreciate a hearing, if we could, on S. 1122, 
the Good Neighbor Forestry Act, and with that, I'll submit the 
remainder of my opening statement for the record, I'll submit 
questions for the record, and I see that Senator Kyl has 
arrived.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Barrasso follows:]

  Prepared Statement of Hon. John Barrasso, U.S. Senator From Wyoming
    Good afternoon, first I want to thank you, Mr. Holtrop, for 
visiting Wyoming recently.
    I hope your trip to Gillette went well. We appreciate your time.
    I want to commend the Chairman for holding this hearing today.
    It's important that we work on natural resource policy.
    We have focused a lot on energy in this committee--and it is good 
that we refocus now.
    In that spirit, I would like to ask for your cooperation, Mr. 
Chairman, to have the Good Neighbor Forestry Act added to our agenda as 
soon as possible.
    S. 1122 is a simple, practical bill for land management.
    Senators Johnson, Risch, Udall of Colorado, Bennet of Colorado and 
Bennett of Utah are cosponsors of the bill.
    Good Neighbor legislation has languished in this committee since 
2007, and it is time, now, that we hold a hearing.
    Thank you, and I'll submit my opening statement and questions for 
the record.

    Senator Wyden. Thank you, Senator Barrasso. It sounds 
reasonable, and we will be working with you toward that end.
    So, we have Senator Kyl here, or about to walk in?
    Senator Kyl, what's your pleasure? Senator Risch is here, 
do you have time for him to have his 5 minutes, and then go to 
you?
    Senator Risch. I'll yield to Senator Kyl.
    Senator Wyden. Very good.
    Senator Kyl. Would you like for me to be here, Mr. 
Chairman?
    Senator Wyden. Please, get comfortable, and we'll welcome 
your remarks when you are.

      STATEMENT OF HON. JON KYL, U.S. SENATOR FROM ARIZONA

    Senator Kyl. Mr. Chairman, members of the committee, I 
really appreciate your courtesies, thank you very much, both 
for allowing me to say a few words, and also interrupting the 
flow, here.
    I was just asking my staff, and I think, my colleague, 
Senator McCain has already weighed in a little bit, and so 
rather than reading my testimony, let me ask unanimous consent 
that it be submitted for the record.
    Senator Wyden. Without objection, so ordered.
    Senator Kyl. Basically encapsulate a couple of the key 
points.
    This is the fourth hearing that this legislation has had, I 
believe there are three in the Senate, and one in the House of 
Representatives. So, even though this is a new bill, it's not a 
new land exchange, and it's been around for between 3 and 4 
years, now.
    In every one of the hearings, the agencies involved--the 
Forest Service and the BLM--have testified in support of the 
exchange, and I think that's a point that Senator McCain made. 
I won't quote Mr. Holtrop's previous testimony, I will simply--
and I'm sure he would agree--that he spoke in fairly glowing 
terms about this legislation before.
    Nothing has changed except that some of the peripheral 
issues that existed before have been worked out between the 
parties, so if anything, the legislation has gotten better, so 
I know you would agree with that.
    So the question is, what's really different? One of the 
things that is evolving that I think is different is, when 
making the public interest determination--now, bear in mind 
that when the agencies do that, when the Department of Interior 
does it, it has to go--it usually goes through a process which 
involves all of the environmental reviews, and so on, and then 
it weighs the considerations and makes the public interest 
determination, in order to effect the land exchange.
    Ordinarily, as is in this case, the person who wants the 
exchange goes out and acquires a bunch of land that the Federal 
Government wants--usually environmentally sensitive land, as is 
the case here, and then they get an equivalent value of land to 
do whatever it is that they're seeking to do--precisely what's 
happening here.
    Because our society is evolving toward a more 
environmental-conscious society, with a lot of focus on going 
green--green cars, battery vehicles and all of there rest--we 
know that our society is going to require an enormous amount of 
copper. That was not the case before. You need copper.
    If you just look at wind, for example, large wind- driven 
turbine incorporates more than a ton of copper--one turbine. In 
the transportation systems, there a huge demand for copper, as 
well. In electric and hybrid car production use twice as much 
copper as traditionally designed vehicles, for example.
    Where's that copper going to come from? The good news is 
that America has a lot of good copper reserves--we're one of 
the biggest producers, my State is one of the biggest 
producers. This particular mine that would be developed as a 
result of the land exchange, is said to be potentially the 
richest vein of copper ever discovered in the United States of 
America. That's the good news.
    The bad news is, it's about 7,000 feet down, and they're 
not exactly sure how they're going to get it all out. But it's 
also good news that it's not an open-pit copper mine, as is the 
usual way of mining copper. It will be done by sinking a shaft 
and extracting it through that shaft.
    So, from an environmental standpoint, things are evolving. 
That was the idea when the legislation was fist introduced, but 
it has certainly matured since then.
    That goes into the public interest determination that 
Congress makes. Remember, in these land exchanges, when it's 
done by Congress, we get to decide what's in the public 
interest, not the agencies. As much as I love the agencies, I 
would respectfully disagree that they need more time to make 
public interest determinations, if that's the point. We make 
that determination.
    We also have spent how much money on a Stimulus Package? 
Talk about stimulus. This legislation would have a significant 
impact on jobs, on the Federal Treasury, on revenues for the 
State and local governments. Once in operation, this mine could 
have an impact of over $50 billion--one mine. Over $800 million 
a year if the price of copper were less--were a dollar less 
than it is today, that's calculated at $1.30 per pound.
    We need to put people back to work. There are about 1,400 
permanent high-quality, technical jobs involved in this 
particular mining activity.
    To me, the most important thing, here, I mean, it's 
important to put people to work, it's important to get revenue 
for our governments from an activity like this by developing a 
natural resource in America, which can be done in a very 
environmentally safe way.
    To me, the important thing is, we have an incredible 
resource, here, one of the richest finds of copper, ever. Why 
wouldn't we want to develop it? What's standing in the way--I 
don't know. Because the environmental concerns will--to the 
extent that they haven't already been addressed--every one of 
them will have to be addressed. Every environmental law, every 
NEPA statement, everything that we ever have to do, from an 
environmental standpoint, will have to be done, it's in the 
legislation, wouldn't have to be there, they'd have to do it, 
anyway.
    So, I don't really understand what the issue is. The land 
that's being acquired, everyone acknowledges, is very good, 
environmentally sensitive land. Most of the issues that relate 
to other uses of the land--the rock-climbers, and so on, has 
all been taken care of. You'll hear testimony from Native 
Americans, and I would submit that the proponents of the 
legislation can explain how all of those issues are dealt with.
    I'll just close with this point. America is great, over the 
last 200-plus years, because we have found ways to capitalize 
large investments in major projects that have brought a lot of 
wealth to the United States, including during mining activity. 
The people who are funding this activity have spent about $300 
million already, and have, essentially, nothing to show for it.
    The investors, last year, were beginning to ask, ``Are we 
ever going to have anything to show for this, or do we need to 
cut this off?'' I am concerned that if we don't get off the 
dime, and get this done, now, the opportunity will be lost. The 
people who are raising the capital to do this will say, ``We 
can't spend another couple hundred million dollars without any 
indication that at the end of the day we're going to be able to 
start producing copper.''
    Final point--in terms of land and valuation, there 
shouldn't be any issue, here, either. You've got 9 pieces of 
land that are being acquired, with great environmental value, 
you've got a known piece of land, here, that isn't worth 
anything, except for the activity that the owners would like to 
put it to, and the value is determined for both.
    What's not determined, yet, is the value of the copper in 
the ground. Whatever it is, this bill says, that's the royalty 
that will have to be paid to the United States.
    So, now, determining that is a hard thing. But the 
legislation takes care of that by saying, ``Whatever it turns 
out to be, the copper company has to pay it.''
    So, I really don't understand the reason for delay, I 
really urge the committee to move forward with the legislation, 
as quickly as you can. If there are questions, I think the 
people directly involved are very happy to try to get them 
answered. But I hope that the new position of the agencies, 
here, doesn't represent an effort to just slow this down and 
kill it through inaction. That would be a tragedy for our 
country.
    Senator Wyden. Senator Kyl, thank you.
    You have talked to me about this legislation on a number of 
occasions and made a number of points that certainly make sense 
to me. I'm going to have some questions about your bill, here, 
in a few minutes you're welcome to join us if you choose to, 
I'm sure you have a busy----
    Senator Kyl. I wish I could, and I know I'll get a report, 
and I thank you, again, I appreciate your courtesy in letting 
me just sort of parachute in here.
    Thank you, gentlemen, for allowing me to interrupt you.
    Senator Wyden. We'll be following up.
    Senator Risch, for questions.
    Senator Risch. I'll pass.
    Senator Wyden. OK.
    Mr. Holtrop, how much more time does the Forest Service 
need to review the legislation of Senator McCain and Senator 
Kyl?
    Mr. Holtrop. The administration is looking at what is 
clearly a very complex piece of legislation. I think the way 
for us to move forward on more understanding, what the 
administration's position on that should be, should be 
accomplished, largely, through the QFR process, through the 
questions for the record. The more precise questions you can 
ask of us, we'll be able to be responding to those, and that's 
one of the ways that I think we ought to be able to move 
forward on this.
    The administration position is that they have not developed 
a position on the bill, and I don't think there's an intent for 
that to be a delay that goes on and on. I think the intent is 
to better understand the complexities of the bill and be able 
to move forward.
    Senator Risch. Mr. Chair, could I?
    Senator Wyden. Yes. Sure, of course.
    Senator Risch. You indicated we should ask questions for 
the record? We don't have questions. It's my understanding the 
Forest Service has got questions. Or is it your intent to ask 
questions of the committee? I'm lost.
    Mr. Holtrop. I believe that there are some questions that 
remain as to when and what scope the NEPA documentation should 
be accomplished, and we're seeking some clarity from the 
committee as to what the committee's expectations are, there, 
and that we will be able to respond to that, and in response to 
questions for the record.
    Senator Wyden. I will tell you, Mr. Holtrop, I share my 
colleagues' frustrations with respect to the timetables, so let 
me kind of unpack this a little bit differently.
    The formal invitation to testify on the bill went to you 
all 2 weeks ago. Of course, the Forest Service has been 
familiar with the exchange, and Senator McCain, and Senator Kyl 
have talked about the fact this has been talked about for 
years, so, you've got to say, it's frustrating and 
understandable to not have the Department's complete views on 
the legislation.
    So, can you give us a date by which the subcommittee will 
have the administration's complete comments on the bill?
    Mr. Holtrop. Let me start by acknowledging the frustration, 
and I do understand that. I think it is important for us to 
move forward expeditiously in getting to the point of being 
able to clarify the administration position on this.
    One of the things that has been a complex issue for us to 
look at, again, it has to do with the NEPA documentation, and 
the timing of the NEPA documentation. I believe, again, I can't 
give you a specific date, but I do believe that if we utilize 
the process of looking at any questions that you might ask of 
us around, for the record, that that would help us clarify what 
that administration position is, in an expeditious fashion.
    There has been clarity, as my testimony indicates, that the 
administration has taken the position that NEPA should be 
completed prior to the land exchange, that's the 
administration's position.
    Senator Wyden. I think the Arizona Senators, and this 
subcommittee, have a right to know when we will get the 
administration's complete comments on the bill. I gather that 
you can't tell us that at this point, I hope you'll go back and 
get us an answer to that.
    Mr. Holtrop. I will do that.
    Senator Wyden. Very good.
    All right, a couple of other questions, just in terms of 
information----
    Senator Risch. Mr. Chairman, can I jump in, again?
    Senator Wyden. Sure.
    Senator Risch. You know, I guess I'm not ready to let it go 
at that.
    Senator Wyden. Fair enough.
    Senator Risch. I, you know, I sat here and listened to 
Senator McCain, and then I listened to Senator Kyl, and 
obviously they have different styles----
    [Laughter.]
    Senator Risch. But both indicate considerable frustration 
on this, and we're not getting answers, here. Are we talking a 
week, are we talking a month, are we talking 6 months?
    Mr. Holtrop, you've been in this business a long time. Give 
us a ballpark, and let's try to talk a little bit about that.
    Mr. Holtrop. Generally, I think--my experience on following 
up on a hearing such as this through questions for the record, 
usually that is accomplished in a number of weeks, a month, or 
something like that. That's sort of the timeframe that I'm 
thinking of, to try to get to the point of understanding all of 
the complexities of this issue.
    There--with the position of--that the administration has 
taken of completing NEPA prior to the land exchange, that would 
also allow us, through that process, to accomplish some of the 
complexities of working with some of the issues that we have 
with tribes, consulting with the tribes through the NEPA 
process, as well.
    Senator Risch. The NEPA process isn't going to start until 
after this bill passes, am I right on that? I mean, surely you 
wouldn't start NEPA if there isn't a project on the table?
    Mr. Holtrop. Yes, as long as there's a legislative process 
ongoing, we would be unlikely to decide to start a NEPA process 
through an administrative effort.
    Senator Risch. OK, so, then right here, I guess, we don't 
care about the time on NEPA, I mean, our job is to pass the 
bill. Once the bill's passed, then it's your job to do the 
NEPA, the court's to resolve the NEPA, et cetera.
    We're looking for a time that you're going to say, ``The 
administration gives us the thumbs up,'' or ``thumb's down,'' 
and why.
    What I'm short of, here, is what do you want us to ask you?
    Mr. Holtrop. I think there are questions that you might ask 
around the timing of NEPA, what the administration That's 
different than what the legislation says right now.
    Senator Risch. We're not tracking. I don't think anybody 
here cares about NEPA, that's after the bill passes. That's 
your Bailey wick after the bill passes.
    What, I think, this committee is looking for is a thumbs up 
or a thumbs down from the administration, in order to move 
forward on the legislation. Let's set NEPA aside, OK? You take 
care of NEPA when we're done. When are you going to be able to 
give us whatever you're going to give us so we can move forward 
on the legislation, and forget about NEPA at this point?
    Mr. Holtrop. OK. I promise to answer your question if I can 
just--I just would like to say one more thing about NEPA--I do 
believe NEPA would be our responsibility, what I'm seeking is 
clarity as to what is expected of NEPA.
    In answer to your question, as I mentioned to the 
chairman--it's a complex bill. I am not here ready to be able 
to tell you when, exactly, the administration would have a 
position on--of having worked through all of the details of 
this.
    I do think that if we were to do so through follow-up 
questions that you would have, that that would expedite the 
process for us, and so I don't think that that would happen 
it's a matter of weeks.
    Senator Risch. I don't have any follow-up questions. The 
questions I've got, the question I have is, is when are you 
going to give us the final product that you're going to give us 
so we can vote on the bill? No follow-ups, it's that simple.
    Mr. Holtrop. If there are no follow-ups, then I will work 
on getting you an answer to that question. I don't have it at 
this time.
    Senator Wyden. Mr. Holtrop, here's the way it's going to 
work, and Senator Risch has made an important point, my 
colleagues have made an important point. We are going to send 
you some questions for the record on this piece of legislation. 
Under the committee rules, you are required to respond to us, 
within 2 weeks. If you don't send us your position on the bill 
within those 2 weeks, we're just going to move on. We'll 
proceed, and make judgments, we work in a bipartisan way, I 
hope that you'll comply with the committee's rules and respond 
to our questions if you want the Agency's views considered, 
you'll get us the Agency's position on this bill within 2 
weeks. Is that clear enough?
    Mr. Holtrop. It's very clear.
    Senator Wyden. OK.
    We'll have some additional questions for both of you for 
the record, obviously.
    Senator Risch, anything else you want to cover?
    OK, let's go on to our next panel, gentlemen, we'll excuse 
you at this time.
    Mr. Holtrop. Thank you, Mr. Chairman.
    Senator Wyden. OK.
    I hope I am not doing violence to the Governor's name, but 
we have Governor Cooeyate, representing the Inter-Tribal 
Council of Arizona, Governor--got a thumbs up on that? OK, 
better quit while I'm ahead. The Governor represents the Inter-
Tribal Council of Arizona, Phoenix, Arizona, Roy Chavez, 
Concerned Citizens and the Retired Miners Coalition of 
Superior, Rosemary Shearer, Executive Director of Superstition 
Area Land Trust (SALT), Apache Junction, Arizona, and David 
Salisbury, President and CEO of Resolution Copper, Superior, 
Arizona.
    We appreciate everybody being with us today, we're going to 
make your prepared remarks a part of the hearing record in 
their entirety, we hope everybody will stick to 5 minutes or so 
by way of summarizing your principle views.
    Governor, why don't we start with you?

   STATEMENT OF NORMAN COOEYATE, GOVERNOR OF THE ZUNI TRIBE, 
               INTER-TRIBAL COUNCIL, PHOENIX, AZ

    Mr. Cooeyate. Thank you, Chairman.
    Before I begin my testimony, I'd like to ask the rest of 
the tribal leaders who are here with me to stand as I 
acknowledge them.
    I've got Clinton Pattea, the President for the Fort McDaly 
Apache Tribe, I've also got Chairman Wendsler Noise, for the 
San Carlos Apache Tribe, and I also have John Lewis, who is the 
Executive Director for Inter-Tribal Council of Arizona, with me 
today.
    Senator Wyden. We're very pleased that all of you are here, 
you are guests of the subcommittee and we're very happy that 
you're here with us.
    Please proceed.
    Mr. Cooeyate. Thank you, and I'll try to stay under 5 
minutes.
    Mr. Chairman, committee members and Guests. Keshi, k'o don 
la:k'yadinapkya. My name is Norman Cooeyate, I'm the Governor 
for the Zuni Tribe. My tribe is a member of the Inter-Tribal 
Council of Arizona.
    I speak today on behalf of the Inter-Tribal Council of 
Arizona (ITCA) which consists of 20 federally recognized 
tribes, nations and communities in Arizona who join together on 
matters of international, national, and statewide importance to 
the Tribes with lands which are now within the State of Arizona 
and other states.
    The Zuni tribe has worked to protect sites in the past. We 
were successful recently in the designation of Mount Taylor, 
Dewankwi Kyahachu Yalanne, as a cultural property in New 
Mexico.
    We fought for the protection of the sacred Zuni Salt Lake 
from depletion of groundwater pumping, and we were successful 
in the recovery for our people of Kolhu:wala:wa, the Zuni 
Heaven Reservation in northeastern Arizona. Now, we are 
grateful for this opportunity to address the subcommittee 
concerning the religious, cultural and environmental concerns 
of our 20 tribes related to the lands which would be impacted 
by S. 409.
    ITCA opposes the passage of S. 409 for many reasons 
including the fact that the proposed mine would destroy much of 
the earth in an area of Oak Flat, Apache Leap, Gaan Canyon and 
the Pond, that is of spiritual, religious, cultural and 
historical importance to Native Americans. A copy of the Inter-
Tribal Council of Arizona Resolution 0209* dated June 12, 2009, 
is attached to this presentation, our tribal members of the 
ITCA tribes and the children of the ancestors who first walked 
on the lands, which are the subject of S. 409.
---------------------------------------------------------------------------
    * Document has been retained in subcommittee files.
---------------------------------------------------------------------------
    Archeological evidence reveals our ancestors occupied, 
live, worshipped, died, and have been buried in this sacred 
land for thousands of years. Of course, these facts we know 
without validation of academics. Our songs, stories, religious 
practices, and our ancient gatherings together in this place of 
peace and refuge are a part of us even today. The shrines, 
sacred paintings, places of prayer and religious practices are 
near its springs, caves, canyons, and cliffs. The sacred 
plants, medicines, and paints and animal places nurtured by 
this place are there, too.
    These are the essential and irreplaceable elements of the 
religious and cultural practices of our people. We 
understanding that everything in our world is alive and has 
power. We have a name for everything, the plants, the animals, 
the birds, the atmosphere, the minerals, the winds, the stars, 
the bodies of water, the places and everything else, we 
recognize the power that each element of the natural world has, 
and that each individual power is directly related in 
particular holy beings.
    We need access to these places, in particular, for various 
species and ecosystems, in person or remotely, by physical 
access, prayer, songs, vision, or through ceremonials. Our 
traditional specialists use song cycles in ceremonials to and 
from this place--just like modern academics use formulas and 
technology--for the healing, protection, and physical and 
spiritual well-being and happiness of our tribes.
    Oak Flat is a flat part of the sky land, rising to heights 
from the arid lands surrounding it. It is a weather maker, it's 
a place of snow, rain, and refuge and religious worship. The 
great mountains of the Southwest rising from the arid land have 
provided us with points of reference and anchors for both our 
collective and unique identities since the beginning of time. 
We have survived in this arid land since the beginning, because 
of our relationship with them.
    These mountains are living beings, they were created during 
a time when the earth was formed, and since then they have 
provided and sustained life to all living beings. These are 
geological features which support Oak Flat, Apache Leap, and 
Gaan Canyon, and her sister mountains provide life to all 
living beings.
    Our ancestors, represented by the tribes who ask for your 
understanding and help today in our sacred mountains, all are 
born from the womb of Mother Earth. The area, Oak Flat and the 
canyon, known in Apache language as Gaan Canyon, and Apache 
Leap exist for the very special purpose which sustains our 
unique relationship with the natural world, therefore we have 
the responsibility to protect it, and in turn it provides for 
the people.
    The Apache leaders have spoken to you in the past, and they 
are in this room today. By their words, Oak Flat is Chich'il 
Bi. The proposed Resolution Mine will destroy the living place 
and its unique ecosystems. It will destroy the living things 
that are associated with holy beings, again, of Apache 
religion, the mountain spirits, to those who may not know these 
Apache words. It will forever alter and damage the waters of 
the land and below the ground, and from the springs. This water 
has been provided by the snow and rain as a blessing over this 
land for eons of time.
    Some things, such as the Resolution Mine, may look 
attractive at first, but when you--you are fully informed, you 
realize that they simply must not be done. The place, Oak Flat 
and Apache Leap, can not be replaced and should not be 
disturbed. The remains of our ancestors and other things 
related can not be, in good conscience, be moved or disturbed. 
We respectfully ask that you protect this sacred place, Oak 
Flat, Apache Leap, Gaan Canyon, and all that is part of it.
    Mr. Chairman, I respectfully request that the Resolution 
previously passed by ITCA, dated June 12, 2009, and a statement 
made by Shan Lewis, the President of ITCA, to this subcommittee 
a year ago, July 9, 2008, concerning S. 3157, the predecessor 
to S. 409, and a letter dated April 6, 2009, to the Honorable 
Nick J. Rahall, from Shan Lewis, also be part of the record 
entered today.*
---------------------------------------------------------------------------
    * Documents have been retained in subcommittee files.
---------------------------------------------------------------------------
    Personally, if I might ask, when I hear you talk in terms 
of consultation on a government-to-government level, I ask that 
this Federal Government abide by its trust responsibility in 
assuring that consultation occurs with governmental entities, 
such as Native Americans. I ask respectively that you have a 
government-to-government consultation with the Apache Tribes 
who are affected by this resolution.
    Thank you very much.
    [The prepared statement of Mr. Cooeyate follows:]

  Prepared Statement of Norman Cooeyate, Governor of the Zuni Tribe, 
              Inter-Tribal Council, Phoenix, AZ, on S.409

    Mr. Chairman, Committee Members and Guests. Keshi, k'o don 
la:k'yadinapkya. Good afternoon. My name is Norman Cooeyate, Governor 
of the Zuni (A:shiwi) Tribe. My Tribe is a member of the Inter-Tribal 
Council of Arizona.
    I speak today on behalf of the Inter-Tribal Council of Arizona 
(ITCA) which consists of 20 federally recognized Tribes, Nations and 
Communities in Arizona who join together on matters of international, 
national, and statewide importance to the Tribes with lands which are 
now within the State of Arizona and other states.
    [Governor Cooeyate may acknowledge certain Tribal leaders in 
attendance at this point in his presentation.]
    My Tribe, the Zuni Tribe, actively works to protect sacred places. 
We were successful in the recent designation of Mt. Taylor, Dewankwi 
Kyahachu Yalanne, as a Cultural Property in New Mexico. We fought for 
the protection of the sacred Zuni Salt Lake from depletion by 
groundwater pumping, and we were successful in the recovery for our 
people of Kolhu:wala:wa, the Zuni Heaven Reservation in northeastern 
Arizona. Now, we are grateful for this opportunity to address the 
Subcommittee concerning the religious, cultural and environmental 
concerns of our 20 Tribes related to the lands which would be impacted 
by S.409. ITCA opposes the passage of S.409 for many reasons including 
the fact that the proposed mine would destroy much of the earth in an 
area of Oak Flat, Apache Leap, Gaan Canyon and the Pond, that is of 
spiritual, religious, cultural and historical importance to Native 
Americans. A copy of the Inter-Tribal Council of Arizona Resolution 
0209 dated June 12, 2009 is attached to this presentation.
    Our Tribal members of the ITCA Tribes are the children of the 
ancients who first walked on the lands which are the subject of S.409. 
Archeological evidence reveals our ancestors occupied, lived, 
worshiped, died and have been buried in this sacred land for thousands 
of years. Of course, these facts we know without the validation of 
academics. Our songs, stories, religious practices, and our ancient 
gatherings together in this place of peace and refuge are part of us. 
The shrines, sacred paintings, places of prayer and religious practices 
are near its springs, caves, canyons, and cliffs. The sacred plants, 
medicines and paints and animal places nurtured by this place are 
there. These are the essential and irreplaceable elements of the 
religious and cultural practices of our people.
    We understand that everything in the natural world is alive and has 
power. We have a name for everything: the plants, the animals, the 
birds, the atmosphere, the minerals, the winds, the stars, the bodies 
of waters, the places, and everything else. We recognize the power that 
each element of the natural world has, and that each individual power 
is directly related to particular Holy Beings.
    We recognize that each of these elements works in concert with the 
other elements that make up an ecosystem. The power of each species is 
influenced by the other species in the ecosystem, and these 
combinations of power contribute to the power of the entire ecosystem. 
All of these powers are in turn influenced by the particular power of 
the place where they are found, so that the power of each ecosystem 
cannot be duplicated or replaced.
    We need access to this place and to particular species and 
ecosystems, in person or remotely, by physical access, prayer, song, 
vision, or ceremony. Our traditional specialists use song cycles and 
ceremonies to and from this place--just like modern scientists use 
formulas and technology--for the healing, protection, and physical and 
spiritual well-being and happiness of our Tribes.
    Oak Flat is part of a sky island rising to heights from the arid 
land surrounding it. It is a weather maker. A place of snow and rain, 
refuge and religious worship.
    The great mountains of the Southwest rising from this arid land 
have provided us with points of reference and anchors for both our 
collective and unique identities since the beginning of time. We have 
survived in this arid land since the beginning because of our 
relationships with them.
    These mountains are living beings. They were created during the 
time when the earth was formed, and since then they have provided and 
sustained life to all living beings. This great geologic feature, which 
supports Oak Flat, Apache Leap and Gaan Canyon, and her sister 
mountains provide life to all living beings.
    Our ancestors, represented by the Tribes who ask for your 
understanding and help today and our sacred mountains, are all born 
from the womb of Mother Earth.
    This area, Oak Flat, the canyon known in the Apache language as 
Gaan Canyon, and Apache Leap--exist for the very special purpose which 
sustains our unique relationship with the natural world. Therefore, we 
have the responsibility to protect it and it in turn provides for the 
people.
    The languages of our Tribes are ancient and unique. We are the 
keepers of these ancient words given to us for all things and places in 
the beginning. Therefore, we each have our own words for this area, its 
plants, animals and sacred paints and medicines.
    The Apache leaders have spoken to you in the past and they are in 
this room today. By their words, Oak Flat is Chich' il Bi [dagoteel]. 
The proposed Resolution Mine will destroy this living place and its 
unique ecosystems. It will destroy the living things that are 
associated with Holy Beings, the Gaan of the Apache Religion--the 
Mountain Spirits to those who may not know these Apache words. It will 
forever alter, and damage the waters on the land, and below the ground, 
and from the springs. This water has been provided by the snow and rain 
as a blessing to this land over the eons of time.
    We are careful and discrete in the practices of our religion. We 
are hesitant to provide this information because it may not be received 
with the proper respect. Such information has been used by those who 
would desecrate our sacred places, steal and destroy objects necessary 
to the practice of our religion, and to ravage the final resting places 
of our ancestors, our spiritual leaders, and the funerary objects 
placed there and ``put away'' to resume their place as part of the 
earth.
    Some things, such as the Resolution Mine, may look attractive at 
first, but when you are fully informed you realize that they simply 
must not be done. This place, Oak Flat and Apache Leap, cannot be 
replaced and should not be disturbed. The remains of our ancestors and 
other things related cannot be in good conscience be moved or 
disturbed.
    We respectfully ask that you protect this sacred place--Oak Flat, 
Apache Leap, Gaan Canyon, and all that is part of it.
    Mr. Chairman, we respectfully request that the Resolution 0209 of 
the Inter-Tribal Council of Arizona dated June 12, 2009, the statement 
made by Shan Lewis, President of ITCA to this Subcommittee on July 9, 
2008, concerning S.3157, the predecessor to S.409, and the letter dated 
April 6, 2009, to the Honorable Nick J. Rahall from Shan Lewis, 
President of ITCA, which are attached to my statement today, be made 
part of the record and carefully considered by the Senate.
    Thank you on behalf of all 20 Tribes of the Inter-Tribal Council of 
Arizona.

    Senator Wyden. Very good Governor, and we thank you and 
appreciate your views here today.
    Mr. Chavez.

  STATEMENT OF ROY C. CHAVEZ, CONCERNED CITIZENS AND RETIRED 
                 MINERS COALITION, SUPERIOR, AZ

    Mr. Chavez. Thank you, Senator, and thank you to the 
committee for this opportunity. I'd like to introduce to you at 
this time, Roger Featherstone--if you could stand--with the 
Arizona Miner Reform Coalition, and also----
    Senator Wyden. Welcome.
    Mr. Chavez [continuing]. Mike Bibey, Sierra Club, the Grand 
Canyon Chapter.
    Senator Wyden. Welcome to you, sir.
    Mr. Chavez. My name is Roy C. Chavez, I'm a member of the 
Concerned Citizens and Retired Miners Coalition, based in 
Superior, Arizona. On behalf of the Coalition and our partners, 
I would like to thank you, the committee, for this opportunity 
to express our views and voice our concerns about S. 409, that 
we believe will profoundly affect our community.
    As a lifelong resident of Superior and a graduate of 
Arizona State University, I've served 3 terms as former mayor 
and worked 5 years as town manager for the community. I have 
several years of mining experience with 4 different Arizona 
copper companies, including the division in Superior.
    As a community activist, I have been instrumental in local 
and regional planning and development, and I've also served as 
the past president of Superior Chamber of Commerce, along with 
several other civic and community organizations. For over 30 
years, I have also operated and owned a local business in 
downtown Superior.
    The Concerned Citizens and Retired Miners Coalition members 
include local residents, former miners, and friends of the town 
of Superior. The Coalition is not opposed to mining. In fact, 
we strongly support responsible mining practices in and around 
our community.
    However, we oppose S. 409, because it proposes to hand over 
Oak Flat Campground to Resolution Copper Company, a subsidiary 
of two foreign companies, without the necessary health, water, 
environmental, social, and cultural impacts analysis under the 
National Environmental Policy Act.
    This is public land and the public needs to be heard openly 
and fairly under the NEPA process. Oak Flat and Devil's Canyon 
are recognized as some of the most unique, scenic, popular, and 
unspoiled areas of the State of Arizona. They are easily 
accessible to millions of visitors from the Phoenix and Tucson 
metropolitan areas.
    Privatizing this land would end public access to some of 
the most spectacular outdoor recreation and wildlife viewing 
areas in Arizona. It would deprive the town of Superior from 
economic diversification in an ecotourism environment around 
our community.
    A decision regarding these public lands should be made with 
the utmost knowledge and care. Once these lands are lost to the 
public, they can never be regained. We are particularly 
concerned that this land exchange would bypass critical 
environmental impact studies that describe, at a minimum, where 
the massive amount of tailies will be dumped, how water 
pollution from mining activities will be prevented, how our 
water supply will react to this type of block cave mining 
methodology, to what extent the repairing habitat at Oak Flat 
and Devil's Canyon will be destroyed.
    Queen Creek directly feeds into the main water supply for 
the town of Superior. Block cave mining extracts massive 
amounts of underground stable earth, which causes an 
uncontrolled shift in the water course and potentially could 
alter the water course to pull away from our Queen Creek, 
depleting and disrupting the natural flow.
    In 1946, Clean Creek was called the perennial flowing 
stream. When the Magma Mine was in full production during the 
1960s ad 1970s, we remember how the repairing areas of Oak 
Flat, Queen Creek, and the town of Superior dried up. Any 
analysis regarding the impact of a potential mine of this 
magnitude at Oak Flat to the water balance of the entire 
region, should be conducted before this bill is even considered 
by Congress. We are alarmed about the issue of subsidence from 
the mine's proposed block cave method, and its effect on Oak 
Flat, Apache Lead, U.S. Highway 60, and the town of Superior.
    Underground mining, traditionally in Arizona, has been just 
that, underground. Until the 1940s and 1950s, the concept of 
block mining was initiated to go after low-grade oxide ore. 
These, ladies and gentlemen, are the results of what we have 
today in regards to open pit mining and the devastation of 
surface ground in the State of Arizona. The Superior Magma 
Copper Mine is one of the few or last mines that is 
underground. The surface subsidence does not occur and the 
waste by-product is minimal in this type of methodology, known 
as cut and fill.
    Resolution Copper admits they chose block cave method 
because it's the least expensive and quickest method to 
approach this massive ore body. However, experts have 
demonstrated that there will be irreparable destruction to the 
surface. I can testify to that as mayor, in discussing with 
Resolution when they first came to the community over 10 years 
ago, that they finally did admit that there could be surface 
subsidence.
    The overburden of this mine on the surface is defined as a 
tough or verconic compressed dust, which is very unstable. Even 
after closure, the potential for destructive ground movement is 
extremely high and can continue for decades. Ground movement, 
especially after closure, is uncontrollable. How much more 
destruction will take place after the mine is gone?
    Many members of our Coalition have lived through the boom 
and bust cycle of mining. Mining markets are volatile and 
unpredictable, as we have seen in recent areas close to our 
community, Pinto Valley, Safron, and the San Miguel areas. The 
loss of these natural recreation and already protected lands, 
compromise the potential for our community to foster, promote, 
and promote a more productive and diversified economy, based on 
tourism and outdoor activities.
    We can no longer base our future on one single industry or 
employer. S. 409 does not represent a land exchange that is in 
the broader public interest. Both Republican Presidents, 
Eisenhower and Nixon, believed that they were protecting Oak 
Flat from big business interests----
    Senator Wyden. Mr. Chavez, I don't want to interrupt you--
we've got a couple more witnesses and we're over our time. So, 
if you could summarize.
    Mr. Chavez [continuing]. In acquiring the lands for 
development and protection.
    No other mining company in our area has been allowed to 
bypass the Federal permitting process of NEPA. It is simply a 
bad policy. NEPA specifically asked that the government look 
before you leap, and this special interest legislation we 
believe is nothing more than forgiveness before permission. It 
is for these reasons that we ask that you oppose and we oppose 
the bill as presented.
    Thank you so much.
    [The prepared statement of Mr. Chavez follows:]

  Prepared Statement of Roy C. Chavez, Concerned Citizens and Retired 
               Miners Coalition, Superior, AZ, on S. 409

    The Concerned Citizens and Retired Miners Coalition is a group of 
citizens who: 1) reside in Superior, Arizona, or do not reside in 
Superior, Arizona, but are affiliated with relatives who are residents; 
2) are retired hard-rock miners who previously worked in the now non-
operational mine in Superior, Arizona, and were displaced due to mine 
closure or personal disability; or 3) are individuals who are concerned 
that important U.S. public recreational land will be conveyed to a 
foreign mining company for private use.
    The Concerned Citizens and Retired Miners Coalition realizes that 
Superior, Arizona, was born as a mining community and has lived through 
the mining booms and busts of the Silver King Mine, the Queen Mine, the 
Belmont Mine, the Magma Mine and the Broken Hill Proprietary Mine over 
the history of our 100 plus years. Because we recognize that mining is 
a large part of our history and will potentially be a larger part of 
our future, we are not opposed to mining. In fact, we strongly support 
responsible mining policies, and practices in and around our community. 
However, we believe that S. 409 is unacceptable as it presents serious 
negative impacts to us and our surrounding community as it seeks to 
circumvent the important National Environmental Policy Act (NEPA) 
review and analysis process. We also believe that there is no need for 
a land exchange for the mine to move forward with their plans to mine 
this area.
    We appreciate and thank you for the opportunity to express our 
views and voice our concerns about S. 409, the Southeast Arizona Land 
Exchange and Conservation Act of 2009 (Oak Flat Land Exchange) that 
will profoundly affect our community.

  OAK FLAT LAND EXCHANGE AND LOSS OF IMPORTANT PUBLIC CAMPGROUND AND 
                           RECREATIONAL AREAS

    Resolution Copper Mining, LLC, owned by Rio Tinto based in the 
United Kingdom, and BHP-Billiton based in Australia, is planning a 
massive block-cave mine and seeks to acquire Oak Flat Campground and 
the surrounding public lands for its use through this land exchange 
bill. If they succeed, the campground and an additional 2,406 acres of 
the Tonto National Forest will become private property and forever off 
limits to recreationists and other users. Privatizing this land would 
end public access to some of the most spectacular outdoor recreation 
and wildlife viewing areas in Arizona. It would deprive the Town of 
Superior, currently land-locked at only 4 (four) square miles, from 
economic diversification in and around our community. It would also 
deprive the San Carlos Apache Tribe of their religious and cultural 
attachments to the area.
    Located just 5 miles east of Superior, Oak Flat and Devil's Canyon 
are recognized as some of the most unique, scenic, popular and 
unspoiled areas in the State of Arizona; and they are an important part 
of our history and our economic diversification. It has long been 
prized for its recreational variety. This area is exquisite and easily 
accessible to millions of visitors from the Phoenix and Tucson 
metropolitan areas, as well as the outlying areas of Gold Canyon, Queen 
Valley, Florence, Kearny, Winkelman, Hayden, Globe, Miami, Top of the 
World and Superior. It is significant to our neighbors, the Apache 
people, for their cultural values and religious heritage.
    The Oak Flat Campground, Apache Leap, and the surrounding area are 
important to the Apaches who gather acorns and pine nuts that are used 
both traditionally and ceremonially. Apache Leap is an historical land 
known as the Apache's Masada. It is there that many Apaches leaped to 
their deaths rather than be captured by the U.S. Army approximately 125 
years ago. One of our local historians, Christine Marin, PhD, Archivist 
and Historian for Arizona State University and who is a former resident 
of Globe, Arizona, and still has family in Superior, Arizona, published 
an article in the Copper Country News dated June 11, 2008. In her 
article entitled, ``Apache Leap Legend: Now We Have `The Rest of the 
Story','' Dr. Marin indicated that the story of the Apache warriors is 
verified by two historical publications. We believe that these lands 
have significant import to the Apaches and that their wishes should be 
carefully considered and respected. It is because of this that on March 
18th of this year, The Concerned Citizens and Retired Miners Coalition 
joined in partnership with the San Carlos Apache Tribe in fighting to 
oppose S. 409.
    You, our Federal legislators, are being asked to give up these 
publicly owned lands that have been in trust for the American and 
Native peoples since 1955, when President Eisenhower signed BLM Public 
Land Order 1229. This Order specifically put Oak Flat off-limits to all 
future mining activity. In 1971, President Nixon issued BLM Public Land 
Order 5132 to modify PLO 1229 and allow ``all forms of appropriation 
under the public land laws applicable to national forest lands--except 
under the U.S. mining laws.'' These two executive orders from two 
different Republican administrations both mandated that these lands 
were to be preserved in perpetuity with special emphasis on prohibiting 
mining activities on Oak Flat. There is no compelling reason for these 
Orders to be overturned.
    A decision regarding these public lands should be made with utmost 
knowledge and care. Once these lands are lost to the public, they can 
never be regained.
    We are particularly concerned that this legislated land exchange of 
the Oak Flat Campground and surrounding area would bypass critical 
environmental impact studies. We fear that cultural resources will not 
be protected. We know, without a doubt, that subsidence will occur and 
that it will adversely affect our community. We don't have any 
information regarding RCC's proposed disposition of the massive amounts 
of tailings that will be produced and where they will reside. We are 
terrified that downstream pollution will affect the Town of Superior 
and everyone who depends upon the nearby aquifers for drinking water. 
Our local water supplier recently imposed an additional ``arsenic 
surcharge.'' While The Magma Mine was operational, local residents were 
told that there was no pollution or effects on the water supply. Now, 
20 years later, we find that there was--and continues to be--a price to 
pay for giving a foreign-owned mining company carte blanche because we 
trusted the mine explicitly. We are also worried that a mine would dry 
up not only the town of Superior's water supply, but a portion of the 
water supply for the Phoenix metropolitan area. We also have good 
reason to believe that mining at Oak Flat will destroy the riparian 
habitat not only at Oak Flat, but the nearby Devil's Canyon which is 
one of Arizona's great undiscovered riparian treasures. It is for these 
reasons and many more that we oppose the Oak Flat land exchange 
legislation.

        WATER, THE ENVIRONMENT, AND DESTRUCTION OF LAND SURFACE

    The Concerned Citizens and Retired Miners Coalition believes it is 
critical that Hydrology Surveys, Environmental Impact Studies, 
Subsidence Analyses and Transportation and Circulation Plans be 
conducted PRIOR to discussion of any land exchange and/or different 
use.
    Resolution Copper Company's Environmental Impact Assessment 
Manager, Bruce Marsh, indicated to one of our Coalition Members that 
the new mine would utilize 40,000 acre feet of water per year. He 
further indicated that they would be buying excess water from the 
tribes and other sources, however, they are merely banking those water 
rights and the sources are not secured. This is a concern because: 1) 
Arizona is still in the grip of a 14-year drought with dwindling 
Central Arizona Project supplies, and we do not have any assurances 
that water will still be available when Resolution Copper Company 
begins mining in the next ten (10) years; 2) Superior is located in the 
Maricopa AMA rather than the Pinal AMA, and Phoenix metropolitan area 
water supplies depend upon the Queen Creek aquifers; 3) The close 
proximity of the Queen Creek aquifer to a massive mining operation will 
negatively disrupt the underground water flow and negatively impact 
hundreds of thousands of residents; and 4) Neither the State of Arizona 
nor the local residents should have to bear the burden of restoring 
clean and sustainable water utilized by mining.
    RCC has already begun to dewater the #9 shaft to prepare for 
additional exploration of the ore deposit. We fear that in removing the 
more than 2 billion gallons of water that have accumulated in the mine 
since it was last shut down in 1996 will upset the water balance of the 
Oak Flat, Apache Leap, and Devil's Canyon riparian areas. In 1946, 
Queen Creek was called a perennial flowing stream. Our members tell us 
that when the Magma Mine was in full production during the 60s and 70s, 
riparian areas at Oak Flat and in the Town of Superior dried up. An 
analysis of the impact of a potential mine at Oak Flat to the water 
balance of the entire region should be conducted before this bill 
should even be considered by Congress.
    The Concerned Citizens and Retired Miners Coalition have been 
alarmed about the issue of subsidence from Resolution Copper Company's 
proposed block-cave mining method and its effect on Oak Flat 
Campground, Apache Leap escarpment, US Highway 60, and the Town of 
Superior. Resolution Copper Company has finally admitted to only 
``minimal subsidence.'' However, they admittedly chose this method of 
mining as it is the least expensive and quickest method to approach 
this massive ore body. However, experts have demonstrated that there 
will be irreparable destruction to the surface utilizing the block-cave 
method of mining. This is absolutely unacceptable.
    Resolution Copper Company has not yet determined the manner in 
which the tailings will be accumulated. Since there will be a 
considerable volume of tailings that will be created by this method of 
mining, The Concerned Citizens and Retired Miners Coalition is 
concerned about the contamination associated with this activity. We are 
also concerned regarding reclamation of these tailings upon mine 
closure.
    S. 409 mentions the National Environmental Policy Act (NEPA) but 
the bill does not provide for even the most basic study and analysis of 
these issues and concerns prior to obtaining the land exchange. 
Furthermore, if the land exchange is granted, the ``NEPA'' language in 
the bill is so vague that the company could easily avoid doing any 
``NEPA'' analysis. Even if a ``NEPA'' study were to be conducted after 
the land exchange went into effect, the results would be meaningless as 
the outcome of the study would already be mandated by law.
    The Concerned Citizens and Retired Miners Coalition believes that 
Resolution Copper Company should not be exempt from the required 
national permitting studies and analyses that have been required of the 
other mines in the area by virtue of a land exchange. No other mining 
corporation in this area has been allowed to bypass the Federal 
permitting and NEPA process.
    If the start-up timeframe proposed by Resolution Copper Company is 
correct, then there is plenty of time to conduct the full public review 
process. Additionally, if Resolution Copper Company is as 
``transparent'' as they profess, they should welcome this endeavor to 
put all the ``cards on the table'' and hear everyone's input.
    We also believe that details of the project and potential impacts 
(Mining Plan of Operation) should be made available to our residents 
and to the general public up front. We continually hear that Resolution 
Copper Company will make this plan available later--after the Oak Flat 
land exchange. We feel that if the land exchange is of utmost 
importance, Resolution Copper Company should accelerate production of 
their plan NOW--before the Oak Flat land exchange.

    PUBLIC RESPONSE OPPOSING THE FEDERAL LAND EXCHANGE OF OAK FLAT 
                   CAMPGROUND, AND SURROUNDING AREAS

    The Concerned Citizens and Retired Miners Coalition began gathering 
signatures opposing the Federal Land Exchange of Oak Flat Campground 
and surrounding areas in March of 2007 and obtained 90 pages of hard-
copy petitions from the public over a 4-month period. Of the 692 
individuals who signed, 315 were Superior residents and 377 were 
concerned citizens residing outside of Superior, Arizona. Additionally, 
we initiated an on-line petition process and to date have gathered 
4,047 signatures world-wide opposing the Oak Flat land exchange.

     THREAT TO THE TOWN OF SUPERIOR'S ECONOMIC DIVERSIFICATION AND 
                             SUSTAINABILITY

    Many members of our Coalition have lived through the boom and bust 
cycle of mining. After closure of the Magma/BHP mine in the 1990s, many 
people fled the community in search of jobs, medical treatment 
facilities and amenities that were not available in Superior. Voters 
taxed the political body to create a more diversified and sustainable 
economic basis for its residents. The Town received grants to develop 
an Industrial Park, a low-income housing subdivision, a new swimming 
pool, second fire station, airport, rest stop and numerous parks and 
trails. These projects were initiated to create jobs for our local 
residents, to increase state-shared revenue and local taxes and to 
encourage eco-tourism.
    The Concerned Citizens and Retired Miners Coalition believes that 
in order to sustain growth and development, we cannot rely on any one 
industry to support us. Mining has an allure and historical ties in our 
community. However, just as in the past, mining has a short life. We 
cannot base our future on one single industry or employer.
    While Resolution Copper Company has promised great hope for another 
``boom,'' they do not willingly embrace annexation into our town 
limits, they have purposely depreciated their land values in 
anticipation of the land exchange and they have strong-armed our 
government officials and management into accepting less than adequate 
compensation for future use of the Town's services and support.
Summary
    Resolution Copper Company has divided this community by demanding 
that the Town Council speak for the residents of Superior in unwavering 
support of a land exchange that is not necessary in order for 
Resolution Copper Company to mine. Behind the scenes, their 
representatives have attempted to force the firing of individuals 
opposing the Land Exchange. Those individuals who question Resolution 
Copper Company in any fashion are deemed to be ``anti-mine.'' 
Businesses deemed ``anti-mine'' are not supported by Resolution Copper 
Company, their employees or agents--in fact RCC employees are urged to 
boycott! These strong-arm tactics should not be allowed to pervade a 
community already distraught from previous ``boom and bust'' mining 
cycles.
    S. 409 does not represent a land exchange that is in the broader 
public interest. It is clear to The Concerned Citizens and Retired 
Miners Coalition that Presidents Eisenhower and Nixon believed that 
they were protecting Oak Flat from big business interests in acquiring 
public lands for development, mining and transportation. Oak Flat has 
been important enough to protect from mining and other elements for 
over 50 years, and it should not be so easily conveyed to a foreign-
owned mining interest. This land exchange would set a terrible 
precedent.
    The Concerned Citizens and Retired Miners Coalition strongly urges 
the Public Lands and Forests Subcommittee of the Senate Energy and 
Natural Resources Committee to ensure that the concerns of all public 
interests are addressed prior to consideration of any Federal land 
exchange. We believe you should protect these public lands for the 
public's future use and preserve the unique opportunities for 
Arizonans--and especially Superiorites--that the Oak Flat area 
provides.
    For these and many other reasons, we oppose S. 409, the Southeast 
Arizona Land Exchange and Conservation Act of 2009 and feel that it 
should be rejected.
    Thank you for your time and consideration.

    Senator Wyden. Thank you very much for your testimony.
    Mr. Salisbury.

   STATEMENT OF DAVID SALISBURY, PRESIDEN, RESOLUTION COPPER 
                   MINING, LLC, SUPERIOR, AZ

    Mr. Salisbury. Mr. Chairman, and members of the committee, 
my name is David Salisbury and I'm President of Resolution 
Copper, based in Superior, Arizona. Thank you for the 
opportunity to testify and testify in support of S. 409.
    This legislation represents an important step toward 
restarting a mine in Arizona's Historic Copper Triangle Mining 
District. We also thank our Arizona Senators, John McCain and 
John Kyl, for their long-standing support and leadership.
    Upon completion of this land exchange, we propose to invest 
a considerable risk, tens of billions of dollars over 60 years, 
to develop and operate a deep underground mine. Innovative and 
proven technology will allow us to build a safe, economically 
stable, panel cave mine 7,000 feet below ground, with limited 
surface impact.
    Mr. Chairman, there are 6 main reasons this exchange is in 
the public interest. First, S. 409 provides fair value to the 
American taxpayer. The appraisal will be done by the Forest 
Service using Department of Justice methodology to determine 
fair value. Additionally, it provides full cash equalization if 
the appraisal indicates that we owe money, we will pay the 
difference to equalize the value. If however, the valuation 
indicates the value of the land we are exchanging is higher 
than the land we receive, we donate the excess to the United 
States.
    Importantly, this legislation also includes an 
unprecedented value adjustment payment, which ensures that the 
government will receive payment for any ore that--mine that was 
not included in the original valuation of the ore body.
    Second, this legislation delivers significant environmental 
benefits and safeguards to the region. It includes language 
confirming that an Environmental Impact Statement will be 
completed before mining. Further, the parcels that Resolution 
Copper will exchange to the government are of high ecological 
value and were identified with the assistance of the Bureau of 
Land Management, the Forest Service, leading environmental 
NGO's like the Nature Conservancy and Audubon Arizona.
    We also plan to use the tailings from our mine to reclaim 
an existing open pit mine in the region, by filling it with our 
tailings and restoring the landscape.
    Third, we are listening and responding to suggestions and 
concerns from various stakeholders. Since the House hearing in 
November 2007, we have had more than 1,000 stakeholder 
meetings. S. 409 reflects changes suggested during those 
discussions. A few examples--the Forest Service indicated that 
additional time and money would be required to relocate the Oak 
Flat Campground. This legislation doubles the time and the 
money.
    Senator Kyl has changed the bill to keep Apache Leap in 
public ownership, and to have us add 110 acres of our private 
lands to ensure that it is managed to protect its cultural, 
historic, educational, and recreational values. We have agreed 
to the climbing communities' request to transfer Resolution's 
90-acre pond area to the Forest Service for future building--
future climbing in the Oak Flat area. We continue to work 
closely with the climbing community to provide additional 
opportunities.
    Fourth, the mine will produce 25 percent--up to 25 percent 
of the nation's anticipated copper demand. This is important 
more now than ever in an emerging green economy. Hybrid 
vehicles typically use--70 to 100 percent more copper than 
conventional cars. Additionally, wind generators, solar power 
stations, and transmission facilities will increase copper 
demand.
    Fifth, the mine will create significant economic prosperity 
for Arizona and the Nation. We anticipate spending tens of 
billions of dollars, generating several thousand jobs in 
construction, 1,400 jobs in connection with mining operations, 
and approximately 4,400 additional indirect jobs. I have 
submitted, for the record, a study* which highlights the 
significant economic benefits this project will generate, 
totaling in excess of $46 billion in economic activity and 
approximately $11 billion in taxes to the various levels of 
government.
---------------------------------------------------------------------------
    * Document has been retained in subcommittee files.
---------------------------------------------------------------------------
    Finally, more important in our view, is--that this project 
is in the public's interest, many of Arizona's leaders, 
including Governors Napolitano and Brewer, a significant 
majority of the Arizona legislature, numerous mayors and city 
councils, including the Central Arizona Association of 
Governments, affirm support for this exchange. A unanimous 
resolution of support from all county supervisors in Arizona 
affirms that support, and the Arizona Republic and Arizona 
Daily Star have also endorsed this legislation.
    In closing, we ask Congress to authorize this land exchange 
so that the promise of this project can be realized. We 
appreciate your consideration, and respectfully request your 
prompt action to enact this legislation this year.
    Thank you.
    [The prepared statement of Mr. Salisbury follows:]

  Prepared Statement of David Salisbury, President, Resolution Copper 
                  Mining, LLC, Superior AZ, on S. 409

    Mr. Chairman and Members of the Subcommittee:
    My name is David Salisbury. I am the President of Resolution Copper 
Mining LLC (``Resolution Copper''), which is a company headquartered in 
Superior, Arizona and owned by subsidiaries of Rio Tinto plc and BHP-
Billiton plc. I am here in support of S. 409, and to briefly describe 
the efforts we have made to address various issues subsequent to 
Subcommittee hearings on similar legislation over the past three years.
    The Southeast Arizona Land Exchange and Conservation Act of 2009, 
S. 409, represents an important step toward the development of a large, 
underground copper mine in a historic mining district.
    This legislation would allow us to acquire sufficient acreage of 
National Forest land, known as the Oak Flat parcel, where much of our 
new underground mine will be located. Most of the land needed is 
already blanketed by unpatented mining claims which we or our 
predecessors have owned and maintained for decades. As you can see from 
the map** attached to my testimony, the Oak Flat parcel abuts, or is 
intermingled with, private land we already own. That private land was 
the site of the Magma underground copper mine, which operated from 1912 
to 1996, and produced 25 million tons of copper ore.
---------------------------------------------------------------------------
    ** Map has been retained in subcommittee files.
---------------------------------------------------------------------------
    In the late 1990s, exploratory drilling revealed the existence of a 
very large copper deposit located adjacent to the old mine workings, 
but at a far greater depth of 4,500 to 7,000 feet below the surface. 
This will require us to sink deep shafts and tunnels to access the ore 
body. Once we have done this, we will complete a model of the precise 
geotechnical conditions and determine if it is feasible to construct 
the mine.
    Developing a mine a mile to a mile and a half beneath the surface, 
where the temperatures are up to 175 degrees Fahrenheit, is not only 
technologically difficult, but also an extremely expensive and 
financially risky proposition. An investment of approximately $1 
billion is required to carry out exploration and feasibility study work 
with more that $410 million having already been spent. If the mine is 
economically and technically feasible, Resolution Copper will spend at 
least $4 billion toward capital investment before mine construction is 
finished and we ship our first load of copper. Resolution Copper has 
not made the final determination as to the economic and technological 
feasibility of mining this ore body. Despite a high level of confidence 
on the part of our engineering team, it will require an additional 
investment of approximately $530 million before we can make this 
determination.
    To secure this type of investment, we believe it is critical both 
to possess an ownership interest in the land where we will be operating 
and to provide an adequate safety buffer around the mining area. 
Further, the area around the project is intermixed with public and 
Resolution's private lands preventing a safe and workable approach to 
mine permitting, development and operation. In addition, because we 
will intensively use the Oak Flat area for the mine, the land we are 
seeking to acquire will have a limited lifespan for continued public 
use in order to maintain safety for the public in proximity to the 
mine.
    We realize that our land exchange will result in the loss of a 
Forest Service campground and some other public recreation, but believe 
that this legislation more than compensates for those losses with the 
conveyance of high quality ecological and recreational land to the 
United States. Once operational this mine would provide approximately 
25 percent of the Nation's annual needs for copper from a safe, 
domestic source for approximately 50 years.
    Building upon the national interest I have just outlined, allow me 
to explain the significant economic and fiscal impact the mine will 
have. The ore body is located in a region with over 100 years of mining 
history known as the ``Copper Triangle.'' This region has suffered with 
high unemployment for a number of years and our mine is expected to 
bring 1,400 permanent, high quality, technical jobs directly affiliated 
with the mine (1,200 direct jobs and 200 contract jobs) and a large 
number (4,400) of service related jobs to the region. Further, we 
anticipate the creation of several thousand jobs during the 
construction phase of the mine.
    Included with my testimony I have submitted the executive summary 
of an economic and fiscal impact study prepared in April 2008 by 
Elliott D. Pollack & Company, and I would like to provide you with a 
few highlights directly from that report:

  <bullet> The mine impact is estimated to last 66 years, with 16 years 
        of feasibility planning and construction in preparation for 50 
        years of mining operations.
  <bullet> The total economic impact of the 66 year project on the 
        State of Arizona, including the additional development of 
        residential, commercial, and industrial land in Superior, is 
        estimated to be $46.4 billion. During the peak years of mine 
        projection, the annual economic contribution of the mine itself 
        is estimated to be $536.6 million. If the additional 
        development of residential, commercial and industrial land is 
        considered, the peak annual economic contribution to the State 
        is projected to be $798.2 million. For a comparative 
        perspective, studies have estimated the economic impact of an 
        NFL Super Bowl type event to be approximately between $250 
        million and $500 million.
  <bullet> In terms of fiscal impacts, the project is estimated to 
        generate total federal, state, county, and local tax revenue in 
        excess of $10.7 billion.

    It is important to understand that all of the fiscal and economic 
impacts were based on the assumption that copper is priced at $1.30 per 
pound (which was based on the long term price as calculated by the 
Arizona Department of Revenue). Today, copper is trading at about $2.20 
per pound, so the assumptions in this study are very conservative and 
the economic benefits to both the U. S. and Arizona could be greater.
    As I indicated, the planned mine will be a very deep underground 
mine utilizing a proven method of mining called panel caving. Unlike an 
open pit mine, it will have minimal waste rock dumps. We plan to ship 
the ore from Oak Flat via underground tunnel to an existing open pit 
mine site in the area. We then expect to process the copper ore at that 
site and deposit the tailings to fill one or more existing open pits 
from closed mines, and then reclaim and re-vegetate those backfilled 
pits. We believe that undertaking will significantly benefit the 
environment. In addition, Senator Kyl has included subsection 5(c) in 
this legislation to expressly confirm that before we open the mine, as 
already required by existing law, the entire operation and its 
environmental impacts will be subject to full review under the National 
Environmental Policy Act.
    In developing the land exchange proposal in S. 409, we have worked 
with the United States Forest Service, the Bureau of Land Management 
(BLM), the Arizona Game & Fish Department, and numerous Arizona 
conservation organizations to ensure that the lands we are conveying to 
the United States have greater environmental and other public values 
than the lands we are receiving at Oak Flat. In S. 409, Resolution 
Copper will convey ten parcels of land, totaling approximately 5,566 
acres to the United States in return for the Oak Flat parcel. Whereas 
most of Oak Flat is relatively flat, and has no permanent water--the 
ten parcels we have assembled for exchange have exceptionally rich 
ecological, recreational and other values, and many of them have 
significant year-round water resources. I want to emphasize that these 
parcels were recommended to us by The Nature Conservancy, the Audubon 
Arizona , the Sonoran Institute and in consultation with the BLM and 
the US Forest Service. The attributes of these offered lands include:

          1) A new rock climbing parcel near Oak Flat;
          2) Seven miles of river bottom and riparian land along both 
        sides of the free flowing San Pedro River, which is one of the 
        most important migratory bird corridors in the United States. 
        (As requested by the BLM at the November 2007 hearing on H.R. 
        3301 in the House Subcommittee on National Parks, Forests, and 
        Public Lands, this parcel will be immediately added to the 
        existing San Pedro Riparian National Conservation Area);
          3) Two miles of trout stream and other fish and wildlife 
        habitat along East Clear Creek in the Coconino National Forest;
          4) Possibly the largest, and most ancient, mesquite forest 
        (or bosque) in Arizona;
          5) Nine hundred and fifty-six acres of extremely diverse 
        grassland habitat in the Appleton-Whittell Research Ranch--an 
        existing preserve jointly managed by the Forest Service, BLM 
        and the Audubon Society inside the Las Cienegas National 
        Conservation Area; and
          6) Four in-holdings in the Tonto National Forest which have 
        significant riparian, recreational, cultural, historic and 
        ecological amenities including populations of the endangered 
        Arizona hedgehog cactus.

    S. 409 also provides that Resolution Copper must convey all ten 
parcels to the United States, regardless of value. If the ten parcels 
appraise at a higher value than the Oak Flat parcel, we will donate the 
excess value to the United States.
    Accordingly, this land exchange will result in very significant net 
gains to the United States in: 1) river bottoms and riparian lands; 2) 
habitat, or potential habitat, for threatened, endangered and sensitive 
species; 3) public recreational opportunities; 4) habitat for 
innumerable species of flora and fauna; 5) important bird areas; and 6) 
year-round water resources--a rarity in many parts of Arizona. In light 
of this, we believe the exceptional quality and quantity of the non-
federal lands that will be conveyed into Federal ownership more than 
off-set any expected surface impacts to the lands acquired by 
Resolution Copper.
    Mr. Chairman, we have also agreed to several provisions in S. 409 
that are designed to assure that the taxpayers receive full fair market 
value in this land exchange and that any facilities or activities we 
displace at Oak Flat land are adequately replaced, or improved upon. I 
will briefly describe these key provisions:

  <bullet> S. 409 requires that the existing Forest Service campground 
        at Oak Flat, which has 16 developed campsites, will be replaced 
        with a new campground or campgrounds. Based on testimony 
        presented at the hearing in the House in the fall of 2007 by 
        the U.S. Forest Service, we have increased the amount we will 
        pay for the replacement campground(s) from $500,000 to $1 
        million and increased the time for establishing the new 
        campground from 2 years to 4 years. The bill now provides that 
        the U.S. Forest Service will continue to own and operate the 
        Oak Flat Campground for 4 years after bill enactment.
  <bullet> Portions of the Oak Flat parcel and adjacent areas, 
        including areas of our existing private land, are used for rock 
        climbing. To accommodate these activities, we have agreed to 
        several actions. First, as mentioned earlier, we have now added 
        our 95 acre Pond parcel to the land exchange. Second, we have 
        committed to keeping certain areas open for climbing for as 
        long as it is safe to do so.
  <bullet> Resolution Copper has committed to working with neighboring 
        Native American communities. Resolution Copper also 
        acknowledges the sovereignty of the San Carlos and respects 
        their request for government-to-government discussions. As a 
        result, S. 409 changes the previous legislation to leave the 
        entirety of the Apache Leap in U.S. Forest Service ownership. 
        Additionally we have added 110 acres of our own land at the 
        south end of Apache Leap to the package of lands that will be 
        conveyed to the US Forest Service. Likewise, S. 409 requires 
        that accommodations be made for the purpose of traditional 
        acorn gathering in the area in and around the Oak Flat 
        Campground upon request from the Apache or Yavapai Indian 
        tribes.
  <bullet> Finally, subsection 7(a) provides that all appraisals will 
        be conducted in accordance with U.S. Department of Justice 
        appraisal standards, which are used for all Federal land 
        transactions. The Forest Service will write the appraisal 
        instructions and all appraisals must be formally reviewed and 
        approved by the agency. This means that the appraisal process 
        will be under the government's complete supervision and 
        control.

    Finally, we are aware of the mining law reform legislation which 
passed the House last year and of Chairman Bingaman's bill in the 
Senate. While the Federal appraisal process to be used for this land 
exchange fully incorporates royalty considerations, as required by the 
Justice Department standards the lands and any cash equalization we 
convey to the United States in the exchange will constitute a full up-
front royalty payment under the appraisal process, we have agreed to go 
a step further. Namely, section 12 of S. 409 now provides that if the 
cumulative production from our mine ever exceeds the production assumed 
by the appraiser, we will pay a value adjustment payment on any excess 
production. In doing that, the public will be protected in the event 
the appraiser errs in the mine production assumptions or if subsequent 
mining operations discover and produce more ore than originally 
assumed. We believe this is an eminently fair proposal which, by 
definition, fully protects against potential production errors in the 
appraisal process.
    That completes my testimony. I very much appreciate the opportunity 
to testify before you today and stand ready to answer any questions the 
Subcommittee may have.

    Senator Wyden. Thank you.
    Ms. Shearer, welcome.

STATEMENT OF ROSEMARY SHEARER, EXECUTIVE DIRECTOR, SUPERSTITION 
          AREA LAND TRUST (SALT), APACHE JUNCTION, AZ

    Ms. Shearer. Mr. Chairman, and members of the subcommittee, 
it is indeed an honor to be here before you today, and thank 
you for allowing me to provide my testimony.
    My name is Rosemary Shearer, I'm a founding member and the 
Executive Director of the Superstition Area Land Trust. We are 
a 501.C.3 non-profit conservation organization, and we are 
known by our acronym, SALT. Some may ask, and quite frankly, 
many have, why would a conservation organization appear before 
the United States Senate panel in support of a copper mining 
operation?
    A brief history--SALT was founded in 1993 by residents 
living near the Superstition Mountains, which truly are our 
back yard. Our primary mission is to protect our open spaces 
and educate the public on the Sonoran Desert. Our directors 
come from diverse backgrounds of academia, historical 
societies, artists, planners, ranchers, architects, businesses, 
and conservationists. Funding comes from individual members and 
grants, bequests, foundations, and 404 in lieu fees.
    In our 16 years, SALT has built partnerships with 
government agencies and civic organizations, as we acquired 
lands for preservation and engaged in public projects. We 
participate in regional planning, education, and grassroots 
advocacy, all of which has underscored an awareness that a 
healthy economy is a vehicle for conservation efforts.
    We are located in Pinal County, which historically has 
relied on copper, cotton, and cattle as an economic base. In 
recent years, Pinal County, which is the size of the State of 
Connecticut, has morphed into a widespread series of urbanized 
bedroom communities where residents commute outside of the 
county to Phoenix and Tucson to go to work. Surrounded by 
hundreds of thousands of acres of some of the most scenic 
publicly owned lands in North America, recreation has recently 
been added to the economy. However, there are still very few 
local job opportunities. The vitality and future social well-
being of the region is of major concern to all of us.
    SALT's position on S. 409 was carefully considered, and not 
arrived at easily. As the definitive conservation organization 
in the area, affected by Resolution's proposed mining 
operation, we believe that we have the most to gain or lose 
from the provisions of this bill. Many of our members have 
hiked, camped, climbed, enjoyed the awe-inspiring landscapes of 
the 2,400 acres that will be effected by Resolution Copper's 
activities. This is a very complicated issue.
    The land in the area of this project is unquestionably 
scenic and beautiful. However, a rich body of copper ore, 
perhaps one of the largest in America, if not the world, lies 
deep beneath the very ground so many have treasured for 
decades, and how ironic, a treasure on top of a treasure.
    The sobering truth is that someone will go after it 
eventually. Therein lies the dilemma, who will that someone be? 
Will they employ the traditional mining methods, virtually 
unchanged over the last century, producing more waste dumps and 
tailing impoundments, to further deface the landscape of 
Eastern Pinal County, or will newly developing mining 
techniques, leaving the air clean and the surface of the land 
largely undisturbed be employed?
    Either venture will employ men and women for decades in an 
economically depressed area. Either method would extract the 
ore, but what heritage would it leave behind? These are all 
very important questions and ones that we have sought answers 
to, and will continue to explore.
    SALT considers Resolution Copper's current reclamation of 
the abandoned Magma Mine in Superior, along with their plan to 
backfill the abandoned Pinto Valley Mine, as it closes, as a 
demonstration of their commitment to adherence to the 
provisions of S. 409, and to remaining a vital partner in the 
region's future.
    Members of our organization, including myself, have visited 
many of the properties in the exchange package. Among the 5,556 
acres in the exchange, is the 7B Ranch, adding almost seven 
miles of protection to the San Pedro River Watershed. Also 
included are the Pond and Dripping Springs, both superb, 
spectacular hiking and climbing locations. The JI Ranch will 
provide a future scenic camping area, very near Oak Creek 
Campground, which Resolution has promised to keep open until 
the new one is built.
    An additional 100 acres of their private land adjacent to 
Apache Leap has been added, guaranteeing conservation for this 
signature landscape, which towers above Superior. SALT stands 
ready to play a very significant role as management plans and 
easements are developed in the preserve areas.
    So, in conclusion and after careful consideration of all 
the factors, we consider the passage of S. 409 beneficial to 
the region. Mr. Chairman, I appreciate the opportunity to 
testify before you today on this legislation, and am prepared 
to answer questions the subcommittee may have.
    [The prepared statement of Ms. Shearer follows:]

      Prepared Statement of Rosemary Shearer, Executive Director, 
  Superstition Area Land Trust, (SALT), Apache Junction, AZ, on S. 409

    Mr. Chairman and Members of the Subcommittee:
    Thank you for allowing me to provide testimony. My name is Rosemary 
Shearer. I am a founding member and the Executive Director of the 
Superstition Area Land Trust, a 501(0(3) non-profit conservation 
organization. We are known by our acronym, SALT. Some may ask, and 
quite frankly a few have, why would a conservation organization appear 
before a Senate panel in support of a copper mining operation? A brief 
history:
    SALT was founded 1993 by residents living near the Superstition 
Mountains. Our primary mission is to protect our open spaces and 
educate the public about the Sonoran Desert. Our directors come from 
the diverse backgrounds of academia, historical societies, artists, 
planners, ranchers, architects, businesses and conservationists. 
Funding comes from individual members. grants, bequests, foundations, 
and 404 in lieu fees.
    In our sixteen years SALT has built partnerships with government 
agencies and civic organizations as we acquired lands for preservation 
and engaged in public projects. We participate in regional planning, 
education and grassroots advocacy, all of which has underscored an 
awareness that a healthy economy is a vehicle for conservation efforts,
    We are located in Pinal County which historically has relied on 
copper, cotton and cattle as an economic base. In recent years Pinal 
County, the size of the state of Connecticut, has morphed into a 
widespread series of urbanized bedroom communities where residents 
commute to Phoenix and Tucson to work. Surrounded by hundreds of 
thousands of acres of some of the most scenic publicly owned lands in 
North America, recreation has been added to the economy. Still there 
are few local job opportunities. The vitality and future social 
wellbeing of the region is of major concern to all.
    SALT' s position on S. 409 was carefully considered and not arrived 
at easily. As the definitive conservation organization in the area 
affected by Resolution's proposed mining operation, we believe that we 
have the most to gain or lose from the provisions of this bill. Many of 
our members have hiked, camped, climbed and enjoyed the awe-inspiring 
landscapes around the 2,400 acres that will be affected by Resolution 
Copper's activities.
    This is a complicated issue. The land in the area of this project 
is unquestionably scenic and beautiful. However, a rich body of copper 
ore, perhaps one of the largest in the world, lays deep beneath the 
very ground so many have treasured for decades. How ironic--a treasure 
beneath a treasure. The sobering truth is that someone will go after 
it.
    Therein lays the dilemma. Who will that someone be? Will they 
employ traditional mining methods, virtually unchanged over the last 
century, producing more waste dumps and tailings impoundments to 
further deface the landscape of Eastern Pinal County? Or will newly 
developing mining techniques, leaving the air clean and the surface of 
the land largely undisturbed be employed? Either venture will employ 
men and women for decades in an economically depressed area. Either 
method would extract the ore--but what heritage would it leave behind? 
These are all very important questions and ones that we have sought 
answers to and will continue to explore.
    SALT considers Resolution Copper's current reclamation at the 
abandoned Magma Mine in Superior, along with their plan to backfill the 
abandoned Pinto Valley mine, as a demonstration of their commitment to 
adherence to the provisions of S. 409, and to remaining a vital partner 
in the region's future.
    Members of our organization, including myself, have visited many of 
the properties in the exchange package. Among the 5,556 acres in the 
exchange is the 7B Ranch, adding almost seven miles of protection to 
the San Pedro River watershed. Also included are The Pond and Dripping 
Springs, both superb hiking and climbing locations; the JI Ranch which 
will provide a future scenic camping area near Oak Creek campground, 
which Resolution has promised to keep open until a new one is built. An 
additional 100 acres of their private land adjacent to Apache Leap has 
been added, guaranteeing conservation for this signature landscape 
which towers above Superior. SALT stands ready to play a significant 
role as management plans and easements are developed on the preserve 
areas.
    And so, in conclusion, and after careful consideration of all the 
factors, we consider the passage of S. 409 beneficial to the region.
    Mr. Chairman, I appreciate the opportunity to testify before you 
today on this legislation and am prepared to answer any questions the 
Subcommittee may have.

    Senator Wyden. Ms. Shearer, thank you very much.
    My thanks to all of you, it's been very, very good, and if 
time was not so constrained this afternoon, I have plenty of 
questions for all four.
    But there are two for you, Mr. Salisbury. I think that we 
need, with respect to making sure we have a complete record.
    The Natural Resources Agencies have repeatedly advocated 
that the subcommittee add language to the bill, requiring 
Resolution Copper to provide the agencies with confidential 
access to all of the exploration and development data, and 
company analyses, in order to ensure that there would be an 
accurate appraisal and mineral report. Does the company object 
to adding this sort of provision to the legislation?
    Mr. Salisbury. Senator, I would say that that information 
is commercially, kind of, confidential. Under confidential 
requirements, we will certainly open that to the appraisal 
agency, and that information will be made available as a part 
of the appraisal process that is outlined by the Department of 
Justice procedure.
    Senator Wyden. That's not an answer to my question. My 
question was, does the company object to adding this sort of 
provision to the actual legislation?
    Mr. Salisbury. We will stipulate in the legislation that we 
will make all of that information available. Again, it is 
confidential business-related information that is important to 
our company.
    Senator Wyden. I don't want to try a third time.
    Mr. Salisbury. No, we won't put the detailed data in the 
legislation.
    Senator Wyden. OK. We're going to have to work with you and 
with the agencies to, sort of, unpack what that really means, 
because the agencies have felt strongly about that particular 
point.
    One other question for you, Mr. Salisbury, at the hearing 
in the last Congress, you testified that you were confident 
that the mining operation would not adversely affect Apache 
Leap. The legislation includes provisions in section 8, to 
``permanently protect Apache Leap,'' but these provisions seem 
like they might be substantially undermined by a provision that 
states that nothing in the section imposes any restriction on 
any exploration or mining activity outside of Apache Leap. Is 
it your understanding that the intent of the bill is to permit 
or to prohibit mining activity that would adversely affect the 
structural integrity of Apache Leap?
    Mr. Salisbury. Senator, if I might, I'll add that--may I 
just take a moment to introduce some folks who are here, who 
are in support of our opportunity today. I'd like to recognize 
Mayor Hing from the town of Superior, Hank Gutierrez, who is 
the current President of the Chamber of Commerce and Council 
Member of Superior, Senator Rebecca Rios, State Senator from 
Arizona, and Mike Pastor, County Supervisor from Gila County. I 
appreciate their efforts to be with us today.
    Senator Wyden. We welcome all of you. It seems much of the 
Southwest has turned out for this hearing.
    Mr. Salisbury. Senator, to respond to your question 
regarding the structural integrity of Apache Leap. Our 
operations plan no activities that would be in close enough 
proximity to effect the structural integrity of that Leap. It 
is important for us to preserve that integrity, as our 
infrastructure lies between our operations and the Leap itself. 
So therefore, we have no intention, apart from a well to study 
the hydrology of the area, there would be no mining activities 
under the Leap or in close enough proximity to effect its 
structural integrity.
    Senator Wyden. So, at last year's hearing, you said--and 
I'll just quote here--as part of your response--part of your 
statement, you said, ``We will protect the Leap.'' You're not 
going to change your position on that?
    Mr. Salisbury. No change in that position at all, Senator.
    Senator Wyden. OK.
    We thank all four of you. Obviously there's a lot of--I 
think, Governor, you said it very well, when you talked about 
the desire for consultation, and this committee does a lot of 
things and we spend a lot of time consulting, so we're going to 
follow your very constructive suggestion.
    We will have questions for all four of you and for our 
earlier witnesses, and with that, the Subcommittee on Public 
Lands is adjourned, and we thank you.
    [Whereupon, at 2:54 p.m., hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

        Response of Joel Holtrop to Question From Senator Wyden

                                 S. 1139

    Question 1. As we discussed at the hearing, this property, built by 
the Civilian Conservation Corps in the 1930s, has high historical 
value, which the community intends to protect and restore. You 
indicated that the Forest Service intends to protect the unique 
architectural features and the important cultural and historic features 
of the property. Can you tell me how the Forest Service plans to ensure 
that these unique architectural, cultural and historic features of the 
property are maintained if it sells it under existing law?
    Answer. The Forest Service is working with the Oregon State 
Historic Preservation Officer (SHPO) to determine the most appropriate 
means of either recording or protecting the site. Because there are 
other nearby sites with similar features from the same time period, the 
SHPO has determined that the site can be photographed and recorded and 
that existing buildings would not need to be maintained or retained. 
(The agency estimates that costs for deferred maintenance of the 
existing buildings approaches $300,000.) Therefore, if sold, the 
disposition of the buildings would be at the discretion of the new 
owners.

      Responses of Joel Holtrop to Questions From Senator Bingaman

    Question 1. The Department of the Interior has testified that 
adding a provision requiring Resolution Copper to provide confidential 
access to the Secretaries of Agriculture and the Interior (and their 
representatives) to all exploration and development data and company 
analyses on the mineral deposits underlying the Federal land is 
essential in order to ensure an accurate appraisal. Is access to such 
data and analyses important to the Department in the context of 
completing appropriate analyses under NEPA and other environmental 
laws?
    Answer. Subsurface information that would be part of the mining 
plan and mining operations documentation are essential in order to 
assess environmental impacts, including the hydrological conditions, 
subsidence, and other related issues. This information is critical in 
order to evaluate the mineral appraisal process. Without such 
documentation, it's impossible to assess impacts or to evaluate the ore 
body.
    Question 2. The Tribes have testified repeatedly that they have 
been deeply concerned about the lack of consultation on a government-
to-government basis regarding the Southeast Arizona Land Exchange and 
Conservation Act. In past testimony, the Department has not directly 
recognized the Tribes' interests in the proposal or addressed the 
Tribes' consultation concerns. In its testimony at our recent hearing, 
however, the Department did recognize that:

          Many of the lands to be exchanged in the bill hold 
        significant cultural value to Indian Tribes. In particular, the 
        Apache Leap area, the Oak Flat Campground, and Devil's Canyon 
        are culturally significant to the San Carlos Apache Tribe and 
        the Fort McDowell Yavapai Nation. There are also other 
        neighboring Tribes with cultural interests in the area. We will 
        continue to work with these Tribes as we move forward with the 
        analysis.

    Has the Forest Service consulted with the Tribes on a government-
to-government basis on this proposal and, if not, does it plan to?
    Answer. Although the U.S. Forest Service has conducted informal 
consultations with concerned Tribes over the course of the several 
years this exchange has been under discussion, the Secretary's letter 
to Senator Wyden on July 13, 2009, highlights the need for the 
Administration to conduct formal Government to Government consultation 
with concerned Tribes over S. 409 to discuss the concerns raised by 
Tribal Governments that the bill circumvents various laws, policies, 
and Executive Orders. As set forth in the 2004 Forest Service Manuel, 
the U.S. Forest Service seeks to ensure that it protects sites sacred 
to Native Americans located on the National Forest System lands and 
provides continued access to these sites. Further, under the 2004 
Forest Service Manuel, the U.S. Forest Service seeks to ensure that it 
protects Native American burial and archeological resources located on 
National Forest System lands.
    Question 3. Does the Forest Service have an understanding of 
whether the proposed mine will have any impact on local or regional 
water supplies and water quality? If so, please provide to the 
Committee with whatever information and analyses the Forest Service has 
considered.
    Answer. At this time the U.S. Forest Service does not have an 
understanding of the impacts the proposed mine will have on local or 
regional water supplies, water quality, or possible dewatering of the 
area. No studies or assessments of the water supplies have been 
conducted. That is information which could be obtained by the Forest 
Service with NEPA analysis before the exchange. A NEPA analysis after 
the exchange would not allow the Forest Service to recommend 
alternatives since the exchanged parcel would already be in private 
ownership. Data and analyses in the possession of Resolution Copper 
Mining would be of assistance to the Forest Service in evaluating the 
impacts of the proposed mine on local and regional water supplies and 
quality.
    Question 4a. A number of interested parties have advocated for the 
inclusion in the exchange of some land near San Miguel along the Lower 
San Pedro River that is owned by BHP-Billiton, which is the minority 
partner in the mining project. Apparently, the concern is that the 
development of that property would have a significant adverse affect on 
the riparian values of the other property along that river that the 
Federal government would acquire through the exchange. Has the 
Department evaluated the BHP-Billiton parcel and the potential impact 
of its development on the conservation values of the land the Federal 
government would acquire in the proposed exchange?
    Answer. The lower San Pedro River and BHP-Billiton parcels are 
outside of the National Forest boundary. The lower San Pedro River 
parcel would likely be under the jurisdiction of the BLM. We would 
defer to the Department of Interior.
    Question 4b. At the hearing on this proposal on July 9, 2008, 
Chairman Wyden asked Mr. Salisbury if lifting the Oak Flat withdrawal 
and conveying that land to Resolution Copper was essential to the 
development of the mine, and Mr. Salisbury responded that it was. See 
S. Hrg. 110-572 at 56-57. If Congress provided authorization to carry 
out the proposed 3-party exchange under existing law, please generally 
describe whether and, if so, how the Forest Service would evaluate the 
environmental impacts of conveying the Oak Flat parcel.
    Answer. Under existing administrative procedures for land 
exchanges, it would be analyzed along with the other federal and 
private lands proposed for this exchange utilizing standard NEPA 
procedures. The first step is a feasibility analysis which would 
provide information on whether to proceed with the environmental 
analysis.
    The next step in the process would then be to complete resource 
surveys and conduct public scoping of the proposal to determine the 
significance of potentially affected resources (e.g., subsidence, 
impact on water table), uses and social effects (e.g., heritage 
resources, loss of a campground, economic analysis) to determine the 
extent of any potential impacts to those resources, uses and social 
effects, describe possible mitigation measures for those impacts, and 
disclose the impacts for which no mitigation is possible. After 
documenting those findings a decision would be made by the line officer 
as to whether or not the proposed exchange is in the public interest 
and whether to approve it.
    Question 5. Mr. Salisbury's testimony states that Resolution Copper 
estimates that it will have to invest approximately $600 million over 
the coming years on exploration and feasibility studies before it 
determines whether mining the ore is economically or technologically 
feasible. Given the substantial financial investment and the remaining 
uncertainty, my understanding is that Resolution Copper is concerned 
about waiting until the end of that process to conduct the 
environmental analyses associated with the land exchange.
    Would it be possible for the Forest Service to conduct the 
environmental analyses that would be necessary to complete the exchange 
in accordance with existing law with the information that is currently 
available or reasonably obtainable, or would the Forest Service be 
required under existing law to wait until Resolution Copper has 
completed its exploration and technological feasibility analyses? 
Please describe how the Forest Service would proceed under these 
circumstances.
    Answer. The information now available or that which could be 
reasonably obtained would allow the Forest Service to conduct the 
needed environmental analysis. As a start and as described in company 
reports and information that has already been shared, the subject 
property is highly mineralized.
    While a significant amount of information is available to begin the 
analysis, ecological evaluations such as hydrologic conditions of the 
area, geologic assessments, ESA assessments, or other environmental 
resources analysis have not been conducted. In addition, Resolution 
Copper Mining does not have a mining plan of operations. Without such 
studies, assessments, or documents, mining and post mining subsidence 
issues, water quality contamination concerns (including acid mine 
drainage and subsequent pollution), water quantity (including the 
dewatering of nearby surface water and water rights concerns), air 
quality compliance issues, tailings and overburden storage and 
placement cannot be assessed or determined at this time.
    The NEPA process mandates analysis and disclosure of environmental 
impacts, including cumulative impacts, allowing all affected parties 
and decision-makers to review and comprehend the risk assessment.
    The Council on Environmental Quality has made allowances for 
incomplete or unavailable information which are available when the 
overall costs of obtaining the information are exorbitant or the means 
to obtain the information are unknown. In such cases, 40 CFR 1502.22, 
states:

          When an agency is evaluating reasonably foreseeable 
        significant adverse affects on the human environment in an 
        environmental impact statement and there is incomplete or 
        unavailable information, the agency shall always make clear 
        that such information is lacking . . .  40 CFR 1502.22.

    Question 6. If you followed the standard administrative land 
exchange authority under section 206 of the Federal Land Policy and 
Management Act, you would need to make a public interest determination. 
What factors would the agency consider in making that determination?
    Answer. The Forest Service would follow the criteria outlined in 36 
CFR 254.3. 36 CFR 254.3(b)(1) requires that an exchange be made only 
after a determination that ``the public interest is well served.'' 36 
CFR 254.3(b)(2) sets forth the factors to consider in making that 
determination.
    When considering the public interest, the authorized officer shall 
give full consideration to the opportunity to achieve better management 
of Federal lands and resources, to meet the needs of State and local 
residents and their economies, and to secure important objectives, 
including but not limited to: protection of fish and wildlife habitats, 
cultural resources, watersheds, and wilderness and aesthetic values; 
enhancement of recreation opportunities and public access; 
consolidation of lands and/or interests in lands, such as mineral and 
timber interests, for more logical and efficient management and 
development; consolidation of split mineral estates; expansion of 
communities; accommodation of existing or planned land use 
authorizations (254.4(c)(4)); promotion of multiple-use values; 
implementation of applicable Forest Land and Resource Management Plans; 
and fulfillment of public needs.

     Responses of Joel Holthrop to Questions From Senator Barrasso

                S. 409--RESOLUTION COPPER LAND EXCHANGE

    Question 1. Mr. Holtrop in the 110th Congress the Forest Service 
testified that they supported the exchange in S. 409 but then 
equivocated in answers to supplemental questions by saying once the 
exchange was directed by Congress that your responsibility to make such 
a determination ends and that it would be difficult to make such a 
finding until you understand the proposal for the mine better.
    Given what you know about this bill, do you think this proposed 
exchange is likely to be in the public interest?
    Answer. If the U.S. Forest Service concludes after careful analyses 
that the proposed mine that the land exchange would facilitate would 
not have unacceptable adverse environmental impacts and if the proposal 
takes into account and resolves the concerns of Indian Tribes and 
surrounding or affected communities, then the exchange may well be 
determined to be in the public interest. However, until the U.S. Forest 
Service can fully analyze environmental impacts as addressed through 
NEPA, formally consults with Tribes and the public through that 
process, including assessing the proposed land exchange in light of the 
U.S. Forest Service's responsibilities under applicable laws, policies, 
and Executive Orders, it is too early to conclude that the proposed 
land exchange would be in the public interest.
    Question 2. You also complained in your testimony during the 110th 
Congress that you had concerns about the cost of rebuilding a camp 
ground to replace the Oak Flats Campground. In your testimony in the 
hearing you suggested the Company just give the Forest Service the 
million dollars to spend on general camp ground upgrades and backlog 
maintenance. It seems to me the agency can't have it both ways. You 
can't complain about the loss of the camp ground at Oak Flats and then 
say you can't find a replacement, while also asking for a million 
dollars.
    This legislation requires Resolution Copper Company to pay up to a 
million dollars to replace the Campground.
    If the agency does not think that a million dollars is a sufficient 
sum would you provide the Committee with a list of the cost of the last 
ten new campgrounds it developed, along with a description of the 
facilities constructed at those campgrounds.
    Answer. The agency is not seeking one million dollars in funding. 
If the bill provides one million dollars the agency would use those 
funds to increase capacity as well as quality at nearby sites as they 
have not been able to find a replacement site nearby. Current cost of 
campground development on the Tonto is $35,000 per camp unit. This 
includes everything from survey and design through opening day. 
Replacement of 21 units at the current standard ($35M/unit) would be 
$735,000. This cost does not include NEPA and other pre-design 
environmental analyses, archaeological site effects mitigation or site 
access roads, which depending upon location, could be a substantial 
cost.
    Question 3. Please provide the subcommittee with your agency's 
rationale of why it thinks this company should make a million dollar 
donation to be used to take care of backlog maintenance of other 
campground?
    Answer. The agency is not asking for funding. If the bill provides 
one million dollars the agency would use those funds to increase 
capacity as well as quality at nearby sites as they have not been able 
to find a replacement site nearby.
    Question 4. Mr. Holtrop I know you are acutely aware of the issues 
that revolve around having to complete NEPA and/or a finding of public 
interest when it comes to land exchanges.
    Those questions become even more complex when a land exchange 
involves a proposal for a major development, such as a mine.
    Several Congresses ago the Yavapai Ranch land exchange passed and 
included both a Congressional directed exchange to be completed on a 
tight timeline, as well as a requirement that the exchange comply with 
Section 206 of the Federal Land Policy and Management Act (FLPMA).
    What is the status of that exchange?
    Answer. The Northern Arizona Land Exchange partnership has 
dissolved and we recently cancelled the original ``Agreement to 
Initiate'' document that outlined the responsibilities, timelines and 
costs for the various aspects of conducting the land exchange process. 
A new Agreement is being written with the remaining partner, Fred 
Ruskin.

                        S. 1139--CITY OF WALLOWA

    Question 5. I generally think turning federal land over to non-
federal entities should be seriously considered, but I am concerned 
about the precedent that S. 1139 and S. 1140 will set.
    Mr. Holtrop how many other parcels of land does the Forest Service 
have that it would like to give to non-federal entities?
    Answer. None. The agency seeks to receive consideration when 
conveying lands out of federal ownership. The intent is to preserve the 
value of the federal estate.
    Question 6. How would you suggest Congress deal with a situation 
when multiple parties, including Indian tribes, have asked to be given 
the same parcel of land and/or buildings?
    Answer. If a single municipality wishes to acquire federal property 
for the benefit of its constituents, under the Townsite Act, the agency 
can offer a direct sale at the appraised value. The hierarchy for 
offering these lands or facilities would be as follows a. other 
federal, b. tribes, c. state, d. county, e. city, f. public utility 
district (PUD. If multiple parties of same standing wish to acquire the 
same property; i.e., two different PUD's or two different tribes , a 
competitive bid process would be a preferred means for conveying the 
property.
    Question 7. Would you provide this committee with a list of parcels 
that you would like Congress to give away?
    Answer. We have no such list.

     Responses of Joel Holtrop to Questions From Senator Murkowski

    Both in your testimony and in answers to questions at the hearing 
you indicated it would take some time for the Administration to analyze 
S. 409 before the Administration could take a position on the bill. 
Yet, the agency didn't seem to have difficulty formulating a position 
on S. 1139. S. 1139 which were introduced May 21, 2009. S. 409 was 
introduced February 11, 2009 and nearly identical bills were introduced 
in both the 109th and 110th Congress. In fact, Mr. Holtrop testified at 
hearings on the earlier versions of the bills in those Congresses. 
Additionally, you committed to Subcommittee Chairman Senator Ron Wyden 
to have answers to questions within two weeks.
    Question 1. While I understanding we are six months into a new 
Administration, I need to know how long you expect it will take your 
agency to analyze legislation before being able to provide competent 
testimony in the future? Should we hold off on hearings on new bills 
for 3 months after a bill is introduced or will you need more time than 
that?
    Answer. This is a complex bill that took time to analyze. In 
addition to the Department of the Interior's testimony of June 17, 
2009, Secretary Vilsack provided the Subcommittee with a letter 
detailing additional views and concerns on July 13, 2009.
    Question 2. Please help us better understand how it is that the 
Administration found the ability to testify on S. 1139 and S. 1140 and 
S. 874, all which were introduced since the last week of April, 2009, 
while it struggled to formulate an opinion on legislation which has 
been before the Forest Service for the last two sessions of Congress 
and which your agency supported as recently as 11 months ago?
    Answer. S409 is a much more complex bill than the conveyance bills 
noted in your question. The Administration has a number of concerns as 
noted in the Department of the Interior testimony of June 17, 2009 and 
the Secretary of Agriculture's letter of July 13, 2009.

                        S. 1139--CITY OF WALLOWA

    Question 3. The Administration testified that it was already 
prepared to use its authority under the Forest Service Facility 
Realignment and Enhancement Act to dispose of the Wallowa Ranger 
Station.
    Absent S. 1139 being signed into law, when will that sale take 
place?
    Answer. It is scheduled to take place in the fall of 2009.
    Question 4. You indicated that you had multiple parties interested 
in acquiring the property, including the Nez Perce Tribe. Would you 
provide the Committee with a list of all parties, individuals, or 
groups who have expressed an interest in acquiring the property?
    Answer. A total of 24 responses were received from groups or 
individuals interested in acquiring the property, including the 
following (Ten of these responses were in support of the Forest giving 
the property to the Wallowa School District, in conjunction with the 
Maxville Project):

    Individuals interested in possible purchase of the property:

          Keith Kessler (Colorado)
          Jim Soares (Enterprise, OR)
          Gerald Schmeckpeper (Wallowa, OR)
          Dick and Laura Parsons (Elgin, OR)
          James Livingston (California)
          Mike Young (Vale, OR)
          Glen Foote (Baker City, OR)
          Ben Deal (Enterprise, OR)
          Ernie Josie (Wallowa, OR)
          Dale Johnson (Wallowa, OR)
          Four additional individuals who did not provide their name 
        (neighbors, etc) also contacted the Forest with interest in 
        possibly acquiring the compound.

    Lower Valley Economic Development Team (to donate to Wallowa 
Resources) Supporters of Gwen Trice and the Maxville Project include 
the following (all supported giving the compound to the Wallowa School 
District):

          Friends of the Joseph Branch
          Wallowa County Board of Commissioners
          Wallowa School District
          City of Wallowa
          Northeast Oregon Economic Development District
          Lower Valley Economic Development Team
          Friends of Wallowa County Museum
          Wallowa Resources
          Wallowa Band Nez Perce Trail Interpretive Center, Inc. (Nez 
        Perce Homeland Project)

    Question 5. Will you provide the Committee with your best estimate 
of the total value of the property if it were to be advertised for sale 
on the open market?
    Answer. We have no appraisal information on this property. Any 
estimate would be without foundation.
      Responses of Joel Holthrop to Questions From Senator McCain
    At the hearing, Mr. Holtrop, testifying on behalf of the U.S. 
Forest Service indicated that the Department had not completed its 
analysis of S. 409. He further indicated that the Administration will 
provide its views and concerns to the Committee upon completion of this 
work. The Forest Service has testified and provided its views and 
concerns regarding this land exchange on as many as three occasions 
prior to the hearing on June 17, 2009. On each of these occasions the 
Forest Service testified that it supported the exchange and that it was 
the Department's view that the exchange as a whole is in the public 
interest. In fact, in your ``Responses to Additional Questions'' you 
actually explained in detail why the Department believed the exchange 
was in the public interest. (see S. Hrg. 110-572 and S. Hrg. 109-582).
    Question 1. Did the Administration review your prior testimony 
prior to this hearing? What has changed substantively with regard to 
this land exchange since you last testified on July 9, 2008 that 
warrants additional review?
    Answer. It is the prerogative of the Administration to analyze S. 
409 and provide its views and concerns to the Subcommittee.
    Question 2. In 2006 (S. Hrg. 109-582) Mr. Holtrop testified that 
``the Department believes the acquisition of the non-Federal parcels to 
be managed by the Forest Service is in the public interest and would 
provide protection for riparian habitat and water rights, archeological 
sites, lands along permanently flowing stream, a year-round pond and an 
endangered cactus species. In this context, the Department supports the 
exchange.'' In 2008 (S. Hrg. 110-572), Mr. Holtrop testified that the 
non-Federal lands ``have outstanding natural qualities'' and that ``the 
Department supports the exchange and believes that overall it is in the 
public interest.'' Is it the Forest Service's position that acquiring 
these non-Federal lands is no longer in the public interest?
    Answer. In addition to the Department of the Interior's testimony 
of June 17, 2009, Secretary Vilsack's letter to Senator Wyden on July 
13, 2009, describes additional views and concerns about S. 409. Several 
factors must be assessed prior to making a determination of whether or 
not the land exchange is in the public interest. Formal Government to 
Government consultations with Tribes along with other meaningful 
dialogue, environmental assessments including NEPA, and other analyses 
must be conducted in order to determine fully the impacts of mining 
operations on the National Forest System lands proposed for conveyance 
under S. 409, the adjacent areas of Apache Leap, Devil's Canyon and 
other areas.
    Question 3. In your written statement submitted at the hearing, you 
indicate that ``consistent with Administration policy, NEPA should be 
done before moving forward on the land exchange.''
    What ``Administration policy'' are you referring to? Please provide 
copies of the policy. This is not a written policy but the policy 
position of this Administration in land conveyance legislation. Is it 
the position of the Forest Service that this ``Administration policy'' 
applies to actions that are directed or mandated by Congress? If so, 
please explain the basis for that position. Again, this is the policy 
which this administration is adopting when testifying on land 
conveyance legislation. In your written statement submitted at the 
hearing, the Forest Service claims that the Environmental Impact 
Statement (EIS) required by Section 5(c) would not analyze impacts from 
mining activities on the land to be conveyed. Please explain why the 
impacts from mining activities on the land conveyed would not be part 
of the ``cumulative effects'' analysis in the EIS required by Section 
5(c).
    Answer. Section 5(c) of the bill would require the Secretary of 
Agriculture to prepare an environmental impact statement (EIS) under 
the National Environmental Policy of 1969 (NEPA) after the land 
exchange in section 4 is completed. It is the Administration's policy 
that the bill should be amended to require the preparation of an 
environmental impact statement before the land exchange is completed. 
NEPA is a forward looking statute setting out procedural obligations to 
be carried out before a Federal action is taken. It requires that, 
before making a discretionary decision, a Federal agency consider the 
environmental impacts of a proposed major Federal action and 
alternatives to such action. It is this Administration's policy that 
NEPA be fully complied with to address all federal decisions, including 
those necessary to implement Congressional direction. Furthermore, the 
effects of mining activities on the land to be conveyed will be 
considered in the NEPA analysis.
    The purpose of a requirement in the bill that the agency prepare 
the EIS after the exchange, when the land is in private ownership, is 
unclear because the bill provides the agency with no discretion to 
exercise. If the objective of the environmental analysis is to 
ascertain the impacts of the potential commercial mineral production on 
the parcel to be exchanged, then the analysis should be prepared before 
an exchange, not afterwards, and only if the agency were exercising its 
discretion in making a decision about the exchange. An EIS after the 
exchange would preclude the U.S. Forest Service from developing a 
reasonable range of alternatives to the proposal and providing the 
public with opportunities to comment on the proposal. The exchange 
would be a fait accompli. A reasonable range of alternatives and public 
comment would be superfluous.
    Question 4. An EIS requires full disclosure to the public of all 
adverse environmental impacts so if the EIS required by Section 4(h) 
was conducted and it revealed that the mine would cause adverse 
environmental impacts would not the Forest Service disclose those 
adverse environmental impacts to the public? What other federal 
environmental laws would affect the permitting of the mining 
operations?
    Answer. The Forest Service would disclose those adverse 
environmental impacts to the public. If the objective of the 
environmental analysis is to ascertain the impacts of the potential 
commercial mineral production on the parcel to be exchanged, then the 
analysis should be prepared before an exchange, not afterwards, As 
indicated in the previous answer, preparing an EIS after the exchange 
would preclude the agency's ability to recommend alternatives which 
would mitigate adverse environmental impacts since the land would 
already be in private ownership. There are many federal laws which 
apply to mining operations; e.g., Clean Water Act, Clean Air Act, the 
Endangered Species Act, the National Historic Preservation Act, etc.
    Question 5. How many copper mines are in operation and located on 
National Forest System Lands? When was the last time the Forest Service 
approved a major mining plan of operations that resulted in active 
copper mine on National Forest System Lands in the lower 48 states 
where the U.S. remained the landowner during the permitting process? 
Please provide the name and location of the mine.
    Answer. Most of the copper mines are of mixed ownership (private 
and U.S.) and mixed commodity (a variety of minerals.) Most major mines 
are not located on federal lands but some of the infrastructure is. In 
the Southwestern Region (R-3), where many of the large copper mines are 
located, most are on mixed ownership lands, including patented private 
lands which are directly adjacent to National Forest lands. In these 
instances, additional mine expansion, new waste rock or leach pads, and 
infrastructure needs often involve approvals and permits from the 
adjoining Forest unit for the benefit of the mine. BHP's Pinto Valley 
Mine in Globe, Arizona, and Freeport MacMoran Copper and Gold Inc.'s 
Miami mine, in Miami, Arizona, are examples of large copper mines, with 
complex landownership patterns, that include the Forest Service.
    In some cases such as the Carlota Copper Mine in Globe, Arizona, 
the vast majority of the mine (greater than 75 percent) occupies Forest 
Service land (Tonto NF). The Carlota Copper Mine is one of the few 
copper mines that is primarily on Forest Service land. The Record of 
Decision for this mine was approved in 1997. The Mining Plan of 
Operation was approved in 1998. Mine construction began in 2007 and 
actual operations began in 2008.
    Question 6. What kind of outreach has the Forest Service conducted 
with the San Carlos Apache tribe and other Arizona tribes concerning 
this proposal? Past Forest Service testimony indicates that government-
to-government discussions have been occurring as far back as 2004.
    Answer. Although the U.S. Forest Service has conducted informal 
discussions with concerned Tribes, including the San Carlos Apache 
Tribe, over the course of the several years this exchange has been 
under discussion, there is a need for formal Government to Government 
consultation with the concerned Tribes to discuss the obligations of 
the U.S. Forest Service to protect and preserve the Forest Service land 
that would be conveyed to Resolution Copper Mining under S. 409 as set 
forth in policies, Executive Orders and various laws. For example, NEPA 
requires the federal agency officials to consult with Indian Tribes 
concerning the effects of the proposed projects on their sacred sites.
    Due to limited information, the U.S. Forest Service is unable at 
this time to provide its own proposed treatment plan to mitigate the 
adverse effects of the proposed land exchange on the archaeological, 
religious, historical, and cultural sites on the proposed National 
Forest System lands to be conveyed to Resolution Copper Mining and the 
adjacent areas of Apache Leap, Devil's Canyon and other areas if 
mitigation is even possible. One of the formidable issues the U.S. 
Forest Service faces regarding mitigation planning is the lack of 
information on the mining plan of operations. In order to determine the 
effects of mining, such as land subsidence and dewatering of springs, 
it is essential to having mining operations plans. Thus, without such 
information, completing formal Government to Government consultations 
with Tribes will be difficult as potential impacts cannot be adequately 
analyzed by the affected parties. Initial contact with Tribes was made 
through the delivery of Resolution Copper Mining's pre-feasibility 
studies, but this is not a substitute for the plan of operations or 
mine planning. Formal consultation regarding the pre-feasibility has 
not occurred with Indian Tribes.
                                 ______
                                 
     Responses of Roy C. Chavez to Questions From Senator Murkowski

    In searching for information on both your organization and the 
Superstition Area Land Trust we were unable to find much information on 
your group.
    Question 1. Ms. Shearer made clear in her testimony what the 
Internal Revenue Service (IRS) tax status is of SALT. What is the IRS 
tax status of The Concerned Citizens and Retired Miners Coalition?
    Answer. The Concerned Citizens and Retired Miners Coalition is a 
grassroots coalition concerned about mining properly based upon federal 
National Environmental Policy Act (NEPA) guidelines. We have no IRS tax 
status.
    Question 2. Could you tell us if your Coalition is active in other 
resource issues or proposals or is the Resolution Copper exchange the 
primary focus of your coalition?
    Answer. Currently, the Coalition is not active in other resource 
issues.
    In searching the internet for information on your Coalition we did 
not find a lot of information on it, while we did find a web site that 
has some information on Ms. Shearer's organization.
    Question 3. If your organization does have a website would you 
provide that web address to the Subcommittee?
    Answer. The Coalition does not have a website.
    We did find a number of press articles related to your organization 
and reporting on activities of a Mr. Roger Featherstone describing 
positions of your organization on the Resolution Copper proposal. Since 
Mr. Featherstone testified on behalf of EARTHWORKS and the Arizona 
Chapter of the Sierra Club to Congress on a similar bill in the 110th 
Session of Congress we would like to better understand the relationship 
your organization has with Mr. Featherstone, EARTHWORKS and the Sierra 
Club.
    Question 4. Is Mr. Featherstone a member of your Coalition? And if 
so is he a board member of your Coalition?
    Answer. The Coalition is a member of the Arizona Mining Reform 
Coalition. As the Director of the Arizona Mining Reform Coalition, it 
is Mr. Featherstone's job to assist member groups in achieving their 
missions; and in that regard, he is a member of our group. However, Mr. 
Featherstone is not a board member.
    Question 5. What is the relationship between your Coalition and 
EARTHWORK and or the Sierra Club?
    Answer. The Coalition shares mutual concerns of EARTHWORKS and the 
Sierra Club regarding this legislation and mining project as well as 
our belief in supporting the NEPA process.
    Question 6. Does your Coalition receive any financial support from 
either EARTHWORKS or the Sierra Club?
    Answer. The Coalition does not receive financial support from 
either EARTHWORKS or the Sierra Club.
                                 ______
                                 
     Response of Rosemary Shearer to Question From Senator Bingaman

    Question 1. Ms Shearer, Mr. Chavez's testimony raised questions 
about the potential impact the mine would have on area water supplies. 
Do you have any information as to what effect development of the mine 
will have on water supplies and associated riparian areas?
    Answer. Senator Bingaman, thank you for your question and your 
concerns regarding the effect on water supplies and riparian areas in 
the Resolution Copper Mine proposal. These are also of concern to our 
land trust, as we own a ranch near Top of the World just North of the 
proposed mine. As my personal knowledge of hydrology as it pertains to 
mining activities is not sufficient to answer this question, I turned 
to Superintendent of Hydrology, Greg Ghidotti, of Rio Tinto, supervisor 
of test water well drilling for Resolution.
    I spent the better part of an afternoon with Mr. Ghidotti, who 
through drawings and topographical maps of the locations of their 
current test wells, described the methodology and results of current 
data. Probably the most significant finding, at least in terms of the 
town of Superior about which Mr. Chavez seemed most concerned, is that 
a significant geological fault that created not only the upthrust 
called Apache Leap millions of years ago, but created an impermeable, 
solid rock barrier running well below the 7,000 feet deep level of the 
ore deposit which would permanently block any water exchange or gain/
loss between the proposed mining site or any location west of the Leap. 
This is verified by current de-watering activities at the old Magma 
mine site which Resolution purchased for reclamation purposes. This 
includes all of the Town of Superior and all land lying to west toward 
Phoenix.
    That leaves the land to the east of Apache Leap as the focus of 
concern. The most vulnerable points, at least to us, are Devil's 
Canyon, a pristine riparian area due east of the Leap and the small 
community of Top Of The World. This is the site of the JI Ranch, part 
of the exchange package that will supplant the controversial Oak Flats 
Campground. After meeting with Mr. Ghidotti, I feel even more confident 
that the mining activities, while not completely free of impact on 
these areas, are being carefully studied through current and future 
test wells, some of which cannot be drilled until the exchange takes 
place. The consequences of water drawdown and cross connections in the 
sub-surface rock structures are demonstrating what will or will not 
affect nearby water sources.
    The test wells, drilled to between 1,000 and 7,000 feet deep are 
subjected to real time and computer modeling tests. At least three deep 
test wells are bored through a 3,000 feet thick solid barrier of 
conglomerate rock. This mass separates the shallower Apache Leap Tuff 
aquifer, 200-300 feet below ground level from another aquifer 
discovered through test drilling, called ``Deep Aquifer.'' This lies 
nearly 2,500 feet beneath the surface and about 2,000 feet above the 
ore body. Testing suggests there is no water transference between it 
and the shallower Apache Leap aquifer. Test wells into the Deep Aquifer 
are limited to Resolution's surface land boundaries, so the extent of 
that aquifer is still under study. Up to six more test wells into the 
Deep Aquifer are planned once access to the land beneath Oak Flats is 
attained. On completion of Resolution Copper's hydrological studies, 
this data will provide the most extensive water study in Arizona.
    The Superstition Area Land Trust continues to support S.409 which 
grants the land exchange for 5550 plus acres of riparian areas and 
recreational lands for the Forest Lands needed for Resolution's mining 
operation. The exchange will preserve these lands whether Resolution is 
able to mine the land or not. At what point in the process the NEPA and 
EI regulations take place should not be an overriding factor. These 
laws are there for a purpose. Essential testing that is needed cannot 
take place on the 2400 acres until Resolution has access to it.
     Response of Rosemary Shearer to Question From Senator Barrasso
    Question 1. I understand that the Superstition Area Land Trust has 
been active in land conservation issues in Arizona for a very long 
time.
    Could you share with the subcommittee your experience with 
Resolution Copper and how that stacks up with others in the past?
    Answer. The Superstition Area Land Trust has been active since 
1993. We are about 45 miles east of Phoenix on US 60 between Apache 
Junction and Superior, AZ at the foot of the Superstition Wilderness 
Area. We have worked with developers, businesses and governmental 
agencies on many projects and planning issues. Dotted with small, 
unincorporated communities such as Gold Canyon and Queen Valley, the 
population consists of many retired individuals and on the western side 
by commuters to Phoenix and Tucson. On the eastern side of our area, 
are the many small mining communities, most of which are shuttered due 
to mine closings.
    Our first contact with Resolution Copper was in 2005 when Bruno 
Hegner, CEO, approached us as they were determining which lands in the 
area were important to conservationists for preservation. Mr Hegner 
took three of our board to several areas of interest, including the 
back side of Apache Leap, the primary drilling site about which we had 
expressed an interest in preserving. When Mr. Hegner left the Superior 
facility shortly thereafter, we were contacted by John Rickus, the new 
CEO, and met with him on several occasions as Resolution continued 
their exploration and community outreach. When David Salisbury came on 
board in 2008, we were immediately invited to meet with a large group 
of stakeholders, including US National Forest, Pinal and Gila County 
officials, other conservation organizations, such as Audubon, Nature 
Conservancy, Sierra Club and others where staff briefed us on their 
progress on the mine and the status of the Land Exchange legislation.
    In 2007 Superstition Area Land Trust partnered with Apache Junction 
Parks and Recreation on a reclamation project on Silly Mountain, a 
local landmark damaged by ORVs and fire. We sought advice on 
restoration procedures and our project managers and the city's Parks 
and Recreation staff were invited on a tour of their Magma Mine 
reclamation project in Superior.
    RCM staff has always been willing to appear at our organization's 
meetings, providing us with maps, studies and staff time and expertise. 
At the suggestion of their public affairs representative, Jennifer 
Russo, we filed a request for a community development grant for the 
project, and were awarded $2500 toward restoration on the Silly 
Mountain Project, which is being funded by many other grants.
    Our only other mining company experience has been on the receiving 
end of a 404 In Lieu Fee payment from another copper mine in the area, 
and since that was administered strictly through the Army Corps of 
Engineers, our contact with their personnel was very limited.
    I cannot think of any developer or business that has been more 
cooperative and transparent with company information and involved in 
community outreach than Resolution. We have worked with several major 
developers in the area on joint projects associated with our trail 
systems and extensive planning issues. None have been any more open and 
accessible at all levels than Resolution Copper.
                                 ______
                                 
   Responses of Rosemary Shearer to Questions From Senator Murkowski

    Question 1. Could you tell us approximately how many members there 
are in the Superstition Area Land Trust?
    Answer. The Superstition Area Land Trust is a 501(c)(3--non-profit 
charitable conservancy in 1993. We are a small organization serving a 
large Sonoran Desert foothills region lying south and west of the 
Superstition Wilderness Area. Our membership runs at about 350 members.
    Question 2. Could you provide the Committee with a list of other 
conservation activities that your Trust has been involved in?
    Answer. 1994-2000--Negotiated a perpetual lease with AZ State Land 
Department. In partnership with National Parks, Tonto National Forest, 
AZ State Parks and Pinal County we designed, acquired funding and built 
an 11.5 mile trail along the front of the Superstition Wilderness 
Boundary to maintain public access as development grew next to the 
boundary, funded by a US DOT ISTEA grant. We also acquired donations of 
land, materials and labor from local developers and individuals to 
finish the trail which opened in 2000.
    1999-2001--Conducted and produced a land use study/plan for 110 
square miles of land lying between US Highway 60 and the Superstition 
Wilderness which was adopted by Pinal County for this region's 
Comprehensive Plan.
    2003--purchased a 5 acre tract of riparian area as our first 404 In 
Lieu Fee mitigation project. Now lease to local outfitter as a 
wilderness outpost camp site.
    1993-2006--Raised funds and public awareness by holding Art For 
Lands Sake Art Tours of Artists of the Superstitions.
    2007--Adopted Silly Mountain, a local landmark marred by fire and 
ORV overuse in the 1990s. Our volunteers built six miles of new trails, 
closed down a road where un-regulated public access had allowed major 
erosion damage to deface the mountain. We are currently engaged in a 
reclamation project to reseed the slopes and erosion area with 
indigenous plants to restore wildlife habitat and provide appropriate 
recreation to the community of about 75,000 in the area.
    2008--Purchased historic private inholding homestead ranch in the 
Tonto National Forest with 404 In Lieu Fee funds. We are currently in 
Phase I of the baseline study to explore the cultural, ecological and 
historic value of this riparian area near active and inactive major 
mining facilities which abut the ranch.
    2009--Obtained a grant to plan and construct a handicapped 
accessible interpretive trail at the base of Silly Mountain as part of 
a future environmental center.
    Various board members regularly teach at local schools and 
community colleges in their areas of expertise. We also conduct 
activities for youth at a local museum and many other community affairs 
and speak at events. Several on our board also serve on state and 
national boards of directors.
    2000-present--Continual involvement with statewide conservation 
groups to amend AZ state constitution to allow for conservation on 
State Trust Lands.
                                 ______
                                 
    Responses of Norman Cooeyate to Questions From Senator Bingaman

    Question 1. Are there any changes you would want to make to this 
bill?
    Answer. Yes.
          A. Restructure the bill so that a comprehensive EIS can be 
        completed on the entire proposed project, including without 
        limitation, mine development, mining, processing, mine closure, 
        reclamation and maintenance, and so that the Secretary could 
        make an informed decision among reasonable alternatives, which 
        alternatives would include the power and authority to make the 
        decision to prohibit the development of the mine; and
          B. Apache Leap, Gaan Canyon and Oak Flat would be held as 
        property of the United States, and withheld from entry for any 
        mining related purpose, with no mining activities allowed on or 
        under these sites, including without limitation, exploration, 
        drilling, tunneling or administrative activities, and standards 
        and restrictions are established so that any proposed related 
        activities in areas other than these would preserve necessary 
        vertical and lateral natural geologic support, to assure that 
        these sites would suffer no subsidence, structural or visual 
        damage; and
          C. Resolution Copper would be required to disclose the 
        potential impact on local and regional surface and subsurface 
        water supplies, and water quality resulting from mine 
        development, mining activity, ore processing and mine closure 
        and maintenance; and
          D. Resolution Copper would be required to prove that it has 
        present perfected legal rights and priorities for all water 
        necessary to develop, mine, process ores, restore and maintain 
        the proposed mine processing sites, prior to the initiation of 
        any mine development, if allowed by the Secretary.
    Question 2. If they were made, would those changes make the bill 
acceptable to the Tribes?
    Answer. Yes.
                                 ______
                                 
     Responses of Norman Cooeyate to Questions From Senator McCain

    Question 1. I understand that the San Carlos Apache reservation has 
a 25% unemployment rate, according to the Arizona Department of 
Commerce. Has the ITCA or the San Carlos Apache Tribe conducted an 
analysis on the economic impact and job growth that a mine, if 
developed, would have on the reservation?
    Answer. The information provided to the Senator from the Arizona 
Department of Commerce is not accurate. The Bureau of Indian Affairs 
(BIA) calculates unemployment on the San Carlos Apache Reservation to 
exceed 82% of the adult Reservation population of approximately 12,000 
people on June 1, 2009. See the attached San Carlos Apache Tribe 
Population Labor Force Report and the Western Region Combined Totals 
Service Population on-or-near Reservation Report.
    Neither ITCA nor the San Carlos Apache Tribe has conducted an 
analysis on the economic impact and job growth that the Resolution 
Copper mine, if developed, would have on the Reservation.
    It appears that neither Congress, nor any other responsible federal 
agency has conduced such an analysis. In addition, neither Congress nor 
any other federal agency has taken any other concrete and responsible 
steps to remedy the profound poverty and persistent unemployment on the 
San Carlos Apache Reservation, or generally any other Reservation in 
Arizona or New Mexico. See the attached July 6, 2009 BIA Service 
Population on-or-near Reservation Report as of June 1, 2009.
    The San Carlos Apache Tribe has determined for itself, that the 
permanent environmental consequences and public health risks of a 
copper mine proposed to be located within its Reservation by Rio Tinto 
would not be a reasonable and prudent trade off for temporary income to 
the Tribe and temporary jobs to be provided by a mine proposed to be 
developed on the Reservation.
    The religious, spiritual and cultural values of Oak Flat, Apache 
Leap and Gaan Canyon to the twenty Arizona Tribes are not fungible. 
These areas cannot be traded for jobs or economic gain and the United 
States should neither condone nor enable any activities which are 
inconsistent with these Tribal values.
    Question 2. In a letter dated April 6, 2009, to the House Resources 
Committee, the ITCA takes the position that either an EIS or National 
Academy of Sciences study be conducted prior to the exchange to 
evaluate the impacts of underground mining on the apache Leap. Wouldn't 
an EIS or NAS study be most accurate if Resolution Copper were first 
allowed to explore the Oak Flat parcel in order to develop a mining 
plan of operation?
    Answer. The exploration, development, mining and alternation of Oak 
Flat is unacceptable. The EIS or NAS study proposed by ITCA should be 
conducted so that an informed decision could be made concerning whether 
mining should be allowed on and under areas that do not include Apache 
Leap, Oak Flat and Gaan Canyon, and if so, under what restrictions, 
methodologies and recovery conditions could mine development, mining, 
processing, mine closure, reclamation and maintenance be safely 
conducted, if any.
    Question 3. That same letter calls for deferring to the 
administrative process to provide an opportunity for government 
consultation on this matter. Is it the position of the ITCA that tribes 
cannot consult government-to-government with Congress?
    Answer. No. Government-to-government consultation can and should be 
conducted with both Congress and the Executive Department. This process 
is not reasonably satisfied by the introduction and support of a bill 
which has if passed, would result in profound, permanent damaging 
impacts upon Tribal religious practices, sacred sites and areas, and 
enable mining related activities which impinge upon or terminate vital 
religious and cultural practices.
    The allocation of five (5) minutes for a verbal presentation before 
a Senate or House subcommittee simply does not approach substantive and 
sincere exchange of ideas and concerns, before any major federal action 
is taken as proposed in S.409. The protection of American Indian 
religious, sacred, and cultural areas, and the related rights of our 
Tribal members to practice their religion is consistent with the most 
fundamental of the trust obligations of the United States to the Tribes 
under our Treaties and agreements, the Constitution of the United Sates 
and the core values of the Nation. There is no compelling National 
interest related to the proposed Resolution Copper mine to which these 
principles should be subordinate.
    Question 4. The bill prohibits the surface disturbance of the 
Apache Leap escarpment (Section 4(d)(1)(B)), and, with respect to 
exploration activities, prohibits the surface disturbance of the entire 
Oak Flat withdrawal Area (Sec. 5(d)(1)). Do you have any specific 
concerns or suggestions about the language?
    Answer. Yes. Although S.409 appears to prohibit surface disturbance 
of Apache Leap and the entire Oak Flat Withdrawal Area as suggested in 
the Senator's Question, the Bill does not in fact protect those areas.
    Section 4(d)(1)(B) operates as the exception which swallows the 
rule. The language is superficial at best. Its function is specifically 
limited to surface disturbance. It does not include subsurface 
disturbances. The exception authorizes surface disturbances for 
[m]onitoring wells, or improvements as are necessary to monitor the 
public health and safety or achieve other appropriate administrative 
purposes, as determined by the Secretary, in consultation with 
Resolution Copper.
    These activities and deference to Resolution Copper are 
inconsistent with the essence of this consecrated area. No surface or 
subsurface disturbance should be allowed.
    Section 5(d)(1) operates in direct violation of the protections 
provided by the Presidential Executive Order 10355, dated May 26, 1952, 
Public Land Order (Arizona) dated September 27, 1955 and Public Land 
Order 512 [Arizona 05427] dated September 21, 1971 even while title to 
the Oak Flat Withdrawal Area remains in United States. Any protection 
it purports to provide, terminates upon mandatory transfer of Federal 
title under Section 4(b)(1) and 4(b)(2)(A). Section 4(d)(2) fails to 
protect Apache Leap before and after the proposed conveyance of the 
non-Federal land (Apache Leap) described in Section 49(c)(1)(G).
    In addition, under Section 4(c)(1), the Secretary could refuse to 
accept any right, title, and interest which Resolution Copper may hold 
to Apache Leap, unless the Secretary determines it ``to be 
acceptable.''
    As a matter of Arizona property law, and common law, S.409 operates 
merely as a quit-claim of non-Federal parcels by Resolution Copper to 
the United States. Conveyances of an interest in real property in 
Arizona must be by deed, signed by all parties to be bound, 
specifically describing the property being transferred.

          A. Arizona Statutes provide these definitions:

          i. ``Real estate'' includes leasehold-interest and any 
        estates in land as defined in title 33, chapter 2, articles 1 
        and 2, regardless of whether located in this state.
          A.R.S. Sec.  32-2101(46);

          ii. ``Sale'' or ``lease'' includes every disposition, 
        transfer, option or offer or attempt to dispose of or transfer 
        real property, or an interest, use or estate in the real 
        property, including the offering of the property as a prize or 
        gift if a monetary charge or consideration for whatever purpose 
        is required.
          A.R.S. Sec.  32-2101(50).

          B. The formal requirements of conveyance of real estate, or 
        any interest in real estate are set forth in A.R.S. Sec.  33-
        401.
          C. The power of a person to disclaim an interest in or power 
        over property is set forth in A.R.S. Sec.  14-10005.
          F. The Arizona Statute of Frauds requires a document in 
        writing to convey an interest in real estate. Fargo v. 
        McAlester Fuel Co., 532 F.2d 149 (9th Cir. 1976).

    As to the protection of the Oak Flat Withdrawal Area, Section 
5(d)(1) is also illusory and at best, transient. It operates only until 
Federal Title is conveyed to Resolution Copper to this Federal parcel, 
which is mandatory under Section 4(b)(1)(B).
    From the date of the passage of S.409 until the transfer of Federal 
title to Resolution Copper, Section 5(d)(1) S.409 eviscerates the 
protections established by the Presidential withdrawal of the Oak Flat 
Withdrawal Area, which protections were intended to be permanent, by 
allowing Resolution Copper to ``carry out mineral exploration 
activities under the Area  . . . by directional drilling or any other 
method that will not disturb the surface of the land.'' This would 
allow tunnels, adits, and shafts to be excavated even prior to transfer 
of Federal title to the Oak Flat Withdrawal Area.
    Section 5(d)(2), is an expression of the ``Sense of Congress'' 
which is in total disregard of the rule of law. Congress should not be 
used as a tool to erode, evade or even wink at the rule of law of this 
Nation.
                                 ______
                                 
    Responses of David Salisbury to Questions From Senator Murkowski

    Question 1. There seemed to be some confusion to one of the answers 
you made in response to a question Senator Wyden asked of you related 
to the protection of Apache Leap.
    Is it your company's intention to protect Apache Leap during both 
mine exploration and development?
    Answer. Resolution Copper is unequivocally committed to the 
protection of Apache Leap. S. 409 takes numerous steps to protect 
Apache Leap, including the addition of more than 110 acres of 
Resolution Copper's property along the Leap which will provide the 
Forest Service ownership of the entire Leap. Additionally, Section 8 of 
S. 409 calls for the management, preservation and protection of Apache 
Leap, and establishes a permanent withdrawal of the Leap from entry 
and/ or appropriation under existing public lands laws and the 
Geothermal Steam Act of 1970. Futhermore, S.409 requires a management 
plan for Apache Leap to be developed in consultation with government, 
tribal, and area stakeholders. These measures specifically address our 
commitment to protect Apache Leap throughout exploration and 
development of the project.
    Question 2. Could you provide the Committee with a map and 
description of the area to be protected around Apache Leap and the 
potential subsidence zone that the mine, as currently conceived, might 
cause?
    Answer. The attached map outlines the lands protected under S. 409, 
as well as the location of planned exploration and mining operation 
facilities. The potential subsidence zone will be wholly within the 
acquired land and will have no impact on Apache Leap and the 
surrounding buffer zone.
    As part of our environmental assessment, we are gathering technical 
information about Apache Leap and putting in place a number of methods 
to monitor subsidence, including:

  <bullet> Seismic monitoring: Used to monitor cave progression by 
        tracking the seismic energy that is released around its 
        perimeter as it expands.
  <bullet> Displacement monitors: Installed down holes drilled from 
        both surface and underground and used to sense any fracturing 
        of the rock.
  <bullet> Tilt meters: Highly sensitive instruments that will be 
        installed down short holes near the surface and will measure 
        any tilting caused by underground work.
  <bullet> GPS, satellite imagery and laser scanning that monitors the 
        surface and can sense movements as small as 0.08 inches (2 mm).

    This information will allow us to identify and prevent any possible 
threat to Apache Leap well in advance of any potential impact, ensuring 
that the area is protected.
    Finally, our mine infrastructure is located between the ore body 
and Apache Leap. Consequently, our infrastructure would be impacted and 
our mining operations compromised well before any impacts to Apache 
Leap.
    Question 3. Could you provide the committee any non-proprietary 
information or data, your company has or is aware of, that will help us 
better understand the geologic data pertaining to the existence and 
flow of subsurface water in the area of the mine or any areas that 
might be developed in relation to the mine proposed in S. 409?
    Answer. Yes, we would be happy to provide the committee any non-
proprietary data that would assist in understanding the geologic data 
pertaining to the existence and flow of subsurface water in the 
immediate mine area and extended surrounds. We are, however, continuing 
to gather infonnation as part of our baseline studies. We have pending 
additional wells under review with the US Forest Service through an 
Environmental Assessment that will assist us in gathering necessary 
information to complete the studies.
    Using test wells up to 7,000 feet deep, Resolution Copper 
hydrologists are gaining an understanding of the groundwater 
surrounding the project. That data, along with longterm forecasts for 
precipitation and various mining scenarios, are used to run detailed 
simulations that can predict changes to the underground aquifer and the 
likely impacts of the project.
    Everything we learn from these tests and studies will be applied 
toward meeting environmental regulations and designing mining 
operations that will safeguard the area's valuable water resources.
    Furthermore, this information will be made available and subject to 
public review and comment as part of the NEPA EIS process.
    Attached: Map*
---------------------------------------------------------------------------
    * Map has been retained in subcommittee files.
---------------------------------------------------------------------------
    Responses of David Salisbury to Questions From Senator Barrasso

    Question 1. Mr. Salisbury your company has been trying to get this 
legislation passed for a long time. Do you have an estimate of how much 
money you have expended in this effort, including lobbying, up until 
this point?
    Answer. Since 2004, we have invested more than $400 million dollars 
in the Resolution Project. While our investment is significant, we 
believe it will generate meaningful returns in the form of badly needed 
jobs in Arizona's Copper Triangle region, provide access to a 
significant copper resource and generate a total estimated economic 
impact of $46.4 billion over the life of the project.
    S. 409 is necessary to gain access to the land we need to completed 
our $1 billion exploration and pre-feasibility effort and, ultimately, 
to reap the significant benefits of the project.
    Question 2. It has become apparent, given the past drafts of this 
legislation, that your company has been willing to work to accommodate 
or mitigate just about every issue any individual or user group has 
come up with. What concerns are there that your company is unwilling to 
negotiate? Are there any?
    Answer. We appreciate your question and the thought process that it 
evokes. At this point in time we are a process-driven, problem-solving 
organization that is seeking a way to build a great copper mine on 
American soil. We think that the project is important to a number of 
small communities, the State of Arizona, and the nation. We need your 
help and the help of the Congress.
    While it's difficult to speculate on any specific issues that may 
arise, and our willingness to negotiate them, we remain firm in our 
commitment to forge an open dialogue with those who oppose the project 
as well as those who support it and, where possible, to find common 
ground. We understand that meeting our business goals, and achieving 
our aspirations for a strong and secure economy, will take partnership 
with our communities, our civic institutions, and the many stakeholders 
who represent the diverse views of our citizens. This commitment has 
been reflected in each one of over a thousand stakeholder meetings we 
have conducted.
    Question 3. I note language in the bill that would force your 
company to pay a royalty like payment even if no mining law reform is 
passed. What, in your mind, does your company get in return for such a 
generous offer?
    Answer. Based on meetings with Members, staff, and various 
stakeholders we believe that our offer to make such payments increases 
the likelihood of bill passage.
    We recognize that Congress is currently considering legislation to 
modernize the mining law, including the application of a royalty on 
mining activity. Resolution Copper--and the National Mining 
Association--support a reasonable royalty as a mechanism to provide a 
fair return to the taxpayers.
    The provision in S. 409 to provide a ``value adjustment payment'', 
Section 12, is consistent with this principle. Further, this provision, 
when coupled with the use of the Uniform Appraisal Standards for 
Federal Land Acquisitions pursuant to Forest Service appraisal 
instructions (Section 7(a)(2)(A)) and the one-way cash equalization of 
value (to the benefit of the U.S. Government) (Section 7(b)), provides 
a framework that assures that this is a fair value exchange from the 
taxpayer standpoint.

     Responses of David Salisbury to Questions From Senator McCain

    Question 1. Please briefly describe the efforts made by Resolution 
Copper to open a constructive dialogue with Arizona tribes. How have 
tribes responded?
    Answer. Resolution Copper Mining and Arizona's Native American 
tribes share many common interests, including sustainable employment, 
maintaining Arizona's unique cultural and preserving the natural 
environment. Throughout the pre-feasibility phase of the project, we 
have and will continue to reach out to the tribes to open dialog on 
these issues.
    While we have had limited success to date, we remain optimistic and 
continue to pursue a mutually beneficial relationship with the tribes. 
In February 2009, we hired Lydelle Davies as our Native American 
advisor. Ms. Davies has more than 10 years of experience working with 
tribal governments, tribal corporations, private business entities, and 
tribal boards and commissions on a variety of land use, environmental 
protection and sustainable development issues. We are confident that 
Ms. Davies can help us open the dialog with Native Americans and help 
ensure that we understand and address the tribal perspective.
    Attached are copies of correspondences that detail our attempts. 
Disappointingly, we gave received no response to these letters.*
---------------------------------------------------------------------------
    * Documents have been retained in subcommittee files.
---------------------------------------------------------------------------
    The San Carlos Apache Tribal Council has requested government-to-
government consultation. We respect this request and their tribal 
sovereignty. We will act in good faith as participants in any 
discussion (officially or unofficially) with any tribal body as 
requested.
    Question 2. Has Resolution Copper offered to work with San Carlos 
Tribe and others to develop employment and job training programs 
specific to your project?
    Answer. Resolution Copper sponsors a number of training and 
education programs, beginning at the grade school level. During the 
past five years, the company has awarded more than $144,000 in college 
scholarships to graduating high school seniors in areas that include 
San Carlos. We also sponsor San Carlos high schools students' 
participation in programs like Camp Anytown Arizona. In addition, we 
are working now with Arizona higher education institutions including 
Gila Community College, East Valley Institute of Technology and Cobre 
Valley Institute of Technology, among others statewide, to help build a 
strong pipeline for our future workforce. Each program, coupled with 
our approach to long-term education and training, is designed to 
benefit the community, including surrounding tribes, and also to 
educate and train a strong workforce for the project and for the 
future.
    With more than 1,400 full time, high quality, technical jobs 
directly affiliated with the mine, we hope to employ many members of 
Arizona's Native American tribes. We have established successful, 
mutually beneficial relationships with Tribes worldwide and we are 
confident we can have similar success in Arizona.
    Question 3. The bill prohibits the surface disturbance of the 
Apache Leap. What methods would you use to conduct exploration 
activities underneath Apache Leap and would they cause any discernable 
subsidence?
    Answer. The exploration activities that will be conducted 
underneath Apache Leap are best characterized as monitoring activities. 
In fact we recommend that the title of Section 4(d)(2) be changed from 
``Exploration Activities'' to ``Monitoring Activities''. Only 
subsurface activities such as transportation (tunnels, shafts), 
monitoring, or collecting geological information are permitted. 
Commercial mineral extraction under Apache Leap is prohibited.
    In response to concerns regarding Apache Leap, S. 409 has been 
amended to leave the entirety of the Apache Leap in U.S. Forest Service 
ownership. In addition, we have added 110 acres of our own land at the 
south end of Apache Leap to the package of lands that will be conveyed 
to the US Forest Service. Resolution Copper is unequivocally committed 
to the protection of Apache Leap. Section 8 of S. 409 has numerous, 
specific provisions that ensure permanent protection of Apache Leap by 
the Forest Service. This section not only includes language that calls 
for the management, preservation and protection of Apache Leap, but 
also requests permanent withdrawal of the Leap from entry and/or 
appropriation under existing public lands laws and the Geothermal Steam 
Act of 1970. Futhermore, 5.409 requires the development of a management 
plan for Apache Leap to be developed in consultation with government, 
tribal, and area stakeholders. These measures specifically address our 
commitment to protect Apache Leap throughout exploration and 
development of the project.
    As part of our environmental assessment, we are gathering technical 
information about Apache Leap and putting in place a number of methods 
to monitor subsidence, including:

  <bullet> Seismic monitoring: Used to monitor cave progression by 
        tracking the seismic energy that is released around its 
        perimeter as it expands.
  <bullet> Displacement monitors: Installed down holes drilled from 
        both surface and underground and used to sense any fracturing 
        of the rock.
  <bullet> Tilt meters: Highly sensitive instruments that will be 
        installed down short holes near the surface and will measure 
        any tilting caused by underground work.
  <bullet>  GPS, satellite imagery and laser scanning that monitors the 
        surface and can sense movements as small as 0.08 inches (2 mm).

    This information will allow us to identify and assess the impact of 
the mining activities at a distance well away from Apache Leap and 
eliminate any possible threat to Apache Leap, ensuring that there is 
not physical impact on Apache Leap
    Attached: Tribal Correspondence

     Response of David Salisbury to Question From Senator Bingaman

    Question 1. Your testimony indicates that the company needs to 
gather additional information and conduct additional analyses before it 
can determine whether developing the mine is economic and feasible.
    If the Oak Flat withdrawal were lifted in the near future to allow 
Resolution Copper to carry out exploration work, how long would you 
expect it to be before Resolution Copper made a final determination on 
the feasibility of the mine?
    Answer. Passage of S.409 would give us access to land needed to 
complete our $1 billion exploration and pre-feasibility effort. With 
this access, we anticipate completing the pre-feasibility phase by 2013 
if the legislation is passed this year. During this phase, we are 
gathering information about the ore deposit, crafting our environmental 
impact statement, creating project plans and developing long-term 
partnerships with the community.
    With pre-feasibility complete, we would finalize the financial 
analysis and, if the project is deemed economically and technically 
feasible, commit capital, and complete the public review of our 
environmental impact statement before construction could begin in 2014 
and continue for about six years. Such a schedule would allow us to 
achieve our target production date of 2020.
                                 ______
                                 
      Responses of Ned Farquhar to Questions from Senator Bingaman

    Question 1. The Department's testimony indicates that it is 
essential for the agencies to have confidential access to the mining 
companies' data and analyses in order to develop an accurate mineral 
report and appraisal.
    If the agencies were to negotiate an exchange such as this under 
its standard administrative procedure, would they have the authority to 
require confidential access to such information as a condition of 
proceeding with the exchange? If so, has this been done before?
    Answer. Yes, in 2005 the BLM completed an administrative land 
exchange with the Phelps Dodge Corporation in the Safford, Arizona 
area. That exchange, frequently referred to as the Dos Pobres/San Juan 
Mine land exchange, was similar in some respects to the exchange 
proposed in S. 409. The BLM requested and received confidential access 
to the mining company's data and analyses to assist in preparing an 
accurate mineral report and appraisal.
    Question 2. The Department's testimony mentions that tribal 
consultations are a concern for the Department, but it does not 
otherwise specifically address the issue. The tribes have testified 
repeatedly that they have been deeply concerned about the lack of 
consultation on a government-to-government basis.
    Has the Department consulted with the Tribes on a government-to-
government basis on this proposal and, if not, does it plan to?
    Answer. The lands to be transferred out of Federal ownership are 
currently under Forest Service management, and the Department defers to 
the Forest Service on tribal consultations regarding these lands.
    Question 3. One of the provisions in S. 409 authorizes the BLM to 
enter cooperative management agreements with non-profit organizations 
to administer portions of the San Pedro National Conservation Area.
    Does the BLM typically delegate Federal management responsibilities 
to a private organization?
    Answer. As you note section 4(e)(3) provides:

          ``The Secretary of the Interior may enter into such 
        cooperative management agreements with qualified organizations  
        . . . as the Secretary of the Interior determines to be 
        appropriate to administer portions of the San Pedro Riparian 
        National Conservation Area.''

    We note that this language is discretionary and does not require 
any such agreements. The BLM does not have cooperative management 
agreements for the management of Federal land in any units of the 
National Landscape Conservation System. We do not delegate management 
authority. However, we have a variety of agreements with governmental 
and non-governmental entities to do a range of projects within NLCS 
units including interpretation, monitoring, restoration and research.

     Responses of Ned Farquhar to Questions From Senator Murkowski

    On March 24, 2009, I wrote the Secretary asking that all testimony 
on any wilderness or other land set aside proposal answer a series of 
questions regarding energy production and infrastructure potential. On 
June 11, 2009, your staff provided some information on existing mineral 
and oil and gas claims in the area, as well as some information on 
roads and power lines within the proposed NCA. Given that S. 874 
includes two new proposed Wilderness Areas (San Antonio Wilderness and 
the Cerro de Yuta Wilderness) and is a 236,000 National Conservation 
Area proposal, I do not believe your testimony or maps were fully 
responsive to all of the questions in my March 24th letter. I would 
like these questions answered at this time:
    Question 1. The location and estimated amounts of all energy 
resources within or adjacent to a proposed set-aside, to which access 
could be impacted by the designation. This should include the potential 
for development of solar, wind, geothermal, hydro, biomass, wave, 
tidal, coal, oil, natural gas, oil shale, and coal-bed methane 
resources;
    Answer. The BLM has not formally evaluated all energy resource 
potential on the BLM-managed lands in question. However, the BLM has 
estimates for potential for some of the energy resources you have 
requested. Specifically, the wind and geothermal energy potential for 
this area is low, and the solar energy potential is moderate. It is not 
within a known oil shale basin, nor is it within known coal fields. 
Finally, the potential for oil and gas is low.
    Question 2. The locations of all existing, designated, or applied-
for transmission lines or corridors for electric power as well as 
pipelines or corridors for geothermal steam, biofuels, carbon dioxide, 
oil, natural gas, or refined products. In addition, please indicate if 
these pass through, are adjacent to, or could be impeded by any of the 
aforementioned land set-aside designations;
    Answer. The BLM provided a map to the Republican Committee staff, 
dated June 11, 2009, which shows the location of all existing 
transmission rights-of-way within the proposed NCA. There are no 
pending applications for pipelines or transmission lines.
    Question 3. The locations of all existing designated, or applied-
for solar farms, wind farms or other renewable energy facilities 
located in or adjacent to proposed set-aside.
    Answer. There are no existing renewable energy projects within the 
proposed NCA, nor are there any applications for renewable energy 
projects within the proposed NCA.
    Question 4. The location and estimated amounts of all known or 
suspected mineral deposits, hardrock or otherwise, within or adjacent 
to a proposed set-aside, to which access could be impacted by the 
designation and for which the United States is more than 15 percent 
reliant upon imports. Furthermore, please explain if these mineral 
resources are used, or could be used, in any `green' or `renewable' 
applications such as solar panels, wind turbines, geothermal 
facilities, wave or tidal generation, nuclear power plants, batteries, 
hybrid vehicles, plug-in vehicles, and fuel cells.
    Answer. Definitive information on known or suspected amounts of 
mineral deposits on the Federal lands under discussion is not 
available. However, we are providing information that may be useful in 
this regard. First, attached is a chart, provided by the U.S. 
Geological Survey entitled ``2008 U.S. Net Import Reliance for Selected 
Nonfuel Mineral Materials.'' Second, the USGS' Mineral Resources Data 
System, available on the web at: http://mrdata.usgs.gov/mineral-
resources/mrds-us.html, is a good resource for considering current and 
past mineral activities on particular lands. Additionally, the USGS 
prepared a study entitled ``The 1998 National Assessment of 
Undiscovered Deposits of Gold, Silver, Copper, Lead and Zinc in the 
United States.'' We are enclosing a copy of that report. Finally, the 
Department of the Interior does not have information on which mineral 
resources might be used in particular energy applications.
    There are 10 unpatented mining claims on the western edge of the 
NCA, adjacent to existing perlite mining operations. Those claims are 
held by the owner of the existing mining operation. There has been no 
recent activity on the claims within the proposed NCA boundary.
    Question 5. Whether or not a Wilderness Area proposed in 
legislation was recommended for designation in the most recent land 
management plan for the area; and if it was not, what the reasons were 
for withholding such recommendation.
    Answer. The BLM may not include recommendations for wilderness 
designation in its Resource Management Plans (RMPs) or through the land 
use planning process.
    Additionally, I would like to know a little more information 
concerning how the existing roads and power line corridors might be 
treated if the lands proposed for the NCA are legislated.
    Question 6. There are a number of power lines within the NCA, would 
they be retained and will the permit-holder have the right to undertake 
whatever maintenance of the lines and right-of-way might be need?
    Answer. Valid permits and rights to maintain those lines and 
rights-of-way will remain unchanged by an NCA designation.
    Question 7. Several of the power lines appear to pass through the 
entire NCA, will those corridors be maintain and will they be able to 
service additional utilities if the need arises in the future?
    Answer. Valid permits and rights to maintain those corridors will 
remain unchanged by an NCA designation.
    Question 8. What grazing allotments exist in the proposed NCA and 
please describe any stock ponds or other water developments that might 
be located within the bounds of both the Wilderness Areas, as well as 
the proposed NCA? And the impact to those development and permit 
holders if this legislation is signed into law?
    Answer. The proposed NCA covers all or part of 47 grazing 
allotments, to which 15,080 animal unit months (AUMs) are attributable. 
Five of the 47 allotments are within the proposed Rio San Antonio 
Wilderness and two are within the proposed Cerro del Yuta Wilderness. 
The attached spreadsheet lists the 90 water developments within the 
proposed NCA; three of those are within a proposed wilderness area. S. 
874 allows for the continued maintenance of these water developments.

                                S. 1140

    Given your testimony on this proposed conveyance please provide the 
Committee with a map of the boundary changes you recommend, along with 
those changes needed to accommodate the power lines, pipe lines, and 
the travel corridor for Elk along the Deschutes River. A map has been 
provided to the Committee staff which includes this information.

      Responses of Ned Farquhar to Questions From Senator Barrasso

                                 S. 874

    Question 1. Please list and explain the nature of each oil and gas 
leases that fall within the proposed boundaries of the proposed 
National Conservation Area?
    Answer. There is one oil or gas lease within the boundaries of the 
proposed National Conservation Area (NCA). That lease will expire on 
December 1, 2009. Beyond that date, the lease could only be held by 
production. To date, there have been no applications for permits to 
drill on this lease.
    Question 2. Exactly what mineral or minerals are involved in the 
claims, and how long have each of those claims existed?
    Answer. There are 10 unpatented mining claims on the western edge 
of the NCA, adjacent to existing perlite mining operations. Those 
claims are held by the owner of the existing mining operation. There 
has been no recent activity on the claims within the proposed NCA 
boundary. The claims date from 1982 and cover an area of approximately 
200 acres. When filing a mining claim in New Mexico the claimant is not 
required to identify those minerals for which they intend to develop 
the proposed mine.
    Question 3. Is the BLM or Mineral Management Service aware of any 
other mineral potential in the proposed NCA? If so, what potential 
mineral resources might exist within the area?
    Answer. Definitive information on potential mineral resources on 
the Federal lands under discussion is not available. However, the U.S. 
Geological Survey's Mineral Resources Data System is available on the 
web at: http://mrdata.usgs.gov/mineral-resources/mrds-us.html and is a 
good resource for considering current and past mineral activities on 
particular lands.
    We note, because this area had past volcanic activity, there is 
potential for scoria and cinders (these are not locatable minerals, but 
rather are handled through discretionary sales of mineral materials).
    I understand that there are also a number of power line permits 
within the proposed boundaries of the NCA.
    Question 4. Could you describe how the designation of the NCA would 
or would not affect the permit holders of these power lines?
    Answer. These rights-of-way are valid existing rights.
    Question 5. Can you assure me that they will be able to maintain 
those rights-of-way and that the BLM will continue to allow those 
facilities to operate into the future?
    Answer. Yes, I can assure you that the designation of the NCA would 
not affect valid existing rights.
    Question 6. If someone new were to ask to put a power line or water 
pipeline across or within the El Rio Grande Norte National Conservation 
Area in the future, should this bill be signed into law, would the BLM 
allow that?
    Answer. S. 874 does not expressly prohibit new rights-of-way within 
the proposed NCA. However, any new rights-of-way would need to further 
the protective purposes for which the NCA is established.
    Question 7. If someone were to ask to put a new pipeline or power 
line along any of the existing power line right-of-ways, how would the 
BLM respond to such a request if S. 874 were signed into law as 
currently written?
    Answer. Without seeing a specific application it is hard to 
predict. However, on the whole the BLM prefers to manage rights-of-way 
through consolidation. Furthermore, section 3(2)(E) of S. 874 
specifically makes provision for upgrades to utility corridors.

                                S. 1140

    I have to observe that these two conveyances are quite large when 
considering this is a town of less than 8,000 people.
    Question 1. Mr. Farquhar how many other conveyances has your agency 
carried out in the last decade similar to this proposal?
    Answer. During the ten years between 1999 and 2008, the BLM 
administratively issued approximately 228 patents for Recreation and 
Public Purposes (R&PP) applications according to BLM's Annual Public 
Land Statistics Report.
    Question 2. Your testimony suggests the BLM does not believe that 
the City of La Pine needs the full 750 acres to site a waste water 
treatment plant, would you provide the committee with detailed map 
showing us the exact boundaries of this parcel that the BLM would 
support?
    Answer. No specific concerns were raised regarding the size of 
Parcel B. The testimony only raised concerns about the boundaries of 
Parcel A.
    For example, how many acres are utilized by similar facilities in 
Bend or Redmond, OR?
    The BLM is not aware of the size of similar facilities in Bend or 
Redmond Oregon.
    Is this proposed exchange providing an abnormally large acreage for 
this purpose?
    The BLM has not determined if this is an abnormally large acreage, 
however, the size of proposed Parcel B is identical to the RP&P 
applications submitted by the city of La Pine.
    Question 3. Your testimony suggests that BLM does not believe that 
the City of La Pine needs all the acres to develop an equestrian and 
rodeo site, would you provide the committee with detailed map showing 
us the exact boundaries of this parcel that the BLM would support?
    Answer. We have provided a map to the Committee staff which 
indicates the modifications the BLM recommends to Parcel A. The new 
configuration would transfer 80 acres out of Federal ownership.

        Response of Ned Farquhar to Question From Senator McCain

    Question 1. At the hearing, Ned Farquhar, testifying on behalf of 
the Bureau of Land Management indicated that the ``Administration is 
continuing its analysis of the bill . . . and the Administration may 
have additional concerns as it works through its analysis.'' The Bureau 
of Land Management has testified and provided its views and concerns 
regarding this land exchange on as many as three occasions prior to the 
hearing on June 17, 2009. On each of these occasions the Bureau of Land 
Management testified that it supported the goals of the exchange.'' Did 
the Administration review its past testimony prior to this hearing? 
What has changed substantively with regard to this land exchange since 
you last testified on July 9, 2008 that warrants additional review?
    Answer. The Department of the Interior's concerns with S. 409, the 
Southeast Arizona Land Exchange and Conservation Act, are fully 
described in the Department's testimony from June 17, 2009. As noted in 
that testimony, the Department of the Interior defers to the Forest 
Service on those issues directly related to the Forest Service. It is 
in regard to Forest Service-related issues that we understand the 
Administration continued its analysis of S. 409, and that Agriculture 
Secretary Vilsack sent you a letter dated July 13, 2009 providing a 
detailed analysis of the Administration's concerns with S. 409.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

   Statement of Clinton M. Pattea, President, Fort McDowell Yavapai 
                           Nation, on S. 409

    Mr. Chairman and members of the Committee, on behalf of Fort 
McDowell Yavapai Nation, I wish to provide our serious concerns on the 
proposed Southeast Arizona Land Exchange legislation, Senate Bill 409, 
authorizing and directing the exchange and conveyance of National 
Forest and other land in central and southeast Arizona. The stated 
purposes of this bill is to ``secure federal ownership and management 
of significant natural, scenic, and recreational resources, to provide 
for the protection of cultural resources, to facilitate the efficient 
extraction of mineral resources by authorizing and directing an 
exchange of Federal and non-Federal land, and for other purposes''. My 
comments specifically address and provide evidence as to why this 
proposed mining operation causes great concern to the People of the 
Fort McDowell Yavapai Nation.
    Several years ago, the increasing global demand and the associated 
increase in copper prices resurrected the mining industry and fostered 
interest in deposits previously deemed unprofitable. This includes a 
large undisturbed ore body beneath the original Magma Mine and about 
7000 feet below Apache Leap (1000 ft below sea level), as well as Oak 
Flat and Devil's Canyon, just east of Superior, Arizona. Resolution 
Copper Company (RCC), a joint venture between foreign mining giants Rio 
Tinto and BHP Billiton, is exploring the feasibility of mining this 
deposit with a purported value of well over one hundred billion 
dollars. The proposed Senate (S. 409) and companion House bill (H.R. 
2509), directs the Secretary of Agriculture to convey and dispose of 
2406 acres of public lands within the Tonto National Forest (FS) 
including the federally Protected Oak Flat Campground, for the benefit 
of RCC. All of these lands were once inhabitant by the Yavapai People 
and these lands remain fundamentally important to the Yavapai.
    Before I present Fort McDowell Yavapai Nation's grave concerns 
regarding the legislative land exchange proposed in S. 409, we ask one 
fundamental question. Why is this bill necessary?
    RCC has failed to provide a meaningful answer to this question. 
Perhaps RCC does not want to invest foreign shareholders money to 
develop this mine without first obtaining a guarantee from the United 
States that they (RCC) will be given full ownership and exclusive 
control over these lands and the value of the resources they contain. 
We ask, is this great insecurity founded in a knowledge that the 
federal government does not currently hold? If uncertainty regarding 
risks is left unanswered by RCC then questions directly revert back to 
the federal government. Why not pull this bill and instead refer this 
land exchange and mining project through administrative processes 
mandated by Congress under the National Environmental Policy Act (NEPA) 
and other federal laws? We further ask, if mining is allowed (without 
the trade) but does not thrive while under federal control, the land 
could not be subject to future sale or other commercial or industrial 
endeavors and therefore RCC could not recoup any expenses through its 
sale. Is this a factor? Is it likely that federal analysis would 
determine that RCC's mining project simply posses too great of an 
environmental risk or undeniable cultural and religious desecration 
such that it can not be tolerated and therefore deemed unfeasible? Are 
these the primary considerations that RCC has deliberated in seeking to 
circumvent the administrative process through this legislative land 
exchange? In essence, it appears that S. 409 requests Congress to 
accept these incalculable risks in exchange for other private lands 
scattered throughout Arizona in an attempt to `mitigate' damages 
resulting from RCC's mining of these federal lands near Superior. The 
Yavapai People do not and can not accept this rational.
    Senate bill 409 does not provide the requisite transparency to 
address many of the fundamental concerns mining projects like these 
present, including, but not limited to, the lack of quantifiable 
royalties, the feasibility of the mine and mining operations, the 
equalization of the exchange, an unbiased analysis of the potential 
economic benefits, assessment and mitigation of environmental damages, 
untenable security and sustainability of Apache Leap, and incalculable 
cultural losses. Thus, basic questions have yet to be answered 
regarding the proposed exchange and the benefits to the public interest 
remain uncertain. However, questions regarding the extent of how this 
mining operation will affect the cultural and religious importance of 
the area must be fully and fairly appraised or analyzed through the 
administrative process prior to congressional action. Only through the 
administrative process can these serious concerns be adequately 
considered. Only through the administrative process would Fort McDowell 
Yavapai Nation be provided with an opportunity for a meaningful 
government-to government consultation (see below) that is required by 
the United States' trust responsibility to the Yavapai Nation and 
guaranteed under federal law. Examples of the specific deficiencies in 
S. 409 are described below. We again request that Fort McDowell be 
given opportunities afforded to them under federal laws for the 
requisite government-to-government consultation.

Substantial Concerns Remain Regarding Financial and Equalization of the 
                         Exchange to the Public

    It is well known that substantive royalty provisions have not been 
recouped on mined federal properties thereby significantly fleecing the 
American people. With the intent to rectify this situation, this year, 
both the Chair of the Natural Resources Committee, Congressman Rahall, 
and Senator Bingaman, Chair of this full Committee, introduced 
legislation to reform the 137 year old Mining Law of 1872. In 
reintroducing the legislation, Congressman Rahall stated: ``Given our 
current economic crisis and the empty state of our national Treasury, 
it is ludicrous to be allowing this outmoded law to continue to exempt 
these lucrative mining activities from paying a fair return to the 
American people.'' Congressman Rahall also observed: ``Nobody in their 
right mind would allow timber, oil, gas, coal or copper to be cut, 
drilled for, or mined on lands they own without receiving a payment in 
return for the disposition of their resources. And neither should the 
United States.'' Thus, his legislation is poised to change many of the 
financial aspects of the hard rock mining industry that are rightfully 
owed to the United States. However, under the terms of the legislative 
land exchange proposed in S. 409 (which would cede control of perhaps 
the largest copper deposit in North America to foreign interests), none 
of the financial benefits found in Congressman Rahall's legislation 
would be realized by the American public.
    As presented by S. 409 sponsors, given the current economic 
conditions our country and the State of Arizona are facing, this type 
of hard rock mining, with the potential to generate additional tax 
revenues, royalties, etc. could (at first glance) be looked upon 
favorably. In reality, as S. 409 is proposed, unsubstantiated facts and 
unanswered questions remain regarding, among other things, the overall 
economic feasibility and benefit of this exchange to the American 
taxpayer. For example, RCC is a Delaware based Limited Liability 
Company (LLC) and a wholly owed subsidiary of Rio Tinto and BHP 
Billiton, both foreign owned companies. Notably, nine percent of Rio 
Tinto is owned by the state-controlled Aluminum Corporation of China, 
also known as Chinalco. In essence, nine percent of the federal lands 
to be exchanged, including the mineral and other natural resources, 
would be held by China through its Rio Tinto holdings. Without 
contradictory evidence, it is reasonable to assume that most of profits 
will be shipped off-shore and not held within the United States based 
on these companies mining operations, holdings, and performance. 
Furthermore, it can also be assumed that much mineral deposits will be 
shipped and utilized for other countries to exploit.
    In examining the royalty provisions found in S. 409, it is highly 
likely that trading these federal lands into RCC's private ownership 
will result in unquantifiable, inequitable, and effectively zero 
royalties being provided to the United States taxpayer.
    Suggestions on a valuation of the ore by multiplying an assumed 
quantity of mineral reserves by a unit price is almost universally 
disapproved by the courts [see Cloverport Sand & Gravel Co., Inc. v. 
U.S., 6 Cl. Ct. 178, 188, (1984)] and also not acceptable.
    S. 409 calls for an appraisal report that would include a royalty 
income approach analysis, in accordance with the Uniform Appraisal 
Standards for Federal Land Acquisition (UASFLA), of the market value of 
the Federal land. However, this approach often requires the appraiser 
to use a multitude of indicators, facts, and variables, the accuracy of 
which cannot clearly and easily be demonstrated by direct market data 
[See Foster v. United States, 2 Cl. Ct. 426 (1983)]. This is 
particularly true when discounted cash flow (DCF) analysis or other 
forms of yield capitalization are employed in the analysis. 
Furthermore, within the UASFLA there are several specific requirements 
to assess values, including the need for a detailed mining plan for the 
property. UASFLA requires that production level estimates should be 
supported by documentation regarding production levels achieved in 
similar operations. The annual amount of production and the number of 
years of production are more difficult (and speculative) to estimate, 
and require at a minimum, not only physical tests of the property to 
determine the quantity and quality of the mineral present, but also 
market studies to determine the volume and duration of the demand for 
the mineral in the subject property. However, it is unknown at this 
time what the true production estimates are as specific mining plan 
details have not been forthcoming from RCC. In addition, the true 
quality or quantity of the material is unknown and the extraction 
technology for this mining operation at a 7000 foot depth has not been 
developed and thus not currently available. This fact is further 
underscored by the lack of available information on production levels 
being consistent with an (unknown) mining plan's labor and equipment. 
Significantly, all of this information is required for a meaningful and 
accurate appraisal.
    In further examining UASFLA, the royalty income approach also 
requires several economic predictions including a cash-flow projection 
of incomes and expenses over the life-span of the project and a 
determination of the Net Present Value (NPV), including the NPV of the 
profit stream, based on a discount factor. The NPV of a future income 
is always lower than its current value because an income in the future 
assumes risk. The actual discount factor used depends on this assumed 
risk. A proven technology carries a lower risk of non-performance 
(thus, a lower discount rate) than a technology being applied for the 
first time.
    Given the evaluation standards prescribed by the UASFLA, coupled 
with the lack of factual data and uncertainty of the technology 
described above, the final appraisal of this massive ore body could 
ultimately net zero, meaning that the valuation of the federal lands 
exchanged for the benefit of RCC would not reflect the value of the 
copper and other saleable minerals these lands contain. The American 
taxpayer would once again be short-changed.
    Given the trade from federal to private holdings in S. 409, the 
inadequacies described above in this land trade remain regardless of 
whether or not the Senate and House hard rock legislation moves 
forward. RCC must be required to provide additional information and pay 
for additional research in order to generate an appraisal that is fair 
and equitable to the people of the United States.
    Moreover, since the Federal government has yet to perform a 
substantive economic evaluation of the lands along with the copper and 
other minerals to be exchanged to RCC, it is also impossible for the 
Congressional Budget Office (CBO) and /or Office of Management and 
Budget (OMB) to effectively evaluate S. 409. The public interest 
requires that a complete and fully informed appraisal and equalization 
of values be performed prior to Congressional passage of S. 409, not 
after. As of today, RCC asserts that there may be over 1.34 billion 
tons, containing 1.51 percent copper and 0.040 percent molybdenum to be 
removed over the 66 years of mine life. Although the current value of 
all minerals present on these federal lands are not provided by RCC, 
estimates have ranged from $100 to $200 billion. Thus, even RCC's own 
self evaluation of the ore body underlying these public lands is orders 
of magnitude greater in value than that of the nonfederal parcels 
offered in exchange by RCC to the public.
    Section 5(a) of the legislation requires that the exchange and 
other critical documentation be completed within one year after 
congressional passage. Given the rationalizations above regarding the 
complexity of such analysis, it is incredulous that one year is 
sufficient time for the completion, and subsequent thorough 
examination, and to review of all reports and appraisals. Indeed, 
Michael Nedd, then Assistant Director, Minerals & Realty Management 
Bureau of Land Management, stated in his previous testimony on this 
matter that he and the Department did not believe a one year provision 
was sufficient time for the completion and review of a mineral report, 
completion and review of the appraisals, and final verification and 
preparation of title documents. Yet, the sponsors of this bill have 
chosen not to heed the governments own experts advice and counsel on 
mineral appraisals. Why?
    Once RCC has completed its evaluation and analysis, the Fort 
McDowell Yavapai Nation urges Congress to require an independent, third 
party review of the all reports, including the engineering report, for 
this operation. This must be accomplished in consultation with all 
affected parties, including between the Federal government and Fort 
McDowell Yavapai Nation, prior to this legislation moving forward. At 
this time, relying on the RCC current engineering and other reports or 
the Departments of Agriculture and Interior review of these reports is 
insufficient. On a monetary level, one can clearly see that RCC 
financially recoups all mineral profits at the expense of the public 
making such an exchange grossly disproportionate.

   Substantial Financial and Environmental Concerns Remain in S. 409

    In introducing his proposed hardrock mining and reclamation 
legislation, Senator Bingaman made clear that the ``Secretary of 
Agriculture must take any action necessary to prevent unnecessary or 
undue degradation in administering mineral activities on National 
Forest System land.'' Senator Bingaman also warned that under the 
Mining Law of 1872 ``billions of dollars of hardrock minerals can be 
mined from Federal lands without payment of a royalty. General land 
management and environmental laws apply, but there are no specific 
statutory provisions under the Mining Law setting surface management or 
environmental standards. Efforts to comprehensively reform the Mining 
Law have been ongoing literally for decades, but results have thus far 
been elusive.'' Yet, by virtue of the provisions set forth in this 
proposed land trade--that is before this very committee--the lack of 
governing regulations or policies leave the federal lands to be 
exchanged effectively with no protections. One of the overarching 
questions regarding RCC remains, how will RCC, as an LLC, be mandated 
to hold and provide significant and meaningful financial assurances 
(e.g. bonding) that would ordinarily be required from such an immense 
mining operation? The need for bonding assurances is obvious, 
particularly with the great uncertainty surrounding this massive 
undertaking (see below regarding Arizona mining laws). Yet, S. 409 does 
not adequately address this issue. Such financial assurances must be 
provided particularly in regard to environmental and cultural concerns.
    Subsidence, water quality and quantity concerns, air quality 
concerns, tailings and overburden placement/storage, acid mine drainage 
and subsequent pollution, and a host of other damages yet to be 
determined as a result of this type of operation have not been 
sufficiently addressed in this bill. Furthermore, as discussed below, 
with only superficial legislative provisions to protect the sacred 
places of Apache Leap and Oak Flat and the important cultural resources 
these places provide, there is simply not a way to hold RCC responsible 
when mining destroys these areas.
    Oak Flat is a major piece of this land exchange. In 1955, Oak Flat 
campground was recognized by President Eisenhower as an important place 
and critical resource of the United States. This area was specifically 
withdrawn from mining activity when he signed Public Land Order 1229. I 
will not expound on reversing President Eisenhower's decision as others 
before me have either testified or documented the significance of this 
region. However, the dangerous precedent set by S. 409 should not go 
without note. When lands like Oak Flat that have been legally protected 
from future anthropogenic disturbances, in this case mining activity, 
can have their protections congressionally reversed, negates assurances 
that other Federal lands (particularly those that are deemed culturally 
important or environmentally critical) can remain `protected'. There is 
no valid reason to set such a dangerous precedent today.
    As past stewards of this land, we are deeply concerned that the RCC 
mine will cause irreparable harm to the environment including, but not 
limited to, contaminating scarce water supplies, dewatering nearby 
surface water, decimating the land base directly through mining 
practices, mining and post mining subsidence, destroying habitat for 
endangered species, and causing massive surface damage. S. 409 does not 
specifically direct the Secretary of Agriculture to perform or have 
performed in-depth, critically needed environmental studies and 
analysis of the mining operation. It is likely that, RCC will he 
effectively exempt from NEPA and any opportunity for public involvement 
required by NEPA. The NEPA process mandates analysis and disclosure of 
environmental impacts, including cumulative impacts, allowing all 
affected parties and decision-makers to review and comprehend the risk 
assessment.
    The current `NEPA language' in the bill can not be supported or 
supervised by the Federal government particularly after the land trade 
is finalized and therefore, as currently drafted, is ineffectual. In 
this case, NEPA is merely pro forma and is perfunctory at best. As 
mentioned above, it will take significant time consuming operation to 
undertake such an in-depth analysis far longer than was provided for in 
this bill. This conclusion has also been supported by the 
administrations testimony at previous hearings on earlier versions of 
this bill. Joel Holtrop, Deputy Chief, U.S.D.A., Forest Service, stated 
in testimony regarding the house version of this bill that one year is 
insufficient time to complete all the necessary work to complete the 
exchange, including the development and review of a mineral report, 
completion of appraisals and surveys, verification of title documents, 
and the many environmental clearances, reviews, as well as the 
consultation with Indian Tribes required under various laws, 
regulations, and policy.
    Thus, the limited time will not yield analysis that will have true 
scientifically based findings and conclusions, yet the timing 
provisions have not changed. Why? If additional reports, examinations, 
scientific analysis, etc. come forward and they demonstrate significant 
impacts to the environment after the trade takes place and the land is 
privately held, the federal government can no longer exert its 
jurisdiction, can no longer mitigate, or provide guidance on how to 
remedy an environmental consequence.
    Our paramount concern is where and how will the tailings be re-
located? In consulting with geologists and geomorphologists, it does 
not appear that there are sufficient, previously abandoned surface mine 
pits that could either temporarily or permanently house the predicted 
hundred of thousands of tons of material generated per day for the 66 
years of mining. Much of this material will contain an array of toxic 
substances. Will unspoiled canyons be sacrificed to store this 
material?
    Furthermore, technologically enhanced naturally occurring 
radioactive materials (TENORM) are waste elements within stockpiles 
that release toxins into the environment. Subterranean toxic metals 
pose little harm to human health. However, when brought to the surface, 
stockpiled, exposed to the air, and subjected to various technological 
processes, there is a potential for adverse effects to humans. This is 
particularly true in Arizona where there are abundant deposits of 
radioactive metals and poisonous arsenic. The Surface Mining Control 
and Reclamation Act of 1977 is not applicable for copper mining. Thus, 
in the absence of truly meaningful Federal laws regulating copper 
mining, who will make determinations as to what lands will be 
sacrificed--lands that my People hold so sacred? We must be consulted 
and allowed to participate in the process.
    It is also important to understand that once these public lands are 
conveyed, under the permissive mining and reclamation laws of the State 
of Arizona, RCC will probably not be required to expend cash to post a 
bond to underwrite either the cost of remediating toxic spills during 
its mining operations, or for its pollution clean-up upon mine closure. 
Typically, only self-bonding or corporate guarantees are all that is 
required. This is woefully insufficient to protect the public from 
bearing the potentially astronomic costs of clean-up resulting from 
RCC's massive mining operations.
    The impacts of sulfuric acid and other contaminants from leach 
solution are well documented and require no elaboration here. However, 
in Arizona, mining companies who declare bankruptcy leave behind a 
large burden for tax payers who are often left with the enormous clean-
up obligations that should have rightfully fallen on the mining 
company. For example, Asarco, which owns many mines in Arizona, 
declared bankruptcy and was reported to have left hundreds on millions 
of dollars in clean-up costs. The Governor of Arizona only recently 
signed an agreement settling this case, but it is yet from over as 
taxpayers will provide millions toward environmental clean-up. It is 
therefore incumbent upon Congress to intercede now, before RCC 
undertakes its massive mining operations, to mandate a greater level of 
financial responsibility from RCC (beyond a cooperate assurances) for 
the multitude of risks associated with their project. (For additional 
information, see testimony of the Honorable Roy Chavez, former town 
manager and Mayor of Superior)
    In regard to the environmental considerations, the Yavapai People 
are a critically affected party in this legislation. The Yavapai will 
not be provided an opportunity to engage in any activities to protect 
this land either before or after the exchange takes place. As such, the 
Secretary of Agriculture must direct RCC to provide full disclosure of 
all pertinent environmental information regarding the detailed mining 
operation, including a substantive mining, environmental, and 
reclamation plan prior to congressional markups.

     Apache Leap Remains Without Any Real Protections Under S. 409

    Previous versions of the Southeast Arizona Land Exchange and 
Conservation Act contained provisions for a conservation easement for 
Apache Leap. This provision is noticeably absent in S. 409. In keeping 
the land as 'public', it does not protect it from mining activities. In 
fact, overall protections of Apache Leap are seriously undermined by 
language in Section 4 (d) of S. 409 that provides for substantial 
mining activities both on top of an under the Apache Leap that will 
result in its subsidence. Without any protection or funding assurances, 
such as substantial bonding, should damage to Apache Leap result from 
mining activities we ask, who is responsible for the damage? As 
written, both RCC and the Federal government appear to have 
circumvented any responsibility for injury to Apache Leap caused either 
directly or indirectly by RCC's mining activities or operation.
    Moreover, any implications that Apache Leap will be protected 
through the development of a ``management plan'' as described in 
Section 8(b) is misplaced. A plain reading of this section reveals 
little in the way of specifics. Indeed, while S. 409 directs the 
Secretary of Interior to ``initiate'' and ``implement'' a management 
plan for this important and sacred place, the bill contains absolutely 
no requirements for the plan and provides no substantive direction to 
the Secretary as to what the plan should entail. The final terms of the 
plan are left to the discretion of the Secretary, without guidance from 
Congress. Thus, there is little assurance that a plan for the 
``permanent protection'' of the cultural, historic, educational, and 
natural resource values of Apache Leap will be developed.
    What is also evident, there is no connection or coordination in S. 
409 between the development of a management plan for Apache Leap and 
RCC's overall plan for the conduct of mining activities throughout the 
larger mining area, including its subsurface activities below Apache 
Leap. In this case, the management plan of Apache Leap is separate and 
distinct from any operations or mining plans. Furthermore, while 
Section 8(b) calls for ``consultation'' with the Yavapai People 
regarding the management plan for Apache Leap, there are no provisions 
in the bill for consultation with the Yavapai Nation regarding RCC's 
unrestricted mining activities in the area surrounding Apache Leap as 
well as its operations and activities under the Leap. Yet, it is these 
activities, including the deep underground block caving operation 
itself, that present the greatest threat to the cultural, historic, 
educational, and natural resource values and continued integrity of 
Apache Leap.
    Although a management plan is to be developed, as discussed below, 
the few ``protections'' intended to serve as preserving the natural 
character of Apache Leap are negated by several sections of this bill 
for example: Under section 4 (d), additional consideration to United 
States, affirms that Resolution Copper shall surrender to the United 
States, without compensation, the rights held by Resolution Copper 
under mining and other laws of the United States to commercially 
extract minerals under Apache Leap. However, upon further review of 
this subsection, under (2) exploration activities, it clearly states 
that mining activities will be allowed: ``nothing in this Act prohibits 
Resolution Copper from using any existing mining claim held by 
Resolution Copper on Apache Leap, or from retaining any right held by 
Resolution Copper to the parcel described in subsection (c)(1)(G), to 
carry out any underground activities (emphasis added) under Apache Leap 
in a manner that the Secretary determines will not adversely impact the 
surface of Apache Leap (including drilling or locating any tunnels, 
shafts, or other facilities relating to mining, monitoring, or 
collecting geological or hydrological information) that do not involve 
commercial mineral extraction under Apache Leap.'' In essence, the Act 
does not provide actual protection of the Leap against mining 
activities as Resolution Copper is afforded any and all mining 
operations other than commercial extraction. These mining activities 
will be granted by the administration without any consultation with the 
Yavapai people. Furthermore, there are no provisions as to how to 
evaluate, monitor or stop either short-or long term impacts of these 
mining activities to Apache Leap resulting from RCC's mining 
activities. If mining is to occur despite significant objections, when 
catastrophic disturbances, such as subsidence, fissures, etc., cause 
destruction on, under, or around Apache Leap to occur, detailed 
provisions must be in place as to the restoration or reclamation 
activities and who will be the responsible party to provide for those 
restoration activities. What's more, destruction of irreplaceable 
cultural and religious resources is not provided any consideration.
    In addition to above, Section 4(d) of the bill permits surface 
disturbance to Apache Leap for the placement of fences, signs, 
monitoring wells, and other devices, instruments, or improvements as 
``are necessary to monitor the public health and safety or achieve 
other appropriate administrative purposes, as determined by the 
Secretary, in consultation with Resolution Copper.'' Here again, the 
Yavapai people are left out of this consultation process as this is 
part of the mining operations needed to carry out mining activities and 
not considered under the management plan. The Yavapai are also not 
consulted regarding if, and to what extent, any ``disturbance'' to the 
surface of Apache Leap is acceptable. Because S. 409 does not provide 
provision or other guidance in this matter, it can be truly said that 
this bill is silent on the true protection for Apache Leap.

         S. 409 Fails to Protect the Water Supply of the Region

    As related in previous public testimony on earlier versions of this 
bill, a major scientific concern relates to groundwater pumping as it 
will de-water this region. This area of concern is discussed in 
testimony provided to you today by other groups and organizations; 
however Fort McDowell addresses this issue in brief and poses a number 
of questions that must be resolved through the administrative process 
prior to any consideration of legislative exchange.
    Devil's Canyon, located in the Tonto National Forest and on State 
Trust Lands near RCC's mine is of great importance and of critical 
concern to the Yavapai people. Without providing sacred details of the 
area, Congress should be cognizant of the fact that the Yavapai perform 
and have performed numerous religious and cultural ceremonies at 
Devil's Canyon since time immemorial. The sacred significance of 
Devil's Canyon to the Yavapai People can not be described in words on a 
page. The loss of the area, as mentioned below, can not simply be 
`mitigated away'.
    As discussed in other testimony today and in written testimony by 
groups such as the Serria Club, the riparian areas and natural springs 
in and around Devil's Canyon are of hydrologic significance to the 
Yavapai People and to those people who rely on this water in the 
surrounding region. Water flows from these springs into Mineral Creek, 
a tributary of the Gila River. Devil's Canyon is also a critically 
important, though dwindling, riparian habitat for numerous species. 
Dewatering through groundwater pumping, mine dewatering, and other 
mining activities will cause these springs to be lost forever. This is 
an irrefutable scientific fact and not addressed within the proposed 
legislation. Moreover, as outlined in the aforementioned section, since 
there are no legislative provisions that provide protections to Apache 
Leap from disturbance, it is very likely that RCC's need to dewater its 
extensive and deep underground tunnel system used for its mining 
activities will cause a serious drawdown in the water table of the 
region and will result in subsidence in and around the Apache Leap.
    While the water demands and consumptive use of RCC's mining project 
is not fully known, it has been estimated that 40,000 acre feet per 
year (AFY) of water will be required by RCC for its mining operations. 
This is equivalent annual water supply for a community of about 80,000 
people. It has been expressed by many in the scientific community that 
there is insufficient groundwater to maintain yearly mining operations 
over the longevity of mine. Thus, RCC is seeking to obtain and store 
water through the Central Arizona Project (CAP). Currently, there are 
no long-term water leases available for RCC under CAP to meet their 
water demands. How RCC's water demand will be met has not been 
investigated by the Federal government and only spuriously explained by 
RCC. Given that water is the most critical natural resource to 
inhabitants of the State of Arizona, further compulsory investigations 
vis-a-vis water must also address:

  <bullet> What empirical and realistic predictions are made for long-
        term water-use over the 66 years of mining? Has the long-term 
        availability and sustainability of water use been assessed?
  <bullet> How will dewatering of the mine be executed? Will water 
        removed from the shafts, tunnels, and related areas be stored? 
        If so where and how will this take place? How will water be 
        replaced (or will it be replaced) in an environmentally safe 
        and effective way after ore is removed?
  <bullet> If during the course of mining operations, financial 
        conditions prove this mine impracticable, what guarantees will 
        be made to assure that water will be returned to the aquifer?
  <bullet> What is the long-term certainty of water from the CAP that 
        the mine is assuming to utilize for its operations? What will 
        happen in cases of drought or where shortage provisions are 
        placed along the Colorado River? These shortages are predicted 
        to be in effect within the next decade. Within the seven basin 
        states agreement, Arizona has a junior priority water status 
        along the river and subsequently the CAP must 14 take shortage 
        first. Will CAP municipal water be relied upon and or taken 
        away in order to meet RCC long-term water demands?

    In understanding the complex dynamic surrounded Arizona's water 
laws, policies, and availability as written S. 409, the Fort McDowell 
Yavapai Nation believe that water from Arizona residences, the 
environment, and cultural and religious areas will be ultimately 
scarified for the operations of the mine. Furthermore, by conveying the 
land from public ownership to a private entity, much of the permitting 
process, particularly regarding clean water, is effectively removed. 
For example, if one looks at federal court rulings concerning private 
property across the U.S., Sections 402 and 404 of the Clean Water Act 
have often been rendered unenforceable (Section 402--National Pollutant 
Discharge Elimination System; Section 404--regulates the discharge of 
dredged and fill material into waters of the United States, including 
wetlands). Thus, what safeguards will be congressionally mandated to 
prevent water contamination or a decrease in quality that will/may 
result due to either direct or indirect discharge or that will result 
from this type of mining technique?
    In summary, water feasibility and water related economic provisions 
and studies have not been addressed. Furthermore, given future climate 
change and climate warming predictions for this area, the on-going 
long-term drought and resulting potential water shortages within the 
State, including the Colorado River (see Bureau of Reclamation, 
Colorado River Water Shortage Criteria Documentation, 2006-7) it is 
imperative that long-term strategic projections and economic data 
substantiate that water for mining purposes is the most beneficial use 
for the State as a whole. Thus, before this legislation moves forward, 
we request that the Secretary of Agriculture be directed to commission 
an independent, third party analysis of the hydrologic and engineering 
reports that evaluate potential impacts on the entire area including 
Devil's Canyon and Apache Leap. This analysis must be in direct 
consultation with the Fort McDowell Yavapai Nation.

    S. 409 Fails to Protect Cultural and Religious Concerns of the 
                             Yavapai People

    Although Inter Tribal Council of Arizona has provided compelling 
testimony regarding the Native American cultural and religious concerns 
regarding S. 409, Fort McDowell has a number of concerns that must be 
addressed in this legislation and through the administrative process. 
Mining will impact lands that are tied to our cultural and religious 
heritage as this region is part of the Yavapai ancestral territory. As 
stated earlier, many federal protections will be removed from this land 
when it is conveyed to RCC. Hence, the Native American Graves 
Protection and Repatriation Act (Public Law 101-601) or any provision 
of the American Indian Religious Freedom Act (42 U.S.C. 1996), the 
National Historic Preservation Act (6 U.S.C. 4701 et seq.), and the 
Religious Freedom Restoration Act of 1993 (42 U.S.C. 2000bb et seq.) 
that are designated to protect areas important to Native American's may 
be inapplicable or unenforceable.
    As stated above, dewatering, land subsidence, polluting of the land 
and water will desecrate this sacred area. I can not express in words 
how deeply felt this land is to the Yavapai--it simply transcends 
words. Damages resulting from this legislated land exchange and mining 
project can not be mitigated simply by placing a dollar value on it or 
by exchanging it for some other land that is far from the area of 
concern. The Tonto National Forest has discovered at least a dozen 
archeological sites in and around Oak Flat. Therefore, Fort McDowell 
Yavapai Nation requests the opportunity to evaluate all data in 
internal and external reports for the entire area, including data that 
were not included in the final version of these reports. Fort McDowell 
also request answers to the specific questions regarding how RCC and 
the Federal government will protect the religious and cultural 
resources of the area. The questions that must be addressed include, 
but are not limited to, the following:

  <bullet> What, if anything, in this legislation will account for 
        Yavapai cultural resources in the area? Given the extent of 
        land that will be needed for all mining operations, what 
        federal authority will statutorily assure that cultural 
        assessments of the entire area will not just represent a 
        ``cursory review''? How will all collected data--raw and 
        published--be disseminated to the Yavapai? What provision will 
        ensure that this information will not become public domain so 
        that culturally sensitive and sacred areas will not be subject 
        to vandalism?
  <bullet> Where will material be housed if removed from the site? 
        Storage or dissemination of materials must be formally and 
        legally agreed to by the Fort McDowell Yavapai.
  <bullet> What language in the bill is the federal government 
        proposing to assure that Yavapai cultural heritage, whether 
        tangible or not and regardless of lineage, is going to be 
        preserved in such a way that it meets with our approval?
  <bullet> As the bill is currently written, the Native American Graves 
        Protection and Repatriation Act (NAGPRA ) may not be applicable 
        once the land is conveyed. Therefore, what language will be 
        added to assure the protection or removal of sacred burial 
        sites will meet with our approval?

    To conclude our testimony, the language of S. 409, as currently 
drafted, does not adequately address: 1) the mineral report and 
appraisal of the Federal parcel to assure the parity of the land 
exchange; 2) the weakness of Federal and Arizona's current statutes or 
laws governing copper mining; 3) the lack of an extensive mining plan, 
reclamation protocol, or bonding assurances; 4) groundwater and surface 
water issues; 5) subsidence issues; 6) the need for a third party, 
independent Environmental Impact Statement on the entire mining 
operation; 7) Federal environmental and cultural protections afforded 
public lands are no longer applicable once the land is conveyed; and 8) 
meaningful consultation with a sovereign nation that is required by the 
United States' trust responsibility to the Yavapai Nation and 
guaranteed under federal law. We have additional concerns but many are 
addressed by others before you today, as well as in former Arizona 
Governor Napolitano's letter of August 24, 2007 outlining very specific 
economic, environmental, and cultural omissions in the current bill. 
San Carlos Apache Tribe has also expressed many of these very same 
concerns. Other Arizona Tribes have also articulated their grave 
trepidations about this bill and provided documentation under separate 
cover. Thus, at this time, we believe there are too many unresolved 
serious issues that must be fully addressed prior to congressional 
approval.
    Mr. Chairman, members of the Committee, on behalf of the Fort 
McDowell Yavapai People, I thank you for the opportunity to express our 
deep concerns regarding this proposed legislation.
                                 ______
                                 
                          Arizona House of Representatives,
                                         Phoenix, AZ, June 4, 2009.
Hon. Ann Kirkpatrick,
U.S. House of Representatives, 1123 Longworth House Office Building, 
        Washington, DC.
    Dear Representative Kirkpatrick: We'd like to take this opportunity 
to offer our insight on the legislation you recently introduced, HR 
2509 the Southeastern Arizona Land Exchange Conservation Act.
    We understand that land exchanges of the magnitude of the one 
proposed by Resolution Copper are extremely complex and can take years 
to complete. We have expressed concerns over previous versions of the 
legislation and continue to have significant issues with the current 
version. We appreciate the opportunity to provide you with the 
following suggested principles moving forward to shape legislation that 
take into account the needs and concerns of all interested parties.
    A legislated land exchange should not be initiated until there have 
been adequate environmental reviews and analysis consistent with the 
National Environmental Policy Act (NEPA). The land exchange should only 
be consummated after the public and the interested parties--tribal 
entities, conservation organization, local communities, and others have 
had an opportunity to learn about the potential impacts to the air, 
water, and land as well as the cultural sites, examine and comment on 
alternatives, and seek measures to address the environmental impacts.
    Conservation organizations have raised concerns about the 
environmental impacts of this exchange and the failure to do any real 
environmental analysis up front and prior to consummating the exchange, 
for example, how this mine will affect water resources, how it will 
impact Devil's Canyon and Queen Creek, how the ore will be processed, 
how moving it and processing it will affect the air, water and land in 
the area. These and many other questions about the impacts of this 
proposal should be answered to ascertain whether this exchange is in 
the public's best interest.
    We want to see a measure that provides a fair and equitable return 
for taxpayers in Arizona and the rest of the United States. We want to 
see a land exchange that serves the public interest and not merely the 
interest of Resolution Copper, as HR 2509 currently does.
    For the land exchange to occur, it must address the significant 
degradation of cultural and natural resources. There must be a fair 
return to the public--the offered lands do not come close to making up 
for the loss of Oak Flat or the loss of significant cultural resources 
to the San Carlos Apache and Ft. McDowell Yavapai peoples.
    We respect the Arizona tribal nations' request to discuss their 
concerns at the federal government to tribal government level. The 
tribal nations have raised concerns about the impacts of block cave 
mining on the Apache Leap Escarpment and also about the loss of Oak 
Flats, an area where spiritual ceremonies are held as well as a 
traditional acorn gathering. Despite the tribal nations raising these 
issues repeatedly in various forums, there still is no real effort to 
address them.
    Oak Flat also provides many recreational opportunities for 
Arizonans, including for those in the local communities, and for others 
from around the country. Recreational activities in the area include 
hiking, camping, rock climbing, birding, bouldering and more. Loss of 
Oak Flat would be a significant loss of public resources.
    And finally, as you are aware, Rio Tinto is a stakeholder in the 
Resolution Copper venture with BHP as the minority partner. RCC has 
been unable to negotiate a deal with BHP to acquire even a portion of 
their holding in the land exchange. BHP's land holdings are so critical 
in creating a comprehensive Riparian National Conservation Area along 
the Lower San Pedro River that Representatives Grij alva, Giffords, and 
Mitchell and former Governor Janet Napolitano have all written 
previously to Resolution to ask for the inclusion of the BHP property 
in the exchange. We would like to see BHP come to the table 
independently of RCC, and request that you contact Linda Broughton from 
BHP to include them in discussions.
    As the bill is currently drafted, we do not see it as a fair and 
equitable exchange. It does not account for the billions of dollars 
worth of copper Resolution Copper Company indicates is in this area. 
The public is receiving small parcels of land and a few other small 
incentives, but it is not even close to being equal.
    We strongly support economic development opportunities for the 
people of this area and throughout the state, but considering the 
legacy of mining in the area, it is essential that any proposal be 
carefully evaluated before proceeding. It must ensure protection of the 
culture and concerns of native peoples. It must ensure a fair return to 
the public. A proposal must also minimize environmental impacts and 
ensure that any lost recreational opportunities are addressed.
    Thank you for considering our comments.
            Respectfully,

                    Steve Farley, Arizona State Representative, 
                            Legislative District 28, Democratic Policy 
                            Leader; David M. Lujan, Arizona State 
                            Representative, Legislative District 15, 
                            House Democratic Leader; Chad Campbell, 
                            Arizona State Representative, Legislative 
                            District 14, House Democratic Whip; Kyrsten 
                            Sinema, Arizona State Representative, 
                            Legislative District 15, Assistant House 
                            Democratic Leader; Paula Aboud, Arizona 
                            State Senator, Legislative District 28; 
                            Daniel Patterson, Arizona State 
                            Representative, Legislative District 29; 
                            Nancy Young Wright, Arizona State 
                            Representative, Legislative District 26; 
                            Phil Lopes, Arizona State Representative, 
                            Legislative District 27; Rae Waters, 
                            Arizona State Representative, Legislative 
                            District 20; Eric Meyer, Arizona State 
                            Representative, Legislative District 11; 
                            Matt Heinz, Arizona State Representative, 
                            Legislative District 29.
                                 ______
                                 
  Statement of Diana Freshwater, Executive Director, Arizona Land and 
                   Water Trust, Tucson, AZ, on S. 409

    Arizona Land and Water Trust (Trust) was established in 1978 to 
protect southern Arizona's vanishing landscapes and wildlife habitat. 
We have worked for 30 years with agencies, elected officials and 
landowners to craft solutions to complex conservation issues and have 
permanently protected more than 30,000 acres. We are proponents of 
sound planning and policy that fairly and equitably address the needs 
of communities, economies, and our environment. Our primary area of 
operations is the six counties in southeast Arizona. In that area no 
single conservation target is more important than the San Pedro River 
from the Mexican border to the River's confluence with the Gila River. 
Our conservation priority on the San Pedro is shared by many 
organizations and agencies including National Audubon, Arizona Game and 
Fish, The Nature Conservancy and Defenders of Wildlife.
    The Trust has no formal position on this legislation. Instead, this 
letter is meant to identify concerns we have about the proposal 
legislation and to describe the important conservation opportunity we 
have to protect 1,000 acres of the San Pedro River.
    We believe the following matters need to be addressed by this 
legislation:

                           BHP-BILLITON (BHP)

          BHP owns 26,000 acres that are vital to the protection of the 
        San Pedro River in the area of San Manuel, Arizona. This 26,000 
        acres includes over 7,000 acres of prime cottonwood-willow 
        habitat, good desert foothills habitat, as well as vitally 
        important water rights. BHP's water rights are essential to 
        sustaining the river system. BHP is the minority partner (45%) 
        with Rio Tinto (55%) in the joint venture Resolution Copper 
        Corporation. It continues to be critical to negotiate for 
        absolute protection of the Lower San Pedro River at this time. 
        The cottonwood-willow forest must be protected and included in 
        the Land Exchange. Sufficient water to sustain the San Pedro 
        River must be available.

           ARIZONA LAND AND WATER TRUST'S PROTECTION EFFORTS

          We consider this section of the San Pedro so important to the 
        cultural and environmental resources in the area that we hold 
        an option on 1,000 acres of land, stretching along four miles 
        of the San Pedro River north and downstream of BHP's property. 
        We would welcome this valuable area being acquired as part of 
        S. 409.

            MANAGEMENT AND MANAGEMENT FUNDING CONSIDERATIONS

          A commonly overlooked component in the land protection 
        process is the long-term management of the land acquired for 
        permanent protection. Protected lands often lack a land 
        management plan and funding to manage the property in 
        perpetuity. Land on the San Pedro should be managed by the BLM 
        through a Riparian National Conservation Area designation or by 
        the U.S. Fish and Wildlife Service with clear management 
        directives recognizing the international importance of the San 
        Pedro River and its diverse habitat types. Long-term guaranteed 
        funding should be assured through an endowment, royalty or some 
        other dedicated funding source.

      NEGATIVE IMPACT OF BHP'S PROPOSED DEVELOPMENT AT SAN MANUEL

          A large-scale master-planned community is planned for BHP's 
        properties at San Manuel, upstream from mitigation properties 
        that have been purchased for their riparian habitat value. BHP 
        has zoning authority from Pinal County to construct over 30,000 
        homes in that area plus associated commercial development which 
        would severely impact the San Pedro River. The 7-B Ranch 
        included in S. 409 is the largest piece of property put into 
        the Land Exchange by Resolution Copper Corporation. It would be 
        impacted by development on BHP's 26,000 acres at San Manuel. 
        That development would potentially destroy the value of the 
        cottonwood-willow forest owned by BHP that we are asking to be 
        included in this Land Exchange and that development will also 
        damage investments by Salt River Project, Bureau of Reclamation 
        and The Nature Conservancy downstream.

    Arizona Land and Water Trust urges full consideration of the issues 
above and inclusion of these considerations in a final draft of S. 409.
                                 ______
                                 
   Statement of Christina Record McVie, Conservation Chair, and Paul 
 Green, Executive Director, Tucson Audubon Society, Tucson, AZ, on S. 
                                  409

    Tucson Audubon Society (TAS) has been active in southeastern 
Arizona since our formation in 1949. Through education, recreation, 
restoration, and conservation activities, we focus attention on the 
conservation of birds and their habitats upon which people and other 
species of wildlife depend. As a 501(c)(3) non-profit, nongovernmental 
organization, we work with many agencies, governmental entities, 
private landowners, academics, and all citizens to achieve our mutual 
goals of developing strong communities and economies, maintaining our 
quality of life, and improving our ability to adapt to changing 
circumstances including climate change.
    The loss of southwestern riparian habitats has long been recognized 
as a threat to life in the desert, most recently in 2007 by the 
American Bird Conservancy, which rates southwestern riparian habitats 
as the fifth most threatened bird habitat in the United States. 
Riparian habitats serve as a primary focus for the conservation 
activities of the Tucson Audubon Society.
    The Sonoran desert upland and riparian parcels along the lower San 
Pedro River owned by BHP-Billiton (BHP) are crucial to the survival of 
the last free-flowing river in the desert southwestern United Stated. 
In 2005, The Arizona Republic reported that the Pinal County Board of 
Supervisors approved a master plan amendment that would allow for 
23,234 acres of BHP's land to be rezoned for as many as 35,000 homes.
    BHP owns more than 7000 acres of rare cottonwood-willow forest 
habitat upstream from the 7 B Ranch. BHP's riparian lands and 
associated uplands, must be included in S. 409 and protected, as well 
as the 7 B Ranch already included in the S. 409 proposal. BHP's 
proposed development would dewater the river, which feeds this vital 
habitat.
    Other parcels likely to be impacted by this development include 
downstream lands owned and operated for conservation values by The 
Nature Conservancy (TNC), the Bureau of Reclamation (BOR), and the Salt 
River Project (SRP). The lands managed by SRP are held as mitigation 
for the development of the Roosevelt dam and lake, which provides water 
for the city of Phoenix. Dewatering the riparian forests of the lower 
San Pedro River threatens all of these mitigation measures. These BHP 
riparian lands, with their associated uplands and water rights, must be 
conserved, managed, and monitored to protect the lower San Pedro River 
in perpetuity, with sufficient designated funding to accomplish these 
activities. A piecemeal approach to river conservation will not work.
    BHP is a 45% minority partner in the Resolution Copper Company 
(RCC) joint venture with Rio Tinto (55% majority partner). BHP must 
understand the pre-eminent importance of its actions along the lower 
San Pedro and their linkage to the proposed mine at Superior. As the 
RCC ore body is world-class, so is the San Pedro River world-class in 
its international biological significance. In order for any mitigation 
for RCC's mine at Superior to be taken seriously, BHP must spell out 
exactly what its plans are and how they will assure the protection of 
the lower San Pedro River.
    Arizona Representatives Grijalva, Giffords, and Mitchell have all 
written to RCC to advocate for the inclusion of the BHP property in the 
exchange as a means of enhancing the protection of the lower San Pedro 
River watershed through the establishment of a protected conservation 
area. The San Pedro River is of international importance and is 
considered a primary pollinator and migratory pathway that supports our 
nation's ability to feed itself while providing diverse habitats 
essential for almost 400 species of migratory birds, 80 species of 
mammals, and 40 species of reptiles and amphibians, some of which are 
listed as threatened and endangered species under the Endangered 
Species Act (ESA).
    Tucson Audubon Society supports the designation of the lower San 
Pedro River as a National Wildlife Refuge as it is the purview of the 
US Fish and Wildlife Service to manage lands for the threatened and 
endangered species of our nation. No other agency or designation will 
achieve the conservation of these species and this valuable habitat as 
well. We believe the land exchange contemplated by S. 409 should be 
contingent upon inclusion of BHP's uplands, riparian lands, and water 
rights, and that monies must be designated for additional land 
purchases, management , and monitoring for the new conservation area in 
perpetuity.
    While the entire San Pedro River is a conservation priority of our 
organization, the lower San Pedro is our focus because it has not 
enjoyed the protections afforded the upper San Pedro by its designation 
as the nation's first Riparian National Conservation Area in 1988. This 
legislative land exchange must address the lower San Pedro River in 
order to balance the profound environmental impacts of the proposed 
Resolution Copper Company mine at Superior, Arizona.
    Currently, there is minimal support for this exchange in the 
conservation community in Arizona. RCC looks to generate vast sums of 
monies with their world-class mining venture at Superior, Arizona with 
its world-class ore body. The citizens of Arizona would have nothing of 
equal, truly world-class biological value without the inclusion of 
BHP's uplands, riparian lands, and water rights and the designation and 
protection of the lower San Pedro River.
    We think that it is critical that the appraisal process be open and 
transparent so that the public can better evaluate whether they are 
getting a fair exchange from the companies.
    We seek assurances that the National Environmental Policy Act 
(NEPA) will apply to all future mining-related activities should this 
exchange go forward. Royalties are another concern. We have numerous 
questions regarding the possible adverse consequences to the 
environment of the mining process as it evolves, especially to any 
riparian areas potentially impacted.
    You can find more information on this issue at 
www.tucsonaudubon.org. We are available should you have any questions 
and thank you for the opportunity to provide comments. We respectfully 
request that these issues be resolved prior to your committee moving 
this item forward.
                                 ______
                                 
 Statement of Wendsler Nosie, Sr., Tribal Chairman, San Carlos Apache 
                    Tribe, San Carlos, AZ, on S. 409

    My name is Wendsler Nosie Sr. I am Chairman of the San Carlos 
Apache Tribe. Thank you for the opportunity to submit testimony to the 
Subcommittee on Public Lands and Forests concerning the Southeast 
Arizona Land Exchange and Conservation Act of 2009 (S. 409).
    I previously testified before U.S. House Natural Resources 
Committee, Subcommittee on National Parks, Forests and Public Lands 
concerning the Southeast Arizona. Land Exchange and Conservation Act of 
2007 (H.R. 3301). I request that my earlier testimony be made a part of 
the record here.
    I present my testimony as an American, an Arizonan and as an Apache 
tribal leader. What is done here before this Subcommittee will be 
judged not only by those of us here today, but also by future 
generations of Americans, Arizonans and Apaches. It is in that context 
that I ask the Members of this Subcommittee and the Committee, as the 
stewards of our great lands, to consider my testimony.
    In considering S. 409, 1 respectfully request that you question why 
there is such pressure to rush this bill through this Committee. S. 409 
is a bill for a special interest, Resolution Copper Mining (RCM), a 
foreign owned, limited liability corporation owned by Rio Tinto of the 
United Kingdom and BHP-Billiton of Australia. Through S. 409. RCM seeks 
to obtain title to a unique portion of the Tonto National Forest which 
was permanently withdrawn from mining a half century ago. While RCM 
touts job creation, there has been no credible cost benefit or other 
analysis of potential environmental impacts. RCM would be able to mine 
copper without any of the permitting, water quality requirements, 
cultural protections, or financial assurances required under the 
recently proposed Hardrock Mining and Reclamation Act of 2009. As a 
limited liability corporation, RCM could simply walk away from hundreds 
of millions, if not billions, of dollars in environmental and 
infrastructure damages. RCM will also benefit from a $7 billion bailout 
by avoiding royalties--a windfall at the expense of the American 
public. Most alarming is that RCM's proposed mine would certainly 
desecrate sites--Apache Leap, Gaan Canyon and Oak Flat, which represent 
key elements of the Apache religion. For these reasons, the San Carlos 
Apache Tribe has joined with other Tribes (Inter Tribal Council of 
Arizona, Jicarilla Apache Nation of New Mexico and others), 
mineworkers, residents of Superior, Miami, and Globe, who oppose this 
potential environmental disaster, and conservationists to oppose this 
bill. Our specific concerns follow.
    RCM plans to utilize block and cave mining, a process that operates 
underground and involves the controlled collapse of ore from under its 
own weight into chutes or draw points using gravity. According to a 
recent study by Steve Blodgett (2002) which examined the subsidence 
impacts of the Molycorp Molybdenum Mine in Questa, New Mexico, 
``unintended impacts can occur for many years after the completion of 
mining. No evidence was found that subsidence effects at underground 
hardrock mines using block caving can be managed or mitigated short of 
not mining.'' Further, ``no historic or existing underground hardrock 
mines have ever reclaimed andlor revegetated subsidence areas.'' 
Clearly, this type of block and cave mining in this location does not 
make sense other than for the self-interest of RCM.

 S. 409 CIRCUMVENTS EXISTING LAW AND PROVIDES NO FINANCIAL ASSURANCES 
               AGAINST FUTURE ENVIRONMENTAL CATASTROPHES

    By engaging in a legislative land exchange at this time, RCM seeks 
to circumvent existing federal law and to avoid the consequences of 
future federal legislation. S. 409 would bypass the ``hard look'' 
required by the National Environmental Policy Act, 42 U.S.C. Sec.  4321 
et seq. (NEPA). S. 409 pays lip service to NEPA, but only after the 
exchange is complete. Section 5(c) of S. 409 requires the Secretary of 
Agriculture to undertake an environmental assessment only after the 
land exchange has occurred, and then only if RCM would require the use 
of additional federal land beyond what S. 409 already gives them.
    Without going into detail, S. 409 also circumvents other important 
environmental and cultural resource protections afforded by the Federal 
Water Pollution Control Act, commonly known as the Clean Water Act, 33 
U.S.C. Sec.  1251 et seq.(CWA), the National Historic Preservation Act, 
16 U.S.C. Sec.  470 et seq. (NI-IPA), the Endangered Species Act, 16 
U.S.C. Sec.  1531 et seq. (ESA), the Native American Graves Protection 
and Repatriation Act, 25 U.S.C. Sec.  3001 et seq. (NAGPRA), the 
Archaeological Resources Protection Act, 16 U.S.C. Sec.  470aa et seq. 
(ARPA), and the American Indian Religious Freedom Act 42 U.S.C. Sec.  
1996 et seq. (AlRFA). By circumventing the law, this is tantamount to 
slamming the barn door after the horse has escaped.

         NEPA REVIEW MUST OCCUR BEFORE THE EXCHANGE, NOT AFTER

    NEPA review must occur before the decision is made as to whether to 
authorize the exchange is completed for two critically important 
reasons. First, RCM's website admits that its mining methodology will 
cause significant land subsidence. The extent of the potential 
subsidence is unknown because RCM, for all of its claims of 
transparency, has not explained nor convinced with any degree of 
credibility how such a mining operation can avoid destruction of Oak 
Flat, Apache Leap and Gaan Canyon. The reason is that it can't.
    Transparency requires that the critical fact of subsidence be 
examined in the NEPA before a decision is made about whether the land 
exchange would occur. Given where the mining companies intend to mine, 
it is virtual certainty that it would cause subsidence of significant 
natural geographic features which would affect the current Oak Flats 
Campground and the butte commonly known as Apache Leap. Indeed, the 
subsidence caused by RCM's proposed mining activities could also affect 
a national highway, US 60. NEPA review, if credibly conducted, before 
any decision to exchange the land is made, would provide the 
interdisciplinary analysis critical for making an informed decision. It 
would provide environmental information, if credibly conducted, about 
the consequences which are likely to occur from the proposed mining 
activities.
    Second, an administrative mine permitting process exists in which 
the Secretary of Agriculture would be required to determine the effects 
of RCM's proposed mining activities on groundwater and surface water 
resources and water quality. RCM has no legal water rights necessary to 
develop and operate the mine being proposed or to process ore. Instead, 
RCM has been less then transparent in telling the public where it 
intends to secure the water necessary to operate its mine. RCM does 
tell us that the proposed mine will require 20,000 acre feet per annum. 
That is approximately one-thirds of the amount of water that sustains 
the City of Tempe for one whole year; a city with a population of 
approximately 167,000 people. Based upon the process suggested by RCM 
to remove the metals from the ore, it is more likely that 40,000 to 
50,000 acre feet of water per year would be needed to mine and process 
the ore. RCM has not produced a credible rendering of where it intends 
to secure that massive quantity of water. Arizona does not have 
uncommitted water supplies to meet the minimum needs of this proposed 
mine.
    So where will RCM get this water? Historically, mines just drill 
wells that are deeper than their surrounding neighbors' wells. Such 
deep water wells dry up neighboring wells, de-water surface waters and 
impact the entire region's water supply. As the members of this 
Subcommittee are aware, water is a critical resource in the State of 
Arizona. Only a complete NEPA review before the decision on whether to 
proceed with the land exchange is made would provide answers to the 
critical issues surrounding Central Eastern Arizona's water resources 
and the impact of the proposed Resolution Copper Mine.
    The transfer and protection of riparian areas along the San Pedro 
River provided by S. 409, while desirable, are not by any stretch of 
the imagination acceptable tradeoffs to the destruction, pollution and 
other adverse effects of this proposal. Mines pollute groundwater and 
surface water. Acid and heavy metal mine drainage leaking into 
groundwater and surface waters are a common result of copper mining. 
Mines pollute surface water and groundwater with toxins and 
carcinogens, requiring more expensive surface reclamation and long-term 
water treatment. RCM is supposedly dewatering an old mining shaft that 
has flooded. The water in that shaft is contaminated and loaded with 
heavy metals. In order for that treated water to be reclaimed and re-
used, it has to be diluted with 10 parts of Central Arizona Project 
water to each part of treated water prior to being transported to New 
Magma Irrigation District for use on crops.
    Then there is the issue of mine tailings. The ore body is estimated 
by RCM to consist of ``1.34 billion tons, containing 1.51 percent 
copper and 0.040 percent molybdenum.'' What is going to happen to the 
tailings from this mining operation? RCM neglects to inform on this 
issue. This ``fast-track'' land exchange without meaningful NEPA review 
will not answer this question and a host of others until it is too 
late.
 s. 409 neatly avoids critical legislation proposed by senator bingaman
    We all understand that mines are necessary for steel, cables, cars, 
computers, and other needs of an industrial economy. Any mining must be 
carried out responsibly, but that is not what is proposed here using 
the highly destructive block and cave mining method. Senator Bingaman 
has introduced the Hardrock Mining and Reclamation Act of 2009 (S. 
796), which would establish substantial reforms to the 1872 Mining Law. 
This bill would establish a permitting process, protections for water 
quality and cultural resources, and financial assurances. However, not 
only would S. 409 circumvent existing law, but the exchange would aviod 
the important reforms provided by the proposed Hardrock Mining and 
Reclamation Act.
    We all have to ask ourselves how S. 409 will provide assurances 
that a future environmental catastrophe will be remediated. What if 
subsidence causes Highway 60 or the Queen Creek Tunnel to collapse? A 
few weeks ago, Arizona Governor Brewer executed a settlement agreement 
with bankrupt mining company, ASARCO. That agreement does not begin to 
solve the substantial, long-term costs of environmental damage. Neither 
does this bill--there are no financial assurances to address any 
potential environmental costs in S. 409. RCM, as a limited liability 
company not required to post any cash bond for mine cleanup, could 
``walk'' away from hundreds of millions of dollars in cleanup costs if 
S. 409 passes.
    S. 409 also attempts to avoid mining royalties--revenue to the 
American people and upon which this great county depends. Where the 
Hardrock Mining and Reclamation Act of 2009 would impose a royalty upon 
mine operators, RCM avoids that royalty under S. 409. That royalty, if 
calculated at the 8% royalty in HR 2509 (the House version of the 1872 
Mining Law reform legislation), would result in a give away to two 
foreign mining companies of in excess of $7 billion dollars based upon 
RCM's own calculation of 1.34 billion tons of ore at a modest price of 
copper of $2.00 per pound and molybdenum at $10.00 per pound. The 
billions of dollars which RCM and its foreign corporate parents would 
realize in royalty and environmental compliance avoidance by the hasty 
and premature passage of S. 409 mentioned here are staggering.

 UNDER S. 409, 5% OF TONTO NATIONAL FOREST WILL BE CONTROLLED BY CHINA

    You should also consider that 9% of Rio Tinto, RCM's controlling 
partner, is currently held by China, by and through its state-
controlled Aluminum Corporation of China. known as Chinalco. If the 
exchange goes through, China will thus end up holding a 4.5% interest 
in our Tonto National Forest without paying for it. A legislative 
transfer of land in essence to a foreign government as presented by S. 
409 is offensive to us and to many of the American people.

                 NO SIGNIFICANT JOB INCREASE UNTIL 2020

    We all understrnd the necessity of developing new, well-paying jobs 
in Central Eastern Arizona region. New jobs will bring concomitant 
economic benefits in the for of tax revenues and even wages to members 
of the San Carlos Apache Tribe. However, those jobs are needed now. RCM 
admits that full employment will not occur until 2020 or later. And, 
any retirement benefit potential for those workers may be completed 
negated by the cyclical effects on mining and resultant job layoffs.
    RCM currently employs 70 people with the employment estimate rising 
to only 200 employees by 2014. Those same jobs will continue to exist 
through 2014 even without the passage of S. 409 at this date. The 
administrative mine permitting process can go forward and answer the 
critical questions that the legislative land exchange process would 
circumvent. The RCM jobs will still be there. If RCM were required to 
use through the administrative mine peiiiiitting process, the American 
people, Arizonans and Native Americans would be afforded a proper means 
of evaluating the benefits and substantial liabilities of the proposed 
mine. By contrast, S. 409 presents a win-win situation solely for the 
benefit of a single foreign owned special interest, while the American 
people and their descendants would derive little benefit and great 
liabilities.

                    S. 409 DESTROYS RELIGIOUS SITES

    I devoted a substantial part of my last testimony before the House 
Subcommittee in 2007 on H.R. 3301 to the cultural, spiritual, religious 
and historical significance to the Apache and Native American people of 
the lands to be exchanged. I will not repeat that testimony here, but I 
would be remiss if I did not mention these concerns in the context of 
our religion, because religion is at stake here. The difference in this 
new bill is that while there is an exchange of riparian areas along the 
San Pedro River, we lose three sacred, religious sites. Moreover, this 
bill took out the conservation easement that would have provided some 
minimal protection to Apache Leap. And even that was questionable since 
the mine itself still would pose a serious threat to the escarpment 
that no amount of promises will resolve.
    Apache spiritual beings, our Gaan, exist within the three sacred 
sites of Oak Flat, Gaan Canyon and Apache Leap affected by S. 409. 
These sites become RCM property and subject to its proposed mine Yet, 
to Apache, the Gaan live and breathe in those sites. The Gaan are the 
very foundation of our religion; they are our creators, our saints, our 
saviors, our holy spirits. Imagine if this same type of mine as 
proposed by RCM lay 7,000 feet beneath the National Cathedral here in. 
Washington, D.C. Imagine further that the mine was affected by a major 
subsidence, one that shook and swallowed the National Cathedral or 
other temples and sacred places of other religions. Everyone would be 
outraged. Every person of every faith would fight to their last breath 
to prevent that mine from happening. Every American understands that 
the desecration of any one religion affects all religions, and that 
such an act even threatens the free exercise protections afforded under 
the First Amendment of the Constitution.
    A member of the other chamber recently confronted me when 
discussing this legislation asking, what has Apache religion done for 
my people's alcoholism? How will our religion feed our people? HMI/ 
will our religion deal with the social ills faced by our people? How 
will our religion help our elders? These questions astounded and 
perplexed me and, of course, they are completely unrelated to the bill 
at hand. If I thought that this bill would rid Native American peoples 
of the disease of alcoholism, alleviate hunger or social ills, or help 
our elders, I would not be testifying against it. Instead, the issue is 
how can America stand by and allow RCM's mine to destroy such key parts 
of our religion--Apache Leap, Gaan Canyon and Oak Flat. Without such 
foundational underpinnings, our children will lose the benefit of our 
Gaan, our beliefs, our spirituality, our religion, our very being.
    In retrospect, however, the religious significance of these lands 
and what this body does with this legislation is important not just to 
Apache religion, but to future generations of Apaches, to other Native 
Americans and to all Americans. Whatever supreme being we worship, 
whatever tributes we pay to our ancestors, we all have the obligation 
not to desecrate our religions or the future of our descendants.

                          HARM TO APACHE LEAP

    While this version of the bill keeps Apache Leap in public 
ownership, it does not provide adequate protection for this important 
geological formation. The first issue is the likely subsidence and 
possible earth fissures that will occur as a result of mining activity 
in the area.
    While SECTION 4 (d) (1) indicates that Resolution Copper Company 
will surrender rights to mine Apache Leap, it goes on to state in 4(d) 
(2) that mining activities will be allowed. This section reads:

          Nothing in this Act prohibits Resolution Copper from using 
        any existing mining claim held by Resolution Copper on Apache 
        Leap, or from retaining any right held by Resolution Copper to 
        the parcel described in subsection (c)(1)(G), to carry out any 
        underground activities under Apache Leap in a manner that the 
        Secretary determines will not adversely impact the surface of 
        Apache Leap (including drilling or locating any tunnels, 
        shafts, or other facilities relating to mining, monitoring, or 
        collecting geological or hydrological information) that do not 
        involve commercial mineral extraction under Apache Leap.

    SECTION 8 of S.409 is titled APACHE LEAP PROTECTION AND MANAGEMENT. 
It contains language about management of Apache Leap and about 
``permanent protection'' of its cultural, historic, natural, and other 
values. This management plan for Apache Leap is not part of the overall 
mining plans however and therefore its value in protecting the land is 
questionable. It also can place no restrictions on mining as is 
indicated in subsection (c) which states:

          MINING ACTIVITIES--Nothing in this section imposes any 
        restriction on any exploration or mining activity carried out 
        by Resolution Copper outside of Apache Leap after the date of 
        enactment of this Act.

    It is strains credulity for anyone to believe that the mining of 
the nearby Oak Flat parcel and the main ore body lying purportedly 
between Oak Flat and Apache Leap will not result in the collapse of at 
least a portion of Apache Leap or cause substantial subsidence in the 
area, especially with the quantity of ore to be removed and the method 
of mining--block cave--indicated by RCM. If mining can't be affected by 
the protection of Apache Leap, what good are these protections if it is 
determined that it will destroy this area. How will any potential 
impacts be monitored? How will they be mitigated, if mitigation is even 
possible? This conjures up the assurances that the financial sector 
made to regulators and to the nation about subprime mortgages and 
exotic financial instruments. They were destined to fail. So too here. 
The risks are simply too great to destroy both surface natural 
resources and the water and other natural and archeological resources 
to permit this type of mining in this location.

                  S. 409 IS IRRESPONSIBLE DEVELOPMENT

    The results of S. 409 are to us are not prudent and would lead to 
irresponsible development. In the words of Theodore Roosevelt: ``To 
waste, to destroy, our natural resources, to skin and exhaust the land 
instead of using it so as to increase its usefulness, will result in 
undermining in the days of our children the very prosperity which we 
ought by right to hand down to them.'' Theodore Roosevelt was a 
champion of Edmund Burke's ideal that a moral partnership exists 
between the living, the dead and those to be born. That view helped 
instruct his passion for conserving America's natural resources. That 
view is also parallels the Apache way of life. We should all honor this 
vision.
    There are those who claim that our coalition who oppose this land 
exchange are radical environmentalists. We are not opposing business 
for the sake of doing so. As I stated at the beginning of my testimony, 
this is instead about our future generations of Americans, Arizonans 
and Apaches. Theodore Roosevelt also observed that: ``Conservation 
means development as much as it does protection. I recognize the right 
and duty of this generation to develop and use the natural resources of 
our land; but I do not recognize the right to waste them, or to rob, by 
wasteful means, the generations that come after us.'' That sentiment is 
reflected in the San Carlos Apache Tribe's opposition to this 
legislative land exchange. That sentiment is shared by a substantial 
coalition of Americans. This proposed mine would waste natural 
resources and would rob generations yet to come. It should not be 
permitted to happen by those entrusted with the solemn responsibilities 
for Native Americans in the United States.

                               CONCLUSION

    In summary, the language of S. 409 and its companion in the House, 
as currently drafted, do not adequately address: 1) the appraisal of 
the Federal parcel to assure the parity of the land exchange; 2) the 
weakness of Federal and Arizona's current statutes or laws governing 
copper mining and reclamation protocols; 3) the lack of an extensive 
mining plan, reclamation protocols, or bonding assurances; 4) 
groundwater and surface water issues; 5) subsidence issues; 6) Federal 
environmental and cultural protections afforded public lands are no 
longer applicable once the land is conveyed; 7) the desecration of key 
elements of our religion, and 8) the clear threat of destruction to Oak 
Flat, Gaan Canyon and to Apache Leap that would result from the block 
and cave mining method RCM seeks to utilize because it is cheaper than 
older methods that have less cataclysmic impacts on the Earth.
    Earlier this year, in letters to the Natural Resources Committee in 
the U.S. House of Representatives, the President of the Inter Tribal 
Council of Arizona said----

          As we have stated in earlier testimony on the RT/BHP [Rio 
        Tinto & BHP Billiton, Ltd.] mining proposal, the ITCA is not 
        opposed to mining in general. We are, however, strongly opposed 
        to block and cave raining in this location--the heart of an 
        area rich in historical, archeological, cultural, spiritual, 
        and religious significance to Arizona Native Americans. Block 
        and cave mining here would collapse the surface of the Earth on 
        public lands, endanger the historic terrain at Apache Leap, Oak 
        Flat, and Gaan Canyon, and endanger the waters of Queen Creek, 
        Queen Creek Canyon, and springs in the surrounding countryside 
        for miles around. (emphasis added).

    In 1871, the United States established our Reservation. Within just 
a few years, some of the most productive lands within the boundaries of 
the Reservation were taken away by the United States and conveyed to 
settlers and miners for their sole benefit. That was repeated 5 more 
times over the years. Our burial sites, living areas, and farmlands on 
our Reservation were flooded to make way for a federal dam of benefit 
to others. It is in part in this historical context that we assess the 
mining proposal adjacent to Oak Flat that is bounded on one side by Can 
bi koh (``Crowndancers Canyon''--Devil's Canyon) and on the other side 
by Gan daszin (Crowndancers Standing''--Queen Creek Canyon) and Apache 
Leap where many Apaches died rather than be captured, areas of major 
importance to our people culturally, spiritually, religiously.
    With the above events in mind, this type of mining in this location 
is not only offensive to us, it is indefensible to us, particularly 
where it is facilitated and enabled by institutions of government or 
their successors that participated in those conveyances of Apache lands 
referenced above to others in our past. President Pattea of the Fort 
McDowell Yavapai Nation stated in his testimony to your subcommittee, 
``I cannot express in words how deeply felt this land is to the 
Yavapai--it simply transcends words.'' His words convey eloquently how 
our people also feel about this land.
    Mr. Chairman--members of the subcommittee, on behalf of the San 
Carlos Apache People, thank you for the opportunity to express our deep 
concerns regarding this proposed legislation. I ask that this 
Subcommittee not aid and abet these two foreign mining conglomerates in 
exploiting public resources primarily for their benefit and to such 
great detriment of our people, culture, and religion. It is our hope 
that you will stand with us and oppose S. 409.
                                 ______
                                 
 Statement of Michael O. Hing, Mayor, Town of Superior, Superior, AZ, 
                               on S. 409

    My name is Michael Hing, I am the Mayor of Superior, Arizona. 
Superior is a rural town in Pinal County located 65 miles east of 
Phoenix. I would like to address the committee in support of the 
Southeast Arizona Land Exchange and Conservation Act of 2009.
    I was elected as the Mayor of Superior seven years ago. Upon being 
sworn in as Mayor I was briefed on the possibility of the mine 
reopening. The reopening of the mine excited me as I knew that it would 
be a positive economic driver for our community. I am disappointed that 
over the last seven years the land exchange has still not been approved 
by Congress. During my tenure as Mayor there has always been 
overwhelming support for the land exchange and for the mine to reopen 
from our residents.
    This spring I along with three other candidates were elected to a 
four year term on our Town Council in Superior. The four of us all ran 
with a platform of creating a diversified economy for our community 
while supporting our traditional economic mining base. The four of us 
won the election with an overwhelming majority. The voters were well 
aware that each of us supports the passage of the land exchange bill.
    Although the opposition to this bill continues to make claims that 
the locals are against this exchange and the overall project, I come to 
you with the voice of the majority. The constituents in our community 
want the Land Exchange to pass so they may continue to prosper. The 
residents of my community want ample opportunities to live and work in 
Superior. They are tired of having to commute into the Phoenix metro 
area and other nearby towns to provide for their families.
    Since 1982 Superior has lacked a stable employment base and that 
has taken a toll on each of our residents and our community as a whole. 
Families who have lived in Superior for generations are now looking to 
move closer to their current jobs largely due to the rising cost of 
fuel. This exodus of residents out of our community hurts our municipal 
and school budget as those funds come to us based on population and 
property tax.
    I am a third generation native of Superior, I am aware of the 
cyclical booms and busts of the mining industry. As the Mayor l am 
excited to endorse and support Resolution Copper because of their 
commitment to the community, education, the environment and especially 
to the economic diversification of Superior and the surrounding areas.
    Each year Resolution Copper provides countless dollars to 
charitable groups throughout Superior and the Copper Triangle area. 
Those charitable dollars have provided many things including lap top 
computers for honor roll students, an inflatable screen for community 
movie nights; the list goes on and on.
    They are committed to the education of our local students. They 
have provided educational field trips, funding for our local elementary 
school nature club, scholarships to graduating seniors. They are 
involved with the local schools districts and job training programs. 
Through their commitment to communication and partnership efforts they 
are developing curriculum programs in our schools that will give local 
students a hand up as they graduate High School and enter college and 
the workforce.
    They are committed to the environment. If you saw pictures of our 
mountain bluffs to the north and east of Superior five years ago you 
would have seen many eyesores on the horizon. Those eyesores were left 
from the decades of mining in our community. If you were to compare the 
pictures from then to now you would not believe the reclamation that 
has been completed. Native trees and shrubs are starting to grow on 
areas that once were piles of slag. Years of mining equipment in the 
area has been hauled off for recycling, and I must say that we are 
pleased they did keep and remodel many of the structures that were 
important to our community. Resolution spent over $50 million to 
rehabilitate these 1500 acres.
    In addition to these local and visible commitments to the 
environment Resolution has also taken forward thinking approaches to 
water management and water procurement strategies. Resolution has close 
working partnerships with the Arizona Trail Association, Audubon 
Arizona, Boyce Thompson Arboretum and the Nature Conservancy.
    The land exchange bill will transfer to the citizens of the United 
States thousands of acres of conservation properties. These properties 
offer permanent protection to endangered species, preservation of key 
riparian habitats, and conservation of some of Arizona's most valuable 
lands.
    In a historic partnership the Town of Superior and Resolution 
Copper have entered into a landmark agreement that will provide funds 
to enhance our community. The funds will be given to the town to use 
for improving the quality of life for our residents and enhancing our 
business community. They have assisted our community in planning and 
strategizing for economic diversification. Through their support and 
commitment we have been able to bring high speed internet to our 
community; five years ago that was an expensive luxury for residents 
and business owners. This year we will designate a trail system that 
will interpret the history of Superior and create a tourist attraction. 
Passage of the land exchange will also allow Superior to acquire lands 
that are adjacent to our town limits.
    The Southeast Arizona Land Exchange is a good deal not only for 
Superior, but also for the State of Arizona and our great nation. Every 
detail of this project and its total impact has been examined, 
researched, studied, strategized and debated in depth. I respectfully 
come to you honorable Congressmen and women to pass the Southeast 
Arizona Land Exchange Bill. This bill provides you an excellent 
opportunity to provide an ideal balance of job creation, environmental 
protection and economic stability. It is a no-cost stimulus plan that 
will truly benefit everyone.
    I appreciate your consideration of this very important bill.
                                 ______
                                 
Statement of Vicki Searles, Executive Director, Wallowa County Chamber 
                      of Commerce, Enterprise, OR

    Wallowa County Chamber of Commerce is a 5016 non-profit 
organization established in 1978. The mission of the Chamber is to 
promote business development and tourism in the county. The Chamber is 
governed by a Board of Directors representing multiple industries and 
communities from across the County. The Chamber's brand is built around 
the concept, Wallowa County--It's more than a pretty place, it's a way 
of living! First, and always, the citizens of this beautiful region in 
Northeast Oregon truly value--culture, heritage, and a true sense of 
community.
    The Maxville Heritage Interpretive Program is a prime example of 
these ideals, The hidden history in the community of Maxville tells a 
story of the people who lived and worked in the remote, old camp-styled 
communities in the Wallowa Mountain of Northeast Oregon. Logging, and 
the development of the railroad into the Wallowas, is the rich history 
of pioneer settlement. This story reveals how our towns either grew or 
were vacated and left to be vaguely remembered by only a few old-time 
residents and family members. The fallacy of these memories is that the 
early pioneers were always Europeans. The Maxville Heritage 
Interpretive Program re-tells an important segment of our history and 
sheds light on the multicultural pioneers of the region. If not for 
this program this history could be lost forever.
    The Center provides a unique opportunity for us to restore the 
facts of our history and recognize the importance of our multicultural 
origin. The proposed conveyance of the Wallowa Compound to the City of 
Wallowa will provide a viable means to achieve this cause. The Center 
would be housed in the compound and will provide interpretive 
information, exhibits, and a place for people to re-learn history.
    How will this proposal benefit the local economy and the public at 
large? Life has changed and Wallowa County is a much different place 
today. Logging is no longer the industry it once was; in fact, logging 
has been reduced to a fragment of its historic levels. All of our mills 
are closed. The Wallowa Forest Products Mill, located in the City of 
Wallowa, was the last mill to close in the fall of 2007. The results of 
such impacts have left Wallowa County consistently ranked at or near 
the bottom in statewide assessments, having unemployment rates as high 
as 19% during winter months. The April 2009 unemployment rate is 
currently 15.4%. The Interpretive Center provides new capacity to 
support the area's economic recovery.
    A focus on tourism has picked up some slack in the transition of 
this economy and it has provided a semi-reprieve to the future vision 
of the region. Our tourism product is not ``big box'' attractions, such 
as ski resorts and metro-events. As seen through the eyes of the 
visitor, we are the gateway to the Eagle Cap Wilderness and the Hells 
Canyon Recreation Area; rich in heritage, culture and natural 
resources. This is our brand.
    An example of how successful heritage programs and interpretive 
centers are to this region is the Nez Perce Interpretive Center. 
Visitors come from all around the world to seek information on the Nez 
Perce. We believe the Maxville Heritage Interpretive Center will be 
sought after just as rigorously.
    To summarize our support of the Maxcille Heritage Interpretive 
Center and the conveyance of the Wallowa Compound: it is clear that the 
Center will add value to our economy and provide a unique visitor 
experience. The Center will bring dollars to the rural economy of 
Wallowa Oregon, as well as adjacent communities, and the Center will 
add to the quality experience of visitors coming to NE Oregon.
    The Wallowa County Chamber of Commerce encourages the Public Lands 
and Forest Sub-Committee to support the conveyance of the Wallowa 
Compound for the purpose of providing a site for the Maxville Heritage 
Interpretive Center.
                                 ______
                                 
  Prepared Statement of Brian Taylor, Dean School of Ocean and Earth 
         Science and Technology, University of Hawaii at Manoa

    Mr. Chairman and Members of the Subcommittee, my name is Brian 
Taylor and I am the Dean of the School of Ocean and Earth Science and 
Technology at the University of Hawaii at Manoa. Thank you for this 
opportunity to provide testimony on Senate Bill 782, which is ``to 
provide for the establishment of the National Volcano Early Warning and 
Monitoring System'' (NVEWS). Our School has strong current and 
historical links to the USGS Volcano Hazard Program via the Hawaii 
Volcano Observatory and research programs in Hawaii, Alaska, Washington 
and Oregon, Guam and the Commonwealth of the Northern Mariana Islands. 
Our scientists have worked together with USGS colleagues on advisory 
committees that drafted parts of the proposed system.

                    THE NEED FOR THE ``NVEWS'' PLAN

    The United States faces threats from volcanic hazards on an annual 
basis. The ongoing eruption of Kilauea, Hawaii, which began on January 
3, 1983 and continues today, after 26 years, demonstrates the long 
duration of some eruptions with respect to most other natural hazards. 
Relative to earthquakes and other natural hazards, eruptions also 
impact over large areas (sometimes in excess of 10,000 square miles) 
and typically a number of different types of hazards will result from a 
single volcanic eruption. Perhaps more importantly for emergency 
managers and Government officials, past eruptions have often been 
preceded by recognizable warning signs such as ground movement and 
earthquakes. These warning signs often give the opportunity to act 
promptly and reduce risk to the population but they also introduce 
higher levels of responsibility and public expectation of the 
officials; few expect accurate predictions or forecasts for earthquakes 
or landslides but during volcanic crises there is intense pressure from 
the media and the public.
    The recent implementation of real-time 24/7 volcanic monitoring in 
this country has lagged behind other first world countries, such as 
Italy, Japan and New Zealand, that possess a similar level of exposure 
to volcanic threat. In many countries 24/7 watches have been instigated 
at all potentially active and active volcanoes. The current US program 
is predicated to ``response mode'' and currently 24/7 watches operate 
at US observatories only during an ongoing crisis. The inability to 
predict the onset of the 2003 Anatahan eruption in the Commonwealth of 
the Northern Mariana Islands, or the 2008 Okmok eruption in Alaska, 
which followed several hours of precursory seismic activity, 
demonstrates the need to remedy this situation.

                   COMMENTS ON THE ELEMENTS OF NVEWS

    Reducing community vulnerability: Volcanic crises are complex 
social events where the weak point is often not within any 
organization, but the links between different Federal, State and local 
organizations and the interactions of these organizations and the 
public. For this reason, effective warning systems must also facilitate 
effective response of vulnerable populations. Pre-eruption education 
campaigns at active volcanoes are becoming increasingly sophisticated 
in recognizing the complex ways in which societies work, and are 
switching away from simple awareness programs to funding the processes 
that lead to better prepared, more resourceful communities.
    Enhancing monitoring infrastructure:--A significant number of our 
active volcanoes are under-monitored by world standards. Addressing 
this issue will lead to an improvement in warning or ``reaction time'' 
e.g., the time period between the beginning of volcanic seismicity 
associated with magma moving underground and the surface eruption of 
the magma.
    24/7 watch office:--Data from the Smithsonian Institution shows 
that once an eruption begins there is often less than 24 hours before 
it reaches a dangerous climax. Real-time response is a feature of all 
the most modern warning systems.
    National data center:--This component would permit the free timely 
exchange of data before and during volcanic crises in the United 
States.
    External grants program:--The National Science Foundation funds 
basic research by non-federal science institutions in volcanic 
processes. The application of this knowledge to applied and specific 
volcanic problems is the focus of this component of NVEWS.

                       THE PERSPECTIVE FOR HAWAII

    A unique aspect with regard to Hawaii is the growth of volcano-
tourism as a strong underpinning to the State's economy. The growth of 
adventure tourism on active volcanoes is a very recent phenomenon, 
which is uncommon for most other hazard events. Our two most active 
volcanoes, Kilauea and Mauna Loa, like Vesuvius and Etna in Italy and 
Ruapehu and Tongariro in New Zealand, are associated with a national 
park that is a focus for volcano tourism. Hawai`i Volcanoes National 
Park (HVNP), established in 1916, includes large portions of Kilauea 
and Mauna Loa (including the summits of both volcanoes). HVNP recorded 
2.3 million visitors in 2003. It has a strong volcanology focus; for 
example, the most popular walking trail is through the deposits of the 
most recent high fountaining eruption from the summit vents of Kilauea.
    Activity in 2008-2009 has shown that a delicate balance exists 
between the dependence of local communities on tourist revenues and 
civil protection of residents and visitors. Even very small eruptions 
in populated or frequently visited areas create significant issues, 
which are compounded by uncertainties in external factors such as 
weather patterns, which dictate the dispersal pattern of volcanic gas 
and ash into the community.
    In Hawai'i, both positive (tourism, community resilience) and 
negative (health, infrastructural damage) impacts have increased in 
intensity with time, due to growth in the resident population and 
visitor numbers. For example, the entire Hawaii Volcanoes National Park 
has been evacuated twice during the new Kilauea summit eruption that 
began in March 2008, temporarily displacing more than 2000 people.
    Management techniques have also evolved that now reflect greater 
focus on public safety and institutional liability. In 2008-2009, there 
was and is a far greater dependence on individual judgment to deal with 
the chronic health and economic problems related to vog (volcanic 
smog). In this, there is an increased need for timely and accurate 
information from observatory scientists.
    NVEWS offers the potential to finely manage the process of volcano 
decision-making, minimizing negative social impacts and enhancing 
benefits to the community.

                               CONCLUSION

    NVEWS offers an outstanding opportunity to enhance the connection 
between volcanic monitoring and research in the United States of 
America with the efforts of response officials and emergency managers. 
It is the most coherent and strategic advance yet proposed to minimize 
the impact of volcanic activity on our communities.
    Mister Chairman, this ends my remarks.
                                 ______
                                 
                                   Phoenix, Arizona, June 16, 2009.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands & Forests, Washington, DC.
    Dear Senator Wyden, Following please find concerns pertaining to SB 
409, The Southeast Arizona Land Exchange and Conservation Act of 2009. 
In addition to the general deficiencies of the bill pertaining to 
overall environmental, cultural, and recreational activities, more 
specifically rock climbing as voiced by the Queen Creek Coalition, the 
Access Fund, and others, other more specific concerns are:

          1. An overly broad definition of Apache Leap as a 
        conservation and cultural area such that recreational 
        activities, specifically rock climbing, may never be allowed. 
        In fact, the legislation suggests and details ``permanent'' 
        and/or ``seasonal'' closures which may preclude any 
        recreational activities at all based on a TBD management plan 
        for the area. Precedence for closing cultural areas to rock 
        climbing is evident at Cave Rock on the shores of Lake Tahoe in 
        Nevada. There are concerns that Apache Leap may be closed to 
        this form of recreation if the bill goes through as written.
          2. The retention of mining rights on portions, if not all, of 
        the Leap. The mining company retains rights that necessitate 
        the disturbance of the surface of ``withdrawn'' lands into 
        perpetuity. This seems to be counter to the intent of the bill.
          3. The lack of perpetual and reasonable public access to 
        Apache Leap from any direction. There are no provisions for any 
        such reasonable public access to the Leap from the west, east, 
        etc., even though the legislation suggests it will be set aside 
        as compensation for the recreational resource lost at and near 
        Oak Flat. If no access, then no real compensation for other 
        lands lost.
          4. The lack of a clear definition of roads, parking, and 
        trailheads to Apache Leap. Reasonable access and amenities such 
        as at the BLM managed Shelf Road recreational area north of 
        Canon City in Colorado may be appropriate.
          5. ``Access'' to an area is not defined in the legislation 
        and this is very important for obvious reasons. Most general 
        public recreational users would consider 2 WD, well culverted, 
        low % grade, gravel covered roads as minimums for reasonable 
        access. This bill provides no such definition to ensure the 
        public good, perpetual access. While some may argue that such 
        specificity of definition for ``access'' for recreational use 
        is unnecessary in the bill, without such a definition true 
        perpetual public ``access'' becomes very unlikely due to lack 
        of a clear understanding of the term, appropriate funding, etc.
          6. Potentially insufficient funding in general for 
        infrastructure such as roads, road maintenance, campgrounds, 
        trails, etc., to ``The Pond,'' The ``Inconceivables,'' ``Chill 
        Hill'' etc., at all areas. Specifically, the bill does not 
        address any of the needs for the implied items needed to 
        provide reasonable access to Apache Leap.
            Thank you and Sincerely,
                                              Fred AmRhein.
                                 ______
                                 
 Statement of Mary Oberst, First Lady of Oregon, Oregon Advisor to the 
                       National Trust, on S. 1139
    My name is Mary Oberst. I am the First Lady of Oregon and an Oregon 
advisor to the National Trust for Historic Preservation.
    I call your favorable attention to S. 1139, ``A bill to require the 
Secretary of Agriculture to enter into a property conveyance with the 
city of Wallowa, Oregon, and for other purposes.''
    The property conveyance will allow the City of Wallowa to use 
Wallowa Compound's historic structures (the ``Structures'') for a 
historic cultural center. Specifically, the Structures will house the 
Maxville Heritage Interpretive Center.
    The tiny locale of Maxville was an Oregon anomaly: a community of 
African-America loggers, in rural NE Oregon, in the early part of the 
last century. The Maxville story was nearly lost until Ms. Gwendolyn 
Trice, of La Grande, Oregon, researched and collected critical oral 
first-hand accounts of this region and of the loggers. Ms. Trice has 
raised funds and donations to launch a professional website for the 
proposed interpretive center. Her groundwork helped persuade Oregon 
Public Broadcasting to produce a compelling documentary, based on Ms. 
Trice's research, entitled The Logger's Daughter.
    The community of Wallowa has endorsed the Maxville Heritage 
Interpretive Center's mission to collect, preserve, and interpret the 
rich history of the former town of Maxville. Tourism is a large part of 
Oregon's economy, and heritage tourism, offering authentic experiences 
and education, tops the list. The Structures will be dedicated to 
providing interpretation of and education about this unique piece of 
Oregon history. Additionally, archeology field-school programs under 
development with local and regional universities will provide 
educational opportunities for college students who are interested in 
the often-hidden multicultural history of Oregon.
    Your favorable vote on S. 1139 will help us preserve a vital and 
intriguing piece of multicultural history, and will provide the City of 
Wallowa with a tourism magnet unlike any other.
    Thank you for your consideration.
                                 ______
                                 
                                     The Nature Conservancy
                                        Phoenix, AZ, June 12, 2009.
Senate Committee on Energy and Natural Resources,
ATTN: David Brooks & Frank Gladics,
Washington, DC.
 Re: S. 409 ``Southeast Arizona Land Exchange and Conservation Act of 
2009''

    Dear Mr. Brooks & Mr. Gladics: Thank you for the opportunity to 
comment on S. 409, the Southeast Arizona Land Exchange and Conservation 
Act of 2009 (hereinafter ``bill''). At the present time, The Nature 
Conservancy has no formal position on this legislation. Instead, this 
letter is meant to outline the Conservancy's concerns and questions on 
the bill and also bring your attention to the important conservation 
value of ``the approximately 3,073 acres of land located in Pinal 
County, Arizona'', known as ``Seven B'', as part of the federal 
acquisition for conservation purposes.
    The Nature Conservancy is an international, nonprofit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. Our on-the-ground conservation work is carried out in 
all 50 states and in more than 30 foreign countries and is supported by 
approximately one million individual members. We have helped conserve 
nearly 15 million acres of land in the United States and Canada and 
more than 102 million acres with local partner organizations globally.
    The Conservancy owns and manages approximately 1,400 preserves 
throughout the United States--the largest private system of nature 
sanctuaries in the world. We recognize, however, that our mission 
cannot be achieved by core protected areas alone. Therefore, our 
projects increasingly seek to accommodate compatible human uses, and 
especially in the developing world, to address sustained human well-
being.
    In Arizona, The Nature Conservancy has created a dozen nature 
preserves and developed new funding sources for conservation throughout 
the state. One main focus of our work has been to protect one of the 
last few remaining undammed rivers in the State of Arizona, the San 
Pedro River. The ``Seven B'' property contains nearly 7 miles of the 
lower San Pedro River as well as over 800 acres of ancient intact 
mesquite bosque representing what is probably the largest oldgrowth 
mesquite forest remaining in Arizona. As early as 1974, an Arizona 
Academy of Science report called for preserving the bosque as a 
scientific and educational natural area, and subsequent analyses by The 
Nature Conservancy and others have affirmed its conservation value. In 
addition to the mesquite bosque and river corridor, the Seven B 
contains an artesian well that has the potential for providing a 
recovery site for endangered desert fish species. Therefore, we support 
the federal acquisition of this parcel for conservation purposes.
    However, the conservation values of the Seven B property exist only 
in the context of an ability to maintain the natural functioning of the 
larger San Pedro River ecosystem. We have concerns which bear on the 
property's future viability:

          (1) The Seven B property is downstream and immediately 
        adjacent to a proposed land development on the San Pedro River 
        by BHP Billiton in and around the Town of San Manuel, Arizona. 
        This upstream and immediately adjacent land is not part of the 
        legislation; however, water use and other effects of a large-
        scale development would likely impact the ecological integrity 
        of the Seven B and hence its value as a federal acquisition for 
        conservation purposes. Our concerns about these impacts would 
        be minimized if BHP's riparian lands were included in the 
        exchange package, or otherwise permanently set aside from 
        development, and if a fair and reasonable cap on water use in 
        the proposed development were negotiated.

    We also would recommend consideration of other general issues 
related to this bill:

          (1) We urge the parties to provide for a fair and transparent 
        appraisal process.
          (2) We seek certainty as to the water withdrawals from the 
        activities associated with the bill so as to better understand 
        the potential effects on other conservation areas in the 
        vicinity of Superior. Without these certainties the 
        conservation values and San Pedro Riparian National 
        Conservation Area is threatened as to its viability and Federal 
        tax dollars investment.

    To help address our concerns on water withdrawals we have asked 
Resolution Copper to describe to us their plans for water usage with 
their proposed activities as part of an open and transparent process to 
have this information available to concerned parties. We are awaiting 
that discussion.

          (3) We support the inclusion in Sec. 4(e)(1)(B) the ability 
        to provide funding for the management and protection of lands 
        acquired by the federal government by this legislation. We 
        believe this is important for the lands provided to the federal 
        government by this legislation to have an endowment to provide 
        for their management. It is not uncommon to have such a 
        practice in administrative transactions with the federal 
        government.
          (4) We would also like to see the language in Sec. 4(e)(1)(A) 
        to be amended to allow for those lands purchased under this 
        mechanism to also be included within the San Pedro Riparian 
        National Conservation Area established by section 101(a) of the 
        Arizona-Idaho Conservation Act of 1988 (16 USC 460xx(a).

    We do want to thank Resolution Copper once again for opening a 
dialogue with BHP Billiton to discuss the future of the adjoining 
lands; however, the future of those lands is unknown. Therefore, the 
Conservancy will continue to monitor and reflect on our continuing 
support of the ``Seven B'' for federal acquisition for its conservation 
purposes.
    Thank you again for the opportunity for us to discuss our concerns 
and conservation values associated with the legislation. We do have an 
open dialogue with Resolution Copper and Members of the Arizona 
Congressional Delegation. We look forward to continuing to discuss the 
items outlined in this letter as this important legislation is debated 
in the U.S. Congress.
    Please do not hesitate to contact me if you have any questions.
            Sincerely,
                                            Patrick Graham,
                                                    State Director.
                                 ______
                                 
 Statement of Sandy Bahr, Sierra Club, Grand Canyon (Arizona) Chapter, 
                               on S. 409
    Mr. Chairman, members of the Subcommittee, thank you for the 
opportunity to provide information on S.409, the Southeast Arizona Land 
Exchange and Conservation Act of 2009. My comments will focus primarily 
on the problems with the exchange itself and the negative impacts of 
the mine the proposed exchange will facilitate. I will outline the 
concerns about this particular bill, why it is bad policy to avoid the 
National Environmental Policy Act review and analysis process, and also 
address some of the inherent problems with land exchanges themselves.
                      loss of oak flat campground
    First, I would like to address the loss of the federally protected 
Oak Flat Picnic and Campground. S.409 will allow Resolution Copper 
Company (Rio Tinto--55% owner--headquartered in the United Kingdom, and 
Broken Hill Properties--45% owner--headquartered in Australia), which 
acquired the old Magma Mine near Superior, Arizona, to privatize Oak 
Flat Campground as part of the 2,406-acre parcel that will be conveyed 
should this bill be approved.
    Oak Flat Campground lies within the Tonto National Forest and was 
recognized by President Eisenhower as an important natural resource in 
1955 when he signed Public Land Order 1229 (see Exhibit A, PLO 1229), 
which specifically put this land off limits to future mining activity 
and reserved it for campgrounds, recreation, and other public purposes. 
Oak Flat provides many recreational opportunities for Arizonans, 
including for those in the local communities and for others from around 
the country. Recreational activities in the area include hiking, 
camping, rock climbing, birding, bouldering, and more (see Exhibit B, 
photo of Oak Flat).
    Oak Flat is a key birding area. Four of the bird species that have 
been sighted at Oak Flat are on the National Audubon Society's watch 
list of declining species that are of national conservation concern, 
including the black-chinned sparrow, Costa's hummingbird, Lewis' 
woodpecker, and gray vireo. The endangered Arizona hedgehog cactus 
(Echinocereus triglochidiatus var. arizonicus) also inhabits the Oak 
Flat area and is further threatened by this proposed mine.
    Oak Flat is an important part of our history and also has 
significant value for native peoples, including for acorn collection 
and many other cultural and religious ceremonies. The tribes' written 
and oral testimony outlines their concerns. Because of the 
environmental significance of Oak Flat, its history of providing a 
respite for travelers and those seeking relief from the hubbub of the 
urban environment, the significance of the area for Native American 
tribes, including, but not limited to the Fort McDowell Yavapai and the 
San Carlos Apache, and the important recreational opportunities it 
offers, the Sierra Club is strongly opposed to this land swap and to 
this specific bill, S.409.
    In addition to privatizing this important area, S.409 also rescinds 
P.L.O. 1229. In Section 13 of the bill, titled ``MISCELLANEOUS 
PROVISIONS,'' it revokes any public land order that withdraws Federal 
land (see (a) REVOCATION OF ORDERS). It is disturbing to see this 
withdrawal of the protection for Oak Flat. Considering all the 
pressures on our public lands, the important services--watershed, 
wildlife habitat, etc.--as well as the opportunities and the critical 
relief from increasing urbanization they provide, it is a bad precedent 
and a bad message for the Congress to give up--to two foreign mining 
companies--an area protected by President Eisenhower more than 50 years 
ago.
                       threats to devil's canyon
    Devil's Canyon is located in the Tonto National Forest and on State 
Trust Lands near the proposed mine, just northeast of the town of 
Superior. It flows into Mineral Creek, which is a tributary of the Gila 
River. Devil's Canyon provides important and all too rare riparian 
habitat in a state where much of our riparian habitat has been degraded 
or destroyed--most estimates indicate that more than 90 percent has 
been lost to water diversions, groundwater pumping, and other 
activities.\1\ Devil's Canyon is an area enjoyed by hikers and climbers 
and those seeking some relief from the heat. Sycamores and Arizona 
alders thrive on Devil's Canyon's water and also provide valuable 
habitat for wildlife (see exhibit C--photo of Devil's Canyon).
---------------------------------------------------------------------------
    \1\ Biotic Communities of the Colorado Plateau, http://
cpluhna.nau.edu/Biota/riparian--communities.htm
---------------------------------------------------------------------------
    Considering its proximity to the proposed mine, the depth of the 
mine and the associated water pumping that will occur to dewater it, 
the risks of dewatering Devil's Canyon are significant. According the 
mining company, they will pump billions of gallons of water from the 
shaft.\2\ Banking Central Arizona Project water at a remote location, 
as the company is currently doing, will not protect this important 
riparian area.
---------------------------------------------------------------------------
    \2\ ``Pinal farms will get reused water from mine,'' East Valley 
Tribune, March 14, 2009.
---------------------------------------------------------------------------
    According to Resolution Copper Company (RCC), this mine will need 
as much as 20,000 acre-feet of water per year.\3\ An acre-foot of water 
is roughly the amount of water a family of four uses in one year, so 
20,000 acre-feet is enough water for 20,000 families or 80,000 people 
for one year. As there is insufficient groundwater to maintain yearly 
mining operations over the 40 years of the mine's operation, RCC 
proposes obtaining and storing Central Arizona Project (CAP) water. Has 
RCC secured any long-term leases of this water? If not, will they? Is 
this feasible? What if they revert to using groundwater? What will the 
impact of this be? Considering how important as water is in Arizona, 
the continued long-term droughts we experience, and the predictions of 
scientists that we are going to get hotter and drier due to the impacts 
of climate change, it would be irresponsible to move this bill without 
a thorough analysis and some strong assurances that the water will be 
there and will not risk riparian areas or drinking water supplies.
---------------------------------------------------------------------------
    \3\ Resolution Copper website, FAQs, under ``Our Approach to Water 
Management,'' http://www.resolutioncopper.com/res/whoweare/4.html
---------------------------------------------------------------------------
                          harm to apache leap
    While this version of the bill keeps Apache Leap in public 
ownership, it does not provide adequate protection for this important 
geological formation. A key issue of concern is the likely subsidence 
and possible earth fissures that will occur as a result of mining 
activity in the area.
    While SECTION 4 (d) (1) indicates that RCC will surrender rights to 
mine Apache Leap, it goes on to state in 4 (d) (2) that mining 
activities will be allowed. This section reads:

          ``Nothing in this Act prohibits Resolution Copper from using 
        any existing mining claim held by Resolution Copper on Apache 
        Leap, or from retaining any right held by Resolution Copper to 
        the parcel described in subsection (c)(1)(G), to carry out any 
        underground activities under Apache Leap in a manner that the 
        Secretary determines will not adversely impact the surface of 
        Apache Leap (including drilling or locating any tunnels, 
        shafts, or other facilities relating to mining, monitoring, or 
        collecting geological or hydrological information) that do not 
        involve commercial mineral extraction under Apache Leap.''

    SECTION 8 of S.409 is titled ``APACHE LEAP PROTECTION AND 
MANAGEMENT.'' It contains language about management of Apache Leap and 
about ``permanent protection'' of its cultural, historic, natural, and 
other values. This management plan for Apache Leap is not part of the 
overall mining plans, however, and therefore its value in protecting 
the land is questionable. It also can place no restrictions on mining 
as is indicated in subsection (c), which states:

          ``MINING ACTIVITIES--Nothing in this section imposes any 
        restriction on any exploration or mining activity carried out 
        by Resolution Copper outside of Apache Leap after the date of 
        enactment of this Act.''

    It is difficult to believe that the mining around the nearby Oak 
Flat parcel will not affect Apache Leap or cause subsidence in the 
area, especially with the quantity of ore to be removed and the method 
of mining--block cave--indicated by RCC. According to a 2002 report 
which examined several case histories of block cave mines, ``No 
evidence was found that subsidence effects at underground hardrock 
mines using block caving can be managed or mitigated short of not 
mining.\4\
---------------------------------------------------------------------------
    \4\ Subsidence Impacts at the Molycorp Molybdenum Mine Questa, New 
Mexico Prepared for Amigos Bravos By Steve Blodgett, M.S. Center for 
Science in Public Participation, February 2002.
---------------------------------------------------------------------------
    If mining around Apache Leap cannot be affected by the so-called 
protections of Apache Leap outlined in the bill, then what good are 
these protections? If it is determined that mining activities are the 
key threats to Apache Leap and could destroy this area, how does this 
section help at all? How will any potential impacts be monitored?
    RCC must be held accountable for any harm to Apache Leap and must 
pay damages if this area is significantly affected or destroyed. 
Provisions should be made for restoring and reclaiming the area if 
restoration and reclamation is even possible.
    Surface disturbance of the area is supposed to be limited to 
fencing, monitoring wells, signs, etc. These activities have potential 
to disturb cultural resources. Consultation with the San Carlos Apache 
and Fort McDowell Yavapai tribes should occur early and consistently 
throughout any mining activities to properly ascertain potential 
impacts on cultural resources and to eliminate or at least minimize 
those impacts. This consultation is not provided for in this bill or in 
this section of the bill.
                  no meaningful environmental analysis
    S.409 allows RCC to bypass the National Environmental Policy Act 
(NEPA), as would be required if this land exchange was evaluated 
through the administrative process. An administrative exchange would 
require a NEPA Environmental Impact Statement on the exchange itself, 
including an examination of alternatives, the environmental and 
cultural impacts, the cumulative impacts (including past and 
anticipated impacts in the area), and possible mitigation of the 
impacts. This type of analysis helps the public better evaluate whether 
they are getting a fair exchange and also evaluate the true 
environmental impacts of such an exchange. A NEPA analysis can identify 
a less environmentally harmful alternative as well. It is clear that 
RCC will benefit enormously from this exchange. It is less clear that 
the public is getting a fair return on the loss of Oak Flat, the 
possible damage to Devil's Canyon, and the threats to Apache Leap and 
Pinto Creek. It should be stated that two major land exchanges 
involving mining in Arizona--the Ray Mine and the Safford land 
exchanges, both conducted Environmental Impact Statements prior to 
consummating the land exchanges.
    Because there is no real NEPA process associated with the exchange, 
prior to the exchange being consummated, there is no opportunity for 
the public to review a Mining Plan of Operation. Instead, what we have 
is a shifting landscape of different answers to the same questions. We 
might argue with the agencies about how much information and analysis 
needs to be done on the exchange in an administrative process, but at 
least there is opportunity to make that argument.
    There are key questions outstanding on this proposal, which make it 
impossible to say the exchange is in the larger public's interest. 
Where is all the mining waste going to go? What are they going to do 
with the tailings? Is this a sulfide ore, which is often the case for 
ore that is below the water table? If it is, how are they going to 
address the acid mine drainage from the rock dumps? How are they going 
to process the ore? At one point, RCC suggested using the leach pad at 
Pinto Valley, but if their estimates on the amount of ore are accurate, 
they could only process a fraction of the ore at that leach pad, and 
they have no agreement to process the ore there. Are they going to 
smelt the ore? If so, where? Clearly there are significant air quality 
issues associated with smelting, not to mention considerable energy 
use.
    The bill indicates that there is to be an Environmental Impact 
Statement, but that is a post-exchange study. If done properly and with 
a solid open public process, an environmental analysis can inform the 
proposed action. A study after the fact does not allow that, plus there 
will be no opportunity to choose the no-action alternative or a less 
environmentally damaging alternative. A less damaging alternative might 
include mining of a smaller amount of ore that would not cause 
subsidence, dewater Devil's Canyon, or damage Apache Leap. As this bill 
is written, we will not know the effects of this proposed mine until 
after the fact. We will not know until after the deal is done if it is 
really necessary for the public to give up Oak Flat in the exchange or 
if they can mine this ore body without it. The study after the fact 
might make people feel better about the deal, but its value is 
negligible, at best, as it will not change the outcome.
    If the information that RCC has provided on this proposed mine is 
accurate, it will be the largest mining operation in Arizona. It would 
be larger than the Freeport McMoran Morenci Mine and one of the largest 
working copper mines in the United States. To allow the company to 
circumvent the National Environmental Policy Act on such a large mine 
that has great potential to negatively affect the surrounding environs 
and that has so many unanswered questions associated with it would just 
be wrong.
                     value of the land and the ore
    This proposed legislation does not provide adequate information for 
the public to ascertain its impacts and its value. A critical issue not 
addressed by this legislation is the value of the lands that RCC will 
acquire. There is no real discussion of the known and anticipated 
mineral values on the U.S. Department of Agriculture Forest Service 
(public) lands. It is difficult to understand how this land exchange 
could move forward without solid appraisals, including on the value of 
the copper itself. The Mineral Report and Feasibility Study help 
provide the basis for the appraisal. The value of the exchange cannot 
possibly be properly evaluated without that.
    RCC has indicated that this is a large rich ore body. According to 
the Rio Tinto website, the ``inferred resource'' of this mine is 1.34 
billion tons with a concentration of copper of about 1.51 percent and 
0.04 percent Molybdenum.\5\ Assuming that the ore body produces about 
600,000 tons of copper per year over the 40-year life of the mine as 
Resolution Copper has indicated, and assuming a value of approximately 
three dollars per pound, the ore body RCC is seeking to mine would be 
worth $144 billion. If a Net Smelter Royalty of only three percent was 
applied for purposes of placing a value on the minerals, RCC should be 
giving the public $4.32 billion in exchange lands. What they are 
offering is a tiny fraction of that.
---------------------------------------------------------------------------
    \5\ Rio Tinto website, ``Resolution Copper Mining LLC reports an 
Inferred Resource of over 1 billion tonnes at its property in Arizona, 
USA,'' May 29, 2008, http://www.riotinto.com/media/5157--7821.asp
---------------------------------------------------------------------------
                     weak reclamation requirements
    Another concern with the mine is its ultimate reclamation. Once the 
land exchange is consummated, the State of Arizona will then have 
oversight of any reclamation on RCC's private lands. Arizona has weak 
reclamation requirements and has seen the negative impacts of mining 
for decades. Our state contains over 100,000 abandoned mines and, while 
there is a fund for addressing abandoned mines, there is little money 
allocated to it. We have many contaminated sites that are directly 
attributable to mining, including the Pinal Creek site, east of this 
proposed mine, and the Iron King Mine, which was recently listed on the 
federal Superfund National Priority List.
    The financial assurance mechanisms are not very strong, either, as 
Arizona does not require cash or bonds or paid-up insurance but instead 
will accept ``corporate guarantees'' or a company's promise to pay. If 
the company goes bankrupt before reclamation is complete, such as is 
the case with some of the ASARCO mines, then the public--the 
taxpayers--have to pay for any reclamation.
                 inherent problems with land exchanges
    While land exchanges can be a tool for conservation, it is a 
limited tool and the pitfalls are many. It should be used very 
judiciously. Even with an administrative exchange that would include 
examination of alternatives and would look at the environmental 
impacts, it is difficult to determine if the public's interest is 
really being served. Even though the federal land management agencies 
are required to do thorough reviews and ensure that a trade is in the 
public interest, there are significant problems. The General Accounting 
Office (GAO) issued a report in June 2000 where it examined a total of 
51 land exchanges, most of which occurred in the west\6\. The GAO 
auditors found that often the public lands were being undervalued while 
the private lands were being overvalued, resulting in significant 
losses to taxpayers. The agency also found that many of these exchanges 
had questionable public benefit.
---------------------------------------------------------------------------
    \6\ BLM and the Forest Service: Land Exchanges Need to Reflect 
Appropriate Value and Serve the Public Interest, GAO/RCED-00-73, June 
2000
---------------------------------------------------------------------------
    The GAO discovered that there were some exchanges in Nevada in 
which the non-federal party that acquired federal land sold it the same 
day for amounts that were two to six times the amount that it had been 
valued in the exchange. While that would not necessarily be the case 
here, we do know that the non-federal party is likely to make billions 
of dollars off of this land, far short of what the public will get in 
return.
    While the GAO was examining administrative exchanges, it noted that 
there are inherent problems with exchanging lands, no matter the 
mechanism. In particular, it noted that there are no market mechanisms 
to address the issues relative to value for value. The GAO indicated:

          At least some of the agencies' continuing problems may 
        reflect inherent underlying difficulties associated with 
        exchanging land compared with the more common buying and 
        selling of land for cash. In land exchanges, a landowner must 
        first find another landowner who is willing to trade, who owns 
        a desirable parcel of land that can be valued at about the same 
        amount as his/her parcel, and who wants to acquire the parcel 
        being offered. More commonly, both landowners would simply sell 
        the parcels they no longer want and use the cash to buy other 
        parcels that they prefer. In this way, the value of both 
        parcels is more easily established when they are sold in a 
        competitive market, both parties have more flexibility in 
        meeting their needs, and there is no requirement to equalize 
        the values of the parcels. Difficulties in land exchanges are 
        exacerbated when the properties are difficult to value--for 
        example, because they have characteristics that make them 
        unique or because the real-estate market is rapidly 
        developing--as was the case in several exchanges we reviewed. 
        Both agencies want to retain land exchanges as a means to 
        acquire land, but in most circumstances, cash-based 
        transactions would be simpler and less costly.

    They went on to say that program improvements could not address 
these inherent difficulties and recommended that Congress ``consider 
directing the agencies to discontinue their land exchange programs 
because of the many problems identified and their inherent 
difficulties.''
    If land exchanges are ever suspended and these more market-oriented 
mechanisms used, it would be critical that the agencies focus on 
selling smaller parcels that are not contiguous with the larger public 
lands and then use the dollars to finance acquisition of inholdings and 
key ecological areas.
    Land exchanges have been very controversial in Arizona, which may 
be one more reason that large corporations do not want to go through 
the National Environmental Policy Act process, which includes 
significant public involvement. Arizonans have made it clear how they 
feel about land exchanges by rejecting six times land exchange 
authority for the Arizona State Land Department.
    In 2003, an independent entity, the Appraisal and Exchange Work 
Group, was formed to review Bureau of Land Management (BLM) land 
exchanges. The Work Group's report concluded that BLM's land appraisals 
were inappropriately influenced by the managers wanting to complete the 
deals and that these unduly influenced appraisals cost the public 
millions of dollars in lost value in exchanges with private entities 
and state governments.
    One land swap resulted in an ethics violation investigation of 
Kathleen Clarke, the BLM Director at the time. The proposed San Rafael 
Swell land exchange would have cost federal taxpayers $100 million 
because the BLM lands were so undervalued. The Office of Inspector 
General's Report on the San Rafael Land Exchange found that several BLM 
employees devalued the public lands and kept information from Congress 
(Page 23 of Report).
                    summary of concerns about s.409
    S.409 does not represent a land exchange that is in the broader 
public interest. A large contiguous parcel of public land--2,406 
acres--that includes Oak Flat Campground is conveyed to Resolution 
Copper Company. Approximately 5,566 acres is conveyed to the public, 
some of it in rather small parcels, but even the larger parcel by the 
San Pedro is significantly threatened by future nearby development.
    It is pretty clear that President Eisenhower believed he had 
protected Oak Flat and other campgrounds when he issued the Public Land 
Order. If an area that has been protected from mining and other 
negative actions for over 50 years can be given up so cavalierly, what 
is next? This sets a terrible precedent. This proposed land swap should 
be rejected and the impacts of such a major action properly evaluated.
    There is no real environmental analysis or significant public 
involvement process prior to the exchange. What we have instead is a 
mining company using its considerable wealth to garner support and 
curry favor with various interest groups. What will this do to Devil's 
Canyon? Will it destroy Apache Leap? Where will the ore be processed? 
What about the rock waste? How will the concerns of the native peoples 
be addressed? And most of all, what is the rush? Why does this proposal 
not include adequate time for public review, analysis, and appraisal? 
Even if RCC started moving forward with plans to mine today, it is 
unlikely they would be ready to mine this copper for several years. 
There is plenty of time to do a thorough analysis and look at the 
alternatives, the costs, the values of the lands--including 
environmental and cultural--and to consider the public's concerns.
    For these reasons and more, we oppose S.409.
    Again, thank you for the opportunity to discuss this important 
issue.
                                 ______
                                 
    Statement of Sylvia Delgado-Barrett, Queen Creek, AZ, on S. 409
    My comments follow for S409, the Southeast Arizona Land Exchange 
and Conservation Act of 2009 scheduled to be heard on June 17, 2009.
    There have been 4 generations of Delgado's who have worked for 
Magma Copper Co. over the years . . . My grandfather, father & uncles, 
myself and my eldest son. I am proud to say I was one of the first 7 
women to be hired to work underground. Mining is not new to our family 
and I am not against mining as long as all issues are on the table.
    I have a problem with the transparency that Resolution Copper (RCC) 
claims to have and with the style of mining (block cave) that they 
propose to do.
    We, Americans, are expected to give up Federally Protected Forest 
Service Land used for recreation . . . Land used by Native Americans 
for religious reasons as well as for gathering medicinal herbs and 
acorns . . . all without first completing NEPA.
    Morally . . . there is no justification for the land swap bill 
(S409) as it now reads.
    Here are my concerns:

          1.) Amount of jobs.--With the style of mining they are using 
        (block cave), they will require fewer workers and will be 
        mining robotically. Using the ``cut & fill'' method would 
        require more workers and would keep the ground from subsiding & 
        perhaps save our water aquifers and campground. I believe their 
        job figures have been way over-inflated. Their literature said 
        400 jobs in Aug. 2008 and now it is over 5,000 jobs in 2009. 
        This doesn't make sense.
          2.) Amount of Subsidence.--There will be subsidence and RCC's 
        conservative measurement is over 2 miles wide x 200 ft. deep. 
        Those 2 miles, as the crow flies, will impact Apache Leap and 
        200 ft. in depth is the depth of Niagara Falls. NEPA should 
        give us figures closer to the truth. Also, once subsidence 
        starts you can't stop it just because you wish it or are 
        monitoring it & then cease mining. Ground movement can continue 
        up to 15+ years!
          3.) Tailings.--I want to know the EXACT location of their 
        tailings. Enough of this ``We are working on it and have a 
        couple of plans.'' Verbally RCC promised the tailings would not 
        be in Superior. So where will they be exactly???
          4.) Mill & Smelter.--I have attended many meetings and I have 
        never heard where they are going to mill and smelt the ore. Now 
        I want to know . . . where will these processes take place? How 
        does RCC plan to move the ore out of the area . . . by truck, 
        by rail . . . how???
          5.) US 60 is being re-routed.--So who is going to shop in 
        Superior? That means the mine will be the only industry . . . 
        and we know how reliable mines are with their boom & bust 
        cycles. Superior will need to depend on something else . . . 
        Tourism or another industry . . . but with the scenic highway 
        closed through the mountain what is left?
          6.) Traded Lands.--The lands being acquired in the trade come 
        with problems. They are overgrazed parcels with stock ponds and 
        will require decades of time and money to bring them back from 
        despair. Who is paying for this? The Oak Flat Campground is 
        pristine land used by many including the Native Americans, Boy 
        Scouts, church groups, campers, rock climbers, naturists and 
        people out for a picnic with their families.
          7.) Water Usage.--Arizona is still in a drought. The mine 
        will require at least 20,000 acre ft. of water per year and RCC 
        mentioned once that the figure could be as high as 40,000 acre 
        ft . . . 20,000 ac. ft. sustains roughly 100,000 people. Where 
        will the water come from? Yes, they claim to be using some CAP 
        water, but they haven't banked enough to make a dent in their 
        requirements. Will the water have to come from underground 
        wells? If yes, what does the populous do for its water needs? 
        The ``block cave'' style of mining could poison and / or 
        destroy water aquifers in that region and we all know ``that 
        whatever happens upstream affects those downstream''. Phoenix 
        and the East Valley lie downstream as well as Florence and 
        Queen Creek.
          8.) Religious Freedom.--I feel the Apache people have every 
        right to continue to practice their religion in this area.
          9.) Flora and Fauna.--This region is also home to some 
        endangered native species of plants and animals. Some of them 
        are on watch lists and need protection.
          10) Bonding and CleanUp.--As I read the bill I saw nothing 
        about this subject. Do we leave the cleanup of potential 
        superfund sites to the next generation?

    If I can find the answers to all my questions in a legitimate 
signed document then please direct me to it . . . 
    But if all these answers are not in a signed document then this 
land swap should not move forward until NEPA has been completed and ALL 
stakeholders, not just a few, have had their say.
    Mayor Hing, and Resolution's CEO David Salisbury and his people 
talk about the community needing jobs and money and the schools needing 
money.
    They say the mine will take care of these problems.
    I would like for them to tell me . . . 

          A.) Why does Superior's Mayor Hing not have his children 
        enrolled in Superior Public Schools? Why are some of Superior's 
        children bussed to schools in Kearny, Az?
    STOP the bussing and give Superior schools that money!
    The Mayor is not setting a very good example.
          B.) Why doesn't President and CEO of RCC, David Salisbury, 
        live in Superior? Is he too good for the town? Superior is 
        where he needs to leave his tax dollars.
          C.) How many people that work for RCC actually LIVE in 
        Superior? If not . . . why not? There is a big new subdivision 
        in Superior and their tax dollars would help the town.
          D.) Why do so many Canadians work for RCC instead of 
        Arizonans? Being as RCC wants to pillage and plunder America's 
        Protected Federal Lands . . . shouldn't they employ more 
        Superiorites & Americans? How many of these Canadians and other 
        foreigners live in Superior? Superior needs them to live, work 
        & leave their tax dollars there.
          E.) Doesn't China have an 18% investment in Rio Tinto 
        already? Will China eventually own Resolution Copper or will it 
        just have a larger market piece of this pie?

    I would like to see . . . 
    Complete NEPA studies done BEFORE the land exchange goes through. 
That is the only way to get at the truth.
    This should have been an ``administrative'' land swap instead of 
trying to get some members of Congress to do Resolution's dirty work by 
making this a ``congressional'' land swap.
    Transparent people & companies don't try to circumvent the process.
    Everything needs to be in writing . . . no more of this squirmy 
language and false promises.
    EVERYONE should know the exact price for taking this beautiful 
pristine recreational land and weigh it against the 400-500 permanent 
mining jobs that will be left when all is said and done.
    I do not think the 400-500 jobs are more important than clean 
drinking water.
    I do not think the 400-500 jobs are worth the price of damaging or 
destroying the landmark that could be the salvation for Superior the 
next time the price of copper goes down and they have to close their 
doors. This cycle repeats itself every few years like clockwork! 
Resolution Copper cannot stop this cycle.
    Please give us answers, before you agree to the land swap . . . 
complete NEPA first.
    Thank you for your time.
                                 ______
                                 
      Statement of Bill Meadows, The Wilderness Society, on S. 874
    On behalf of our 450,000 members and supporters across the country, 
The Wilderness Society and the Campaign for America's Wilderness write 
in support of S. 874, the El Rio Grande Del Norte National Conservation 
Area Establishment Act. We fully support this legislation and applaud 
your efforts to protect this magnificent landscape.
    Please find attached a copy of our written testimony for inclusion 
in the official hearing record on S. 874.
    Again, we congratulate you on your leadership and dedication to 
protect these important lands. We look forward to continuing to work 
with you and your staff to ensure this important legislation is enacted 
into law as soon as possible.
Attachment.--Statement of The Wilderness Society/Campaign for America's 
                         Wilderness, on S. 874
    The Wilderness Society and the Campaign for America's Wilderness 
submit the following written testimony in support of S. 874, the El Rio 
Grande Del Norte National Conservation Area Establishment Act.
    Collectively, our organizations represent more than 450,000 members 
and supporters across the country, including many in New Mexico, who 
are deeply interested in protecting the last remaining wildlands in the 
``Land of Enchantment.'' We believe this legislation represents a well-
thought-out, far-sighted conservation policy that will not only protect 
the unique natural areas within its scope, but also serve to maintain 
the cultural heritage of the El Rio Grande Del Norte region.
    We thank Chairman Bingaman, as well as Senator Tom Udall, and their 
staffs, for all the hard work that has gone into developing this 
special legislation. The process has been fair, and the sponsors have 
listened to the concerns and recommendations from a broad array of 
interested parties--including local citizens, businesses, the land 
grants community, elected officials, hunters and anglers, ranchers, and 
conservation organizations. The legislation that the Committee is 
considering today is a better product as a result of the diligent work 
of the sponsors. Of particular note is the extraordinary efforts made 
by the staffs of both Senators Bingaman and Udall through their many 
visits to Taos and Rio Arriba Counties over the past several years as 
the legislation to designate this new National Conservation Area and 
two new wilderness Areas took shape.
    S. 874 is a bill built upon many years of local citizen efforts 
that addresses a variety of issues in Taos and Rio Arriba Counties. 
First and foremost, the legislation takes into consideration and 
protects a number of important traditional uses on public lands, such 
as the collection of firewood and pinyon nuts. The bill is a product of 
a true collaborative effort and genuine concern for the needs, 
practices, and history of the local citizenry. The wide array of 
support this measure has received-including that of affected land grant 
communities, local elected officials and the business community-is 
testament to the rigorous outreach process that was used in developing 
this significant legislation.
    Creation of the National Conservation Area (NCA) and wilderness 
areas within this proposal will ensure local communities will have a 
natural resource as part of a long-term sustainable economic 
development plan. As local communities work to strengthen their natural 
resource recreation-based economies, the designation of the NCA, as 
well as the new wilderness areas it will encompass, will serve to 
further broaden the appeal of this part of northern New Mexico to 
outdoor enthusiasts who will be able to use and enjoy these special 
places for generations to come.
    The land contained in the NCA is some of the most remarkable 
country in New Mexico. The Rio Grande cuts down through the Servilleta 
lava flows that comprise the Taos Plateau near the Colorado border, 
forming one of the most impressive chasms on the entire continent. 
Protected by these designations will be world class recreational 
opportunities including hunting for elk and antelope, and angling for 
native trout. The area is also part of the Rio Grande Migratory Flyway-
one of the great migratory routes in the world. Eagles, falcons and 
hawks make the basalt walls of the Gorge their nesting homes. Ospreys, 
scaups, hummingbirds, herons, avocets, merlins and willits all make 
their way across the Gorge.
    Cerro del Yuta, known as Ute Mountain, is a regional icon and will 
make an excellent addition to the National Wilderness Preservation 
System. This volcanic cone rises over 10,000 feet above the plateau 
with slopes covered in pinyon at the base, as well as pockets of 
ponderosa, aspen, white pine and Douglas fir in the higher elevations. 
Designating the Rio San Antonio Wilderness Study Area as wilderness 
will ensure lasting protection for another national treasure, where yet 
another gorge cuts through a landscape of rolling grasslands and sage 
brush plains. The cliffs formed by the gorge contain critical habitat 
for nesting raptors.
    In conclusion, The Wilderness Society and the Campaign for 
America's Wilderness fully support S. 874, the El Rio Grande Del Norte 
National Conservation Area Establishment Act. We applaud Chairman 
Bingaman for his leadership and commitment to safeguarding this land, 
and Senator Udall for cosponsoring the bill and working with Senator 
Bingaman to protect this special region, which is truly a national 
treasure containing a wide and important array of cultural, 
recreational, ecological and scenic resources.
                                 ______
                                 
   Statement of Nils D. Christoffersen, Executive Director, Wallowa 
 Resources, Enterprise, OR, on S. 409, S. 782, S. 874, S. 1139 and S. 
                                  1140
    Wallowa Resources was established in 1996 and is a grassroots 
501(c) 3 non-profit organization committed to: Promoting Land and 
Community Stewardship: The Idea, the Practice and the Jobs. We develop, 
promote, and implement innovative solutions to help the people of 
Wallowa County and the Intermountain West sustain and improve their 
communities and their lands. Located in rural Wallowa County, Oregon, 
residents have enjoyed a long, rich, and varied history connected to 
the local landscape and the many issues that surround its stewardship. 
The 12-member Board of Directors, representative of community 
diversity, includes timber managers, tribal members, artists, ranchers, 
outfitters, builders, contractors, realtors, retired university 
professor/educator and the County Commission chair. Wallowa Resources 
has eight staff that implements watershed restoration and invasive 
plant projects, serve as naturalist guides in the youth and adult 
education programs, and support new and existing natural resource 
related businesses.
    The proposed conveyance of the USFS Wallowa Compound for use by the 
Maxville Heritage Interpretive Center culminates a long-standing local 
effort to develop meaningful and appropriate attractions to capture 
visitors to the County in the ``gateway'' city of Wallowa. The plans 
for the Maxville Heritage Interpretive Center include permanent 
exhibits of the historical forestry, logging and railroad industry.
    While we appreciate the importance of securing tax payer value from 
federal assets, we believe restoring and utilizing the Wallowa Compound 
for this unique multicultural heritage center generates compelling 
value to the USFS, the city of Wallowa, Wallowa County and the public 
at large. Hard hit by the economic down turn, Wallowa's mill closed in 
2007 and one of two long standing grocery stores closed in 2008. The 
proposed Interpretive Center provides an important new element 
supporting this area's economic diversification and recovery.
    In Wallowa County, nonfarm employment fell nearly 2 percent in 
2008, following four years of job growth. As in much of the rest of 
Eastern Oregon, Wallowa County's 2008 downtrend was felt most harshly 
by manufacturing businesses, where job counts retreated to multiyear 
lows. Unemployment averaged 7.5 percent in 2008, a three-year high. 
Jobless rates in early 2009 crossed 15 percent, a level not seen in 
more than 10 years.
    This legislation also ensures the Wallowa Compound's historic 
architectural structure will be restored. The Civilian Conservation 
Corp built the Wallowa Compound in the 1930's. The State Oregon 
Preservation Office is holding a public hearing June 24th, 2009 to 
consider its listing on the National Registry. Regionally it is under 
consideration to be added to the Hells Canyon Scenic Byway 
Implementation Plan.
    Statewide support of the cultural center has grown in the last 
year, launched in part by the OPB production ``The Loggers Daughter'' 
summarizing the search by Gwen Trice for relatives and friends of her 
father, one of 50-60 African American's that lived in the temporary 
logging town of Maxville. The Wallowa Compound structures provide a 
natural projection of this past while providing exhibit and 
interpretive and educational space relevant to everyone.
    Archeology field school study programs under development with local 
and regional universities will provide a conduit of educational 
opportunities for undergraduate and graduate students across the 
nation. Local school district's support and encourage incorporation of 
this local history in their school curriculum.
    We encourage your support of the conveyance of the Wallowa 
Compound.
    Thanks for your consideration.
                                 ______
                                 
    Statement of Carolina Castillo Butler, Scottsdale, AZ, on S. 409
    Please include this in your official record of public comment on 
the subject hearing. Thank you. I am a many-generations Arizonan, an 
individual and not part of any organized group, and I am strongly 
opposed to the USFS land exchange enabling the Resolution Copper Mining 
Company to dig a massive copper mine in one of the most special places 
in Arizona.
    After the disastrous economic shakedown that Americans have been 
going through, the one thing we all are demanding is transparency in 
government. So it is incredible that the proposed legislation before 
you exempts the copper mine from the scrutiny of NEPA (National 
Environmental Policy Act), the law which gives citizens access. 
Exemption shuts us out. Why would you do that? Our government would 
fail us again.
    The Arizona land in question is land for which two U.S. presidents, 
Dwight Eisenhower and Richard Nixon, signed Executive Orders because 
the place is so special and worth preserving. Handing this land over 
for a copper mine would be an immoral betrayal. It would be an outrage, 
and that would be your shameful legacy. Let's instead emulate these 
past presidents and their courage and let us too be visionaries.
    And let's remember Arizona's late, beloved U.S. Senator Barry 
Goldwater who said that the vote he regretted most was when he voted 
for the construction of the Glen Canyon Dam because beautiful, 
sprawling, Glen Canyon--the place no one knew--was destroyed. Let us 
not regret another fateful vote which would destroy a special place in 
Arizona that again not too many people know.
    It's said by some they are for the proposed copper mine because it 
comes down to jobs. That's like saying let's allow construction of 
condominiums along the edge of the Grand Canyon so we can have jobs. We 
don't have to destroy our nation's natural wonders to get jobs. Just 
simply building more jails provides longer term jobs than a copper 
mine. Every day I read in the paper how people are coming up with new 
ideas; starting new businesses; etc., which will provide jobs. Those 
who band together in the old way and rush to destroy our public lands 
for jobs, show their little faith in the American people's ingenuity, 
initiative and creativity.
    For far too long here in Arizona our natural resources have been 
used for the benefit of a relatively small group, and the vast majority 
pay the economic, environmental and social costs. It has been a 
longtime, self-serving myth to describe the Arizona economy as the four 
C's--copper, cattle, cotton, citrus. In fact the four C's 
characterization of the Arizona economy was relatively accurate eighty 
years ago in 1929 but Arizona now has and has had a much different 
economy.
    For many years now, mining in Arizona has been barely a blip on the 
chart. Mining's peak year was 1929 when it contributed 16.5% to the 
economy of the state, today it is less than 1%. See the enclosed chart 
showing the decline of agriculture and mining (the lower line) in a 2-
page excerpt of ASU's (AZ State Univ.) annual report, ``Arizona 
Economic Profile, Nov. 1995.''
    I've also enclosed an 8-page excerpt from ASU's same annual report 
of Dec. 2000, which shows the continued decline in mining. Page 81 
shows the shift in all of Arizona's industrial structure. Those are the 
facts, not the myth.
    The great influx of people into Arizona has brought huge economic 
change. Recreation is big. Another self-serving myth is that Arizona 
golfing (which uses huge amounts of water on its grass) is the big 
tourist draw. Wrong. Bird-watching is Arizona's most lucrative tourist 
activity. See enclosed 5-4-07 AZ REPUBLIC article, ``Bird-watching adds 
wings to state economy.''
    As wise investors of the nation's public lands, isn't it better to 
invest in something that gives us a big return? Like long-term 
recreation amidst scenic and wildlife values? As opposed to investing 
the public's natural wonders, destroying these special places, for 
copper mining which returns barely 0.8% to Arizona's economy? What is 
the benefit/cost ratio of the proposed copper mine? What are the 
tradeoffs?
    And what of the mineral wealth on our public land that (English) 
Resolution Copper Co. wants to get, will there be a fair return to the 
American public? After being taken to the cleaners by the greed of Wall 
St. and failure of our government to protect us this past year, it 
would be unconscionable to allow this proposed legislation, S. 409, to 
go forward. Americans have been knocked down on their knees. This is 
the time to stop this raping and pillaging of our public lands and 
giving away our nation's mineral wealth. For 137 years, since the 1872 
Mining Law was enacted, mining has extracted billions of dollars of 
minerals from the public's land and there has never been a fair return 
to the public.
    In a 1990 Washington hearing, consumer advocate Ralph Nader 
testified that each year at least $4 billion worth of federally owned 
minerals passes into private hands while taxpayers get nothing. See 
attached 9-7-90 clip. Since 1872 what is the total dollars that 
taxpayers have been cheated out of?
    Other questions regarding S.409 proposed legislation are many of 
the same objectives listed in the attached preface by Charles Warren, 
then chairman of the Council on Environmental Quality, in its report, 
``Hard Rock Mining on the Public Land-1977.''
    And what if (English) Resolution Copper Mining Co. gets what it 
wants? What can we expect in the aftermath? In a 1993 report, the 
Mineral Policy Center said there are more than 50 billion tons of 
untreated mine waste, much of it on public land, in 32 states and that 
it would cost $32.7 billion to $71.5 billion to clean up. The Arizona 
Mine Inspector's office estimated 17,000 abandoned and unmarked mines 
in Arizona. See attached 7-20-93 clip. Vote NO to continuing this abuse 
of the American landscape and its people and their health.
    Please give your utmost attention to the pleas against this 
proposed copper mining operation given to you by our Native Americans, 
Arizona's Apache people. Thank you.
    Growing up in Arizona I went to high school with kids (Mexican-
Americans) who lived in Arizona mining towns of Superior, Globe, Miami, 
Hayden, Winkelman, etc., and whose parents worked in the mines and 
smelters. The workers and their families suffered deaths, injuries, 
danger, strikes, shutdowns, discrimination, etc. The kids' parents 
urged them to leave, to get an education for a better future.
    Lastly, I bring to your attention an award-winning book, ``The New 
Economy of Nature: The Quest to make Conservation Profitable,'' by 
Stanford Univ. Professor Gretchen C. Daily. See 6-18-08 attached news 
clip. She explains the economic value of our natural resources and the 
potential profits of protecting them. We don't have to destroy our 
public lands' scenic and wildlife values, she and many others point us 
towards better long-term solutions.
    Thank you.
                                 ______
                                 
 Statement of Robert A. Witzeman, Maricopa Audubon Society, Phoenix, AZ
    The proposed Resolution Copper Company land exchange HR 2509 short-
circuits and sabotages one of the most important and basic 
environmental and cultural protection laws in the U.S., namely the 
National Environmental Policy Act (NEPA). The newly drafted bill only 
applies NEPA to the land exchange swap properties, but not to the 
actual mine or its structure and its plans of operation. Hence, under 
this proposed legislation the entire mine will be exempted outright 
from citizen oversight and scrutiny under the NEPA law. NEPA is a law 
which would enable the public to comment upon and to obtain information 
from the USFS about the significant environmental, cultural and human 
rights impacts and harms caused by this mine.
    Exempting the mine's structure and plan of operation from NEPA is 
like taking away the Magna Carta, or being exempt from the U.S. 
Constitution or taking away the U.S. Bill of Rights.
    Hence, the Resolution Copper mining company will not have to reveal 
or provide the public the benefit of NEPA oversight and transparency as 
would be normally made public, available and apparent under NEPA. The 
U.S. Forest Service would be required by federal law to describe all of 
the potential impacts and harms and pollution and human and cultural 
and historical harms of the mine in the so-called Environmental Impact 
Statement. Under the law now being sent to the senate there would be no 
public oversight, review or discussions of what efforts the mining 
company will have to make to protect the priceless cultural, 
historical, Native American, riparian, recreational and environmental 
values at stake here.
    This bill has a misleading ``270-day time frame'' clause allowed to 
complete NEPA on only on the swap properties, but this is not a real 
NEPA oversight on the mine itself. It was put in by backers of the mine 
to deceive the public into thinking they would receive the transparency 
and oversight of a normal and customary NEPA review. Under the bill 
being introduced there would be no NEPA oversight or discussion or 
addressing of the mine's air and land and water pollutions, or of its 
destructive riparian impacts, or its harm to Native American cultural, 
historical and traditional values, etc.
    These two foreign mining companies, BHP-Billiton and Rio Tinto have 
horrendous environmental and human rights records at their third world 
mine sites but also at their U.S. and other non-third world mining 
properties.
    This proposed-to-be NEPA-exempt mine would destroy a USFS 
campground officially protected by two presidential Executive Orders to 
be permanently free from Copper Mining. They were decreed by Presidents 
Eisenhower and Nixon. The Apache Leap historic and cultural site would 
become entirely vulnerable to obliteration outright as the plan of 
operation of the mine would never have to face NEPA scrutiny and 
oversight by the American public. Without NEPA the mine could go ahead 
and dewater and destroy the critical groundwater aquifer vital to 
maintaining the plant and animal life of the priceless Devil's Canyon 
riparian wetlands and culturally significant area. Devil's Canyon is 
one of the most ecologically diverse and unique Sonoran Desert riparian 
wetlands in Arizona.
                                 ______
                                 
  Statement of Gwendolyn Trice, Executive Director, Maxville Heritage 
Interpretive Center, Enterprise, OR, on S. 409, S. 782, S. 874, S. 1139 
                              and S. 1140
    We believe the value to this community in restoring and utilizing 
Wallowa Compound's historic structures for a historic public accessible 
hub, assisting Wallowa toward economic sustainability in ownership and 
dedication of the public structures and landscape poses a compelling 
value to the USFS, the City of Wallowa and Wallowa County.
    The Wallowa Compound is a unique property, and the relevance to the 
Maxville Heritage Interpretive Center proposed to reside within it's 
historic structure is unlike any heritage multicultural themed 
Interpretive Center.
    Our cultural history, it's oral accounts, artifacts, were broadcast 
as part of a Oregon Public Broadcast segment February 9th, 2009, little 
known to most, 40 -60 African Americans railroad loggers lived and 
raised families here as well.
    Other groups migrated, homesteaded or moved here as well for a 
better opportunity and thrived.
    This legislation ensures the Wallowa Compound's historic 
architectural structure will be restored. The State Oregon Historic 
National Registry is holding a public hearing June 24th to consider 
it's significance.
    Regionally it is under consideration to be added to the Hells 
Canyon scenic byway implementation plan with the Maxville Cultural 
Heritage Center to include panels focused on it's historical 
significance.
    Proposed permanent exhibits of historical forestry, logging and 
railroad industry. Public access for visitors and tourists make a 
foundation investment in Wallowa's economic and tourism attraction.
    Hard hit by the economic down turn, Wallowa's mill closed in 2007 
and one of it's long standing grocery stores closed in 2008, today the 
City of Wallowa with renewed community commitment, County and regional 
support, request this unique site be dedicated to attract tourists, 
visitors, and historians. Provide interpretation and education.
    Through presentation, public television and educational networking, 
statewide support of the cultural center has grown in the last year, 
the Wallowa Compound structures will provide a natural projection of 
our past while providing exhibit and interpretive and educational space 
for our present and future.
    Archeology field school study programs under development with local 
and regional universities provide a conduit of educational 
opportunities for multicultural college students.
    Local school district support and encourage incorporation of local 
history presentations in school curriculum.
    Local history distinct to this region include Federal forestry 
service structures.
    Wallowa Compound's location off the highway in Wallowa brings all 
visitors to the County directly to the first stop of the valley's rich 
historical byway.
    Just in time this vital part of our history is being preserved, 
studied and oral histories written. Our past informs the present and 
future.
    The Civilian Corp build the Wallowa Compound in the early 1900's, 
again, we ask to preserve, study and celebrate the relevance it brings 
to our community's collective resources and economic sustainability.
    A remarkable setting for a compelling interpretive center.
                                 ______
                                 
      Statement of the Society for American Archaeology, on S. 409
    The Society for American Archaeology (SAA) thanks the subcommittee 
for this opportunity to express its concerns about S. 409, the 
Southeast Arizona Land Exchange Act. In particular, we believe that the 
legislation lacks adequate protections for cultural resources in the 
affected federal lands.
    SAA is an international organization that, since its founding in 
1934, has been dedicated to the research about and interpretation and 
protection of the archaeological heritage of the Americas. With more 
than 7,000 members, SAA represents professional archaeologists in 
colleges and universities, museums, government agencies, and the 
private sector. SAA has members in all 50 states as well as many other 
nations around the world.
    S. 409 would direct the Department of Agriculture to accept certain 
parcels of nonfederal land in five counties in Arizona from Resolution 
Copper in exchange for federal land in Pinal County, Arizona, including 
Apache Leap and the Oak Flat Campground area, the latter in which 
mining activity is prohibited. It is our understanding that under the 
legislation Resolution Copper could then conduct mineral exploration 
and ``blockcave'' extraction activities beneath the surface of the Oak 
Flat and Apache Leap areas.
    These places are of great cultural and historic significance to 
several Native American tribes, including the San Carlos Apache, and 
the nation as a whole. Since well before recorded history, tribal 
groups were living in and around these lands, which play important 
cultural and religious roles in the lives of their descendants today. 
In addition, the areas that S. 409 would transfer out of federal 
ownership contain numerous known archaeological sites and resources, 
from both the pre-and post-contact eras, with a high probability of as-
yet undiscovered additional sites. As of today, these lands and the 
cultural and historic resources they contain are protected by numerous 
federal statutes, including the National Historic Preservation Act 
(NHPA), the Archaeological Resources Protection Act, and the Native 
American Graves Protection and Repatriation Act, among others. By 
transferring these lands out of federal ownership, S. 409 would remove 
these protections.
    The bill contains provisions ostensibly designed to mitigate these 
concerns. These include requiring the preparation of an Environmental 
Impact Statement under the National Environmental Policy Act prior to 
the start of commercially-viable mineral extraction activities, 
easements preventing the surface disturbance of Apache Leap and Oak 
Flat, and management plans to preserve the cultural resources of the 
affected areas. SAA, however, believes these provisions to be wholly 
inadequate, especially when compared to the protections the resources 
have today. The above-mentioned EIS would be carried out only after the 
transfer and subsequent mineral exploration has taken place, presenting 
the federal government with a powerful disincentive to delay 
extraction. Numerous archaeological sites and resources exist beneath 
the surface of the earth--protecting the surface of sensitive areas 
such as Apache Leap and Oak Flat, while useful, does nothing to ensure 
the preservation of sites, both known and unknown, that lie well under 
the top layers of ground. At the very least, S. 409 should be amended 
to provide for a thorough review under Section 106 of the NHPA, prior 
to or as a condition of the land exchange, to determine if the cultural 
resources in and on the land would be adversely affected by mining 
activity and if so, what mitigation strategies are needed to resolve 
those adverse effects before mining activities are initiated. The 
section of the bill providing for the creation of a management 
agreement between Resolution Copper and tribal stakeholders to allow 
for traditional acorn gathering at Oak Flat is not binding on the 
company, and even if such an agreement were created the bill allows the 
company to suspend tribal activities if they were to impede mineral 
exploration and extraction. S. 409 simply does not provide enough 
consideration for the traditional activities of the Apache people at 
Apache Leap and Oak Flat.
    SAA recognizes that difficult economic conditions are facing the 
residents and communities of south-east Arizona, and indeed the nation. 
There is no doubt that goodpaying jobs are needed everywhere, and SAA 
does not oppose any and all economic development activities on federal 
land out of hand. Nevertheless, cultural and historic resources are 
non-renewable. Once they are destroyed, they are lost forever. Ever 
since the Antiquities Act of 1906, federal law has recognized the need 
to preserve and protect the resources that reside within federal 
boundaries, including safeguards to prevent or mitigate damage to such 
resources when other activities are going on. This federal 
responsibility should not be jettisoned in the interests of a land 
transfer. In fact, these safeguards should be carefully observed prior 
to any such transfer taking place. As currently written, S. 409 would 
short-circuit this process, to the detriment of the archaeological 
record and cultural heritage of the nation.
    Thank you very much for your consideration of this important 
matter.
                                 ______
                                 
Statement of Christopher Krupp, Staff Attorney, Western Lands Project, 
                               on S. 409
    The Western Lands Project is a non-profit, membership organization 
founded in 1997 to conduct research, outreach, and advocacy for reform 
in federal land exchange policy. We also scrutinize a broad range of 
projects that propose to sell, give away, or relinquish public control 
of public lands. We have submitted testimony to this committee and 
corresponded with individual members many times regarding congressional 
land exchange and conveyance proposals, including an earlier version of 
the Southeast Arizona Land Exchange and Conservation Act.
    We thank you for the opportunity to submit to the record our 
concerns regarding S. 409.
    The primary concern with S. 409, as with previous versions of the 
bill, is that the exchanges and conveyances are not motivated by any 
larger concern for the public good. Rather, the bill's purpose is to 
give Resolution Copper sole title to Oak Flats, a much-loved piece of 
public land, and other federal lands so that it can more easily realize 
the profits from its mineral rights. The rest of the bill is mostly 
window dressing, designed to divert attention from this fact.
    The importance of Oak Flats as a recreation area, as well as the 
need to safeguard it from harm, was recognized in 1955 with PLO 1229, 
an executive order protecting Oak Flats from future mining activity. S. 
409 would effectively repeal that order, nullifying the foresight shown 
more than fifty years ago. As too often happens with legislated land 
exchanges and conveyances, yet another piece of public land 
``permanently'' protected is being put on the market because a private 
interest has discovered the profits that can be wrung from it.
    It is not clear whether the typical National Environmental Policy 
Act (NEPA) analysis process would apply to this exchange. On one hand, 
NEPA is not overtly waived in the bill, and the one-year deadline for 
completion allows time for NEPA implementation. However, the bill's 
language does not clearly require compliance with NEPA either, and if 
the process were followed it would lack much of its value--the bill 
mandates that the exchange occur and thus the outcome would be 
predetermined.
    In the case of mining activity facilitated by the exchange, an 
analysis would have to look at possible groundwater depletion, 
wastewater disposal, surface impacts, and many other direct and 
indirect effects. Instead, S. 409 provides bland assurances by 
Resolution that it will minimize impacts. Congress is clearly out of 
step with the public's wishes and interests by considering bypassing 
analysis, disclosure, and the deliberative decision process for a 
project that privatizes a treasured piece of public land and has such 
great likelihood to do harm to the environment.
    S. 409 also directs several sales of federal land to the Town of 
Superior, none of which can be said to serve any broader public 
interest. One sale is of a 30-acre cemetery, but it is not clear 
whether the parcel is entirely occupied by a cemetery or whether other 
future uses might be anticipated on some of the land. A second sale is 
of a reversionary interest covering 265 acres of land at the Superior 
airport. The airport land was originally conveyed by the Forest Service 
under an old statute aimed exclusively at providing land for community 
airports. Now, the reversionary clause--a mechanism designed to protect 
the public interest--would be bought out or possibly even given away, 
providing the town free rein to sell or develop the land for private 
economic development. A third sale would allow Superior to obtain up to 
250 additional acres of federal land contiguous to the airport. 
Superior may not even have to pay for the land it has requested: if the 
appraised value of the Resolution Copper lands exchanged exceeds the 
value of the Federal lands traded, the difference in value will be 
subtracted from the price of the lands conveyed to Superior. To add 
insult to injury, S. 409's 90-day deadline for the Superior parcels' 
conveyance means there will be no NEPA analysis of this portion of the 
bill.
    We urge the committee to stop further consideration of this bill. 
S. 409 provides Resolution Copper with environmentally and culturally 
important public lands from which the company stands to profit 
outrageously. The public benefits of this bill are comparatively 
trifling.
    Thank you for considering these comments.
                                 ______
                                 
Statement of Rodger Schlickeisen, President & Chief Executive Officer, 
        Defenders of Wildlife, National Headquarters, on S. 409
    Defenders of Wildlife is a national conservation organization that 
focuses on protecting native plants and animals in their natural. 
habitats. We have approximately 1 million members and supporters 
nationwide and maintain offices in 10 states, including Arizona and New 
Mexico. We recently learned about deliberations on 5.409 and are 
submitting the following for your consideration.
    The San Pedro River and its surrounding watershed is an 
internationally significant ecological resource. Any legislation 
pertaining to land use decisions within the watershed should further 
conservation of this national treasure.
    In addition, there are already administrative processes for 
addressing federal land exchanges that are designed to protect the 
public interest, comply with environmental laws, ensure public input, 
and ensure equal value exchanges. Any legislation mandating an exchange 
should at least meet these minimum standards.
    Changes to this bill since the 2008 version are mostly cosmetic, 
and so we continue to have additional specific concerns.
    The Exchange Should be Predicated on the Outcome of Environmental 
Review No thorough environmental review of the proposed exchange has 
been made. The bill says that the Secretary ``may'' decide to apply the 
National Environmental Policy Act (N-.EPA) and then states that the 
parties may agree that the Secretary of Agriculture take the lead. The 
legislation should make clear that NEPA review is required before any 
exchanges take place, including analysis through an Environmental 
impact Statement, to fully understand the effects of the proposal and 
any alternatives. The Department of Interior, not USDA, should lead 
this effort.
The Legislation Should Respect Tribal Concerns and Truly Protect Apache 
        Leap
    The language in the current bill describing the protection of the 
Apache Leap site is unclear. Although the bill appears to ``protect'' 
822 acres rather than the 695 listed by its predecessor, it is not 
clear whether only the surface is protected. There are significant 
concerns on the part of the Apache and others about both undermining 
and subsidence, and these issues must be clarified, and potentially 
mitigated, before any land exchange occurs
The Legislation Should Include Exchange of the BHP Property Near San 
        Manuel
    BHP, a corporate partner in the Resolution mine project, is 
planning a massive (35,000 home) housing development project that would 
likely have profound impacts on the water quantity and quality of the 
San Pedro River, including potentially dewatering the lower San Pedro 
River. To ensure that previous conservation investments by federal, 
state, and private partners are not severely impacted, and to protect 
the San Pedro ecosystem, the legislation should include these and other 
BHP lands along the San Pedro in the land exchanged to the government.
The Appraisal Process Needs to be Improved
    There is a long history of federal lands not being appraised at 
fair market values, resulting in significant losses to U.S. taxpayers. 
The legislation should ensure that taxpayers are receiving fair market 
value for the property.
An Operations and Reclamation Plan Should be Included
    The land exchange should be contingent on the mining companies' 
submitting a plan of operations and a reclamation plan for the site. 
Substantive criteria for reclamation of the site should be included in 
the legislation.
The Legislation Should Address the Impacts of Climate Change
    As deliberations move forward on this legislation, we want to 
emphasize the importance of understanding how climate change will, in 
future years, affect water resources in the areas under discussion. 
Scientists estimate globally that between 20 percent and 40 percent of 
existing species are likely to go extinct in the next century if global 
warming continues at its current rate.
    Unfortunately, little is currently understood regarding how climate 
change will specifically affect areas under discussion here, the 
impacts on species, or any projections on regional extinction rates. 
This concern becomes even more compelling as the emerging scientific 
evidence asserts that the coming decades of climate change will leave 
Southwest water levels significantly below historical levels. Some of 
the modeling shows dramatically less water in the coming years due to 
both increased heat and decreased precipitation. It is highly likely 
therefore, that if historical data are used to suggest future 
availability of water, data projections will far exceed actual future 
resources.
    Water is an essential component to the thriving diversity of life 
that lives in the San Pedro watershed as well as the human communities 
that share water along the San Pedro and Gila watersheds, and 
taxpayers' dollars have heavily invested in mitigation along the lower 
San Pedro so that the residents of the city of Phoenix could have an 
assured water supply. Obviously, this legislation has the potential to 
dramatically affect water allocations in all areas under consideration. 
Water allocation decisions based on historical data as opposed to 
future projections could leave shortfalls well below promised amounts. 
This could be disastrous to both natural and human communities in 
.Arizona and the Southwest.
    Thank you for your consideration.
                                 ______
                                 
  Statement of Herbert S. Fibel, President, Maricopa Audubon Society, 
                          Tempe, AZ, on S. 409
  <bullet> The proposed Resolution Copper Company (RCC) congressional 
        land exchange legislation is designed to exempt two foreign 
        mining companies from U.S. environmental protection law. Your 
        conferring of NEPA exemption in this land exchange eliminates 
        (1) citizen transparency guarantees under the law and the full 
        disclosure process of the Environmental Impact Statement (EIS). 
        It removes that all important ``look before you leap'' law on 
        what would be one of the largest, most riparian-destructive 
        mines now being proposed in the U.S. (2) S.409 also circumvents 
        Native American historical and cultural protection provided 
        under the National Historic Protection Act-NHPA, and (3) the 
        Endangered Species Act (ESA). This legislation would transfer 
        to the Resolution Copper Company (RCC) which is owned in turn 
        by the British-owned Rio Tinto and the Australian owned Broken 
        Hill Proprietary (BHP), some 2400 acres of U.S. Forest Service 
        public land near Superior, AZ. Both of these companies have 
        scandalous pollution and human rights violations on a global 
        scale. They stand on a record of companies circumventing public 
        oversight as guaranteed to U.S. citizens by our oversight laws 
        such as NEPA, ESA, and NHPA. Furthermore, ESA and NHPA are 
        greatly weakened without NEPA oversight.
  <bullet> S. 409 would privatize those thousands of acres of 
        environmentally, culturally, and historically unique lands 
        surrounding the Oak Flat Campground of the Tonto National 
        Forest located near Superior, Arizona. RCC would offer (1) 
        historically abused, overgrazed USFS inholdings (LX Bar, 6L, 
        JI, Clear Creek, 7B) as exchange properties. The acceptance of 
        the circa 1,000 acre ($7.5 million) largesse to the National 
        Audubon Society property near Elgin, AZ, along with the tens 
        and hundreds of thousands of dollars BHP, and Rio Tinto have 
        ``donated'' to the National Audubon Society office in Phoenix 
        (Audubon Arizona), besmirches the good name of our conservation 
        organization.
  <bullet> The RCC-proffered 3,073-acre, 7B Ranch exchange property on 
        the San Pedro River is not on a river at all but along a sandy, 
        dried-up portion of the river. It is seven miles of a dry, non-
        flowing, riverbed portion of that river. It is devoid of the 
        forest galleries of those broad-leaved deciduous cottonwoods, 
        willows, sycamores, etc. so essential for the diverse riparian 
        habitat for those federally endangered Western Yellow-billed 
        Cuckoos and Southwestern Willow Flycatchers and the other 
        flagship nesting and migratory birds usually associated with 
        this riparian treasure trove known as the San Pedro River. The 
        in-stream flow of the Lower San Pedro River is currently in the 
        process of being degraded by a BHP real estate development just 
        upstream at San Manuel, AZ. In BHP's San Manuel real estate 
        enterprise (some 35,000 homesites) BHP will dewater and destroy 
        thousands of acres of irreplaceable San Pedro riparian 
        mitigation properties of the U.S. Fish and Wildlife Service, 
        the U.S. Bureau of Reclamation, the Salt River Project and the 
        Nature Conservancy, and will further degrade the water table of 
        their already dried, sandy, treeless riverbed of their 7B swap 
        property. The net result of the San Manuel BHP real estate 
        development will be the futher dewatering and destruction of 
        some of the most irreplaceable Sonoran Desert riparian habitats 
        in Arizona.
  <bullet> The RCC mine will dewater outright the unique underground 
        aquifer supplying precious water to many miles of priceless 
        cottonwood, willow, sycamore, alder, ash, walnut and other 
        broad-leaved tree and plant vegetation in Devil's Canyon. It is 
        located a mile or so immediately west of the proposed RCC Oak 
        Flat block-cave implosion pit site (which would be wider and 
        deeper than Niagara Falls). RCC would dewater the aquifer 
        flooding their block-cave mine and eliminate that vital, life-
        giving aquifer which currently supplies water to this 
        unsurpassed riparian treasure. In its outstanding botanic and 
        avian species diversity it parallels the San Pedro and also has 
        the added diversity of a somewhat higher (chaparral) life zone 
        and altitude. The severe riparian dewatering harms of this 
        block-cave mine and its instant dewatering of the aquifer 
        supplying Devil's Canyon are unstudied, and unaccounted for 
        because the U.S. public will receive no NEPA oversight 
        regarding this severe river and aquifer destroying RCC mine. 
        This is an ecologic disaster and an inexcusable tragedy for one 
        of the most unique and species-diverse riparian Sonoran Desert 
        ecosystems of the Southwest.
  <bullet> It will be ten or fifteen years before RCC is ready to 
        remove any ore from their 7000 foot deep mine. So why are these 
        foreign mining companies justified in circumventing NEPA 
        oversight and our Native American cultural values and 
        traditions and sacred places? The cultural, historic (Apache 
        Leap) and environmental concerns could be addressed in that 
        more-than-ample ten, or fifteen-year time frame it will take 
        before mining can commence. RCC admits it will not be ready in 
        less than 15 years. So this should allow American citizens to 
        look before they leap into this massive environmental and 
        cultural mining travesty?
  <bullet> The proposed land swap, by removing NEPA oversight conceals 
        the mine's potential harms to the mine area's beautiful, highly 
        localized, federally endangered, Arizona Hedgehog Cactus 
        (Echinocereus triglochidiatus, var. arizonicus). Also to be 
        lost are BHP's real estate development plans which would dry up 
        the TNC, SRP, and BuRec Lower San Pedro River wildlife 
        mitigation properties.
  <bullet> The absence of any maps and engineering consultation and 
        testimony and oversight fails to address the mine's severe 
        implosion of the Apache Leap sacred site escarpment, the 
        collapse of Oak Flats, and the dewatering of the irreplaceable 
        riparian jewel that is the adjacent Devil's Canyon. At Apache 
        Leap 70-some Apaches leaped to their death to avoid capture by 
        the attacking U.S. Cavalry in the 19th century. On June 19, 
        2007 six of the surrounding Native American tribes assembled 
        and signed a strongly worded resolution at a prayer and 
        ceremonial event at the Oak Flat USFS Campground opposing the 
        land swap's desecration and destruction of the cultural, 
        historical, sacred and religious sites at this area. All 
        Arizona tribes have subsequently signed on through the Arizona 
        Intertribal Council. This is holy and sacred land as described 
        in their resolution. Would Americans allow a copper mine to 
        pollute and desecrate Gettysburg or Antietam battlefields, or 
        Ft. McHenry of Star Spangled Banner fame?
  <bullet> This mine will consume huge, unknown quantities of water 
        annually from Arizona's vulnerable, dwindling Colorado River 
        supplies, perhaps much more than 20,000 acre-feet/yr. (that 
        figure being enough for a city of 100,000). But if this 
        proposed legislation allows a short-circuited NEPA process, the 
        mine's water demands, aquifer pollutions, and riparian harms 
        will remain unknown to Arizona and U.S. citizens.

    In summary this lack of NEPA transparency and oversight conceals 
from the Arizona and U.S. public:

  <bullet> The location and/or scale of the air pollution impacts of 
        the mine's copper smelter(s), and which of Arizona's air, land 
        and watersheds will be polluted or contaminated.
  <bullet> Disclosure of the mine's air, acid mine waste, and aquifer 
        pollutions.
  <bullet> The specific depletions and pollutions of the surrounding 
        aquifers and water tables including Devil's Canyon,
  <bullet> The harms and threats to Native American cultural, 
        religious, and historical sites by the mine.
  <bullet> The dewatering of the unique and irreplaceable riparian 
        areas and their aquifers impacted by the mine including Devil's 
        Canyon, Lower San Pedro River, Queen Creek, Superior, AZ and 
        the adjacent Pima and Maricopa County aquifers and streams.
  <bullet> The amount of Central Arizona Project water consumed in (a) 
        operating the mine, and (b) involved in RCC's c. proposed 10-
        to-1 dilution of the two billion gallons of the polluted water 
        to be removed from the existing, old Magma mine. There will be 
        prolonged and continuous pumping of the aquifer at the mine 
        site and dewatering the entire area including the Devil's 
        Canyon riparian aquifer.
  <bullet> The San Carlos Apache Tribe has pointed out that the 
        legislation lacks any engineering study or map depicting the 
        area RCC claims they can protect from ``block-cave'' implosion. 
        RCC seems to not want to reveal to the public what full NEPA 
        oversight would reveal as to where the mine will collapse the 
        area.
                                 ______
                                 
   Statement of Jay Wilson, Hazard Mitigation Coordinator, Clackamas 
        County Emergency Management, Oregon City, OR, on S. 782
    On behalf of Clackamas County Emergency Management, I support the 
establishment of the National Volcano Early Warning System (NVEWS). 
Clackamas County Emergency Management recognizes Mount Hood as one of 
the County's worst-case natural hazards and, therefore, is in need of 
increased instrumentation. NVEWS will add value to emergency management 
planning by offering early signs of renewed activity, understanding 
long-term trends in background seismicity and gas emissions and, most 
importantly, provide the most immediate and accurate detection of 
imminent activity that would require warning and public action.
    The U.S. Geological Survey (NVEWS, Open File Report 2005-1164) 
designates Mount Hood as a very-high-threat volcano; their highest 
threat level. Mount Hood is one of four very-high-threat volcanoes in 
the Oregon Cascades (others are Crater Lake, Newberry and South Sister) 
and each is insufficiently monitored in relation to their threat level. 
For context, the report characterizes 18 volcanoes as very-high-threat 
and 37 volcanoes as a high-threat out of a total of 169 volcanoes under 
the United States' volcano monitoring authority.
    Like many volcanoes in the Cascade Range, Mount Hood is situated on 
federal lands and is a year-round recreational destination. Clackamas 
County's, as well as the Mount Hood region's, economy is based on these 
activities and the dramatic setting provides a playground for residents 
and visitors alike who may have no idea of the potential threats posed 
from a sleeping volcano. The Village of Government Camp (elevation 
3,950 feet) and the Timberline Lodge (elevation 5,960 feet) are located 
in the shadow of Mount Hood's remnant lava dome, Crater Rock, and they 
sit atop pyroclastic flows from the most recent 200-year old eruptions. 
Local and County officials have the safety of residents and visitors to 
consider throughout the year when taking into account the near field 
hazards of Mount Hood and the advantages of having a national 24/7 
early warning system.
    Therefore, any type of restricted access due to potential volcanic 
activity must be carefully considered due to economic impacts from road 
closures, business interruption and limited or mass evacuations. These 
types of decisions require better long-term data collection for careful 
analysis of each volcano's signatures of activity changes so scientists 
can explain uncertainty in their volcano alert levels and public 
officials can best manage expectations of the public and the media.
    Like many snow and ice covered volcanoes, Mount Hood sometimes 
disappears into the clouds for long periods of time during the winter 
season, when recreational activity is high and traffic on the Mountain 
is often difficult. Strong winter storms and cloud cover prevent any 
visual or satellite verification of seismic activity. Current 
monitoring is dependent on very limited local and regional seismometers 
to detect activity. Should a situation occur similar to Mount Saint 
Helens in 2004, winter would be the most challenging time to have to 
get instruments up on the mountain and operating. This is one of the 
strongest reasons for volcanoes to be instrumented commensurate with 
their threat level.
    Clackamas County continues to work closely with the U.S. Geological 
Survey, along with other federal and state partners, on Volcano 
Coordination Planning. But this level of planning can not replace the 
need for ongoing data that establishes a timeline of activity and a 
profile of behavior to support emergency management decisions for 
immediate action and ultimately for approaching recovery planning 
following the next inevitable eruption on Mount Hood.
    In conclusion, I support the establishment of a National Volcano 
Early Warning System as proposed in Senate Bill 782 and encourage 
increased investment in understanding the social and economic 
vulnerability to volcano hazards and the need for sustained public 
education and outreach.
                                 ______
                                 
 Statement of Nancy Freeman, Executive Director Groundwater Awareness 
                  League, Green Valley, AZ, on S. 409
    I am contacting you because you are a member of the Public Lands 
and Forest sub-committee, which will be hearing Bill S.409 on 
Wednesday, June 17. As a resident of Arizona, I am concerned that the 
U.S. Government is giving away beautiful, scenic, recreational land 
that also has a historical and cultural significance for the local 
Native Americans.
    Land exchanges were created for the purpose of serving the public 
good, such as consolidating endangered species habitat, acquiring 
environmentally sensitive areas, or preventing undesirable development. 
Another reason has been to give up plots of land that are isolated and 
thereby hard to manage and to consolidate other plots. However, this 
practice does not forego the basic purpose of ``for the public good.'' 
None of items on Bill S.409 meet any of the above criteria. Further, we 
have to question why Resolution Copper is taking the legislature route 
rather than the standard administrative public process by which 99% of 
land exchanges occur. We have never been told the true purpose behind 
this land exchange.
    The progenitors of this Bill have contacted or met any of the local 
Nations. Neither have they visited any of the sites that are being 
considered in the exchange--for none of them are significant. They are 
useless, over-grazed ranches that were sold to the mining company at 
fire sale prices (one of them actually was burned out).
    I am requesting that Senator McCain disclose how much of the 
$210,813 political contributions from mining companies in his 2008 
campaign was received from Resolution Copper, BHP and Rio Tinto, or any 
of their subsidiaries. Further, I am requesting that Senator Kyl 
disclose how much of the $82,823 political donations in his 2006 
campaign was received from Resolution Copper, BHP and Rio Tinto, or any 
of their subsidiaries.
    The records show that Rio Tinto and BHP (with their subsidiaries) 
are two of the worst polluters on the planet. Near the Salt Lake in 
Utah, Kennecott (Rio Tinto subsidiary) has one Superfund site and one 
that was just moved from the potential Superfund list. In Arizona BHP 
has the equivalent of a superfund site at Pinto Creek, in the region of 
the proposed Resolution Copper mine.
    Here in Arizona, we value these special places, for recreation and 
for wildlife. Oak Flat is a special place for bird watchers; the 
campground billboard warns that it is bear territory. Nearby Devil's 
Canyon is also a unique treasure for rock climbers and birders.
    The Oak Flat site is in the Tonto National Forest, which has only 
1% of riparian area to give water to the wildlife. In fact, a special 
Riparian Area Program has been created to protect, enhance and restore 
riparian areas there. If this land exchange occurs, the crucial 
riparian region of Devil's Canyon will be dewatered, while the public 
will be paying for riparian restoration elsewhere. The mining 
operations will have to pump water out a region a mile in diameter. 
This pumping is sure to rob the trees and vegetation in the whole 
region of water to sustain themselves. See attached report for 
hydrological details. (Attachment One)*
---------------------------------------------------------------------------
    * Report has been retained in subcommittee files.
---------------------------------------------------------------------------
    Most of you have no idea of the impacts of mining: high water 
usage, waste piles 100's of feet high, sulfuric acid leach facilities, 
dust control, and the converting of a scenic highway into a haul road 
for huge trucks to carry ore to the smelter. However, they are a 
reality in polluting air, water and soil. The mining company and some 
Arizona legislators think that it is worth it for the money brought in 
for jobs. However, the jobs formula does not hold up when one analyses 
the small percentage that the jobs represent in comparison to the 
overall profits to the corporation. (See Attachment Two)*
---------------------------------------------------------------------------
    * Attachment Two has been retained in subcommittee files.
---------------------------------------------------------------------------
    President Eisenhower was wise in protecting this area. The local 
story is that Mamie Eisenhower went on a picnic there during a 
Presidential visit to Arizona and twisted his arm to protect it. The 
area has been protected for some 50 years now. Successfully, for the 
campground billboard warns that it is bear country. It's always some 20 
degrees cooler than Phoenix, which is only an hour away, so it's also a 
cool haven in the summertime for city dwellers.

                                    

      

</pre></body></html>
